Table D.1                                                                                                                                                                                                                                                                     240
 CPP TRANSACTION DETAIL, AS OF 3/31/2012
                                                                                                                                 Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
12/23/2008   1st Constitution Bancorp, Cranbury, NJ                  Preferred Stock w/ Warrants                   $12,000,000   10/27/2010        $12,000,000              $—     11/18/2011      P             $326,576          $8.11                       $1,106,667
2/13/2009    1st Enterprise Bank, Los Angeles, CA2,49                Preferred Stock w/ Exercised Warrants          $4,400,000   9/1/2011            $4,400,000             $—     9/1/2011        R             $220,000         $12.50                       $1,128,156
12/11/2009   1st Enterprise Bank, Los Angeles, CA2,10a,49            Preferred Stock                                $6,000,000   9/1/2011            $6,000,000             $—     N/A                                 N/A
11/14/2008   1st FS Corporation, Hendersonville, NC                  Preferred Stock w/ Warrants                   $16,369,000                                                                                                                                 $1,229,949
1/23/2009    1st Source Corporation, South Bend, IN                  Preferred Stock w/ Warrants                 $111,000,000    12/29/2010       $111,000,000              $—     3/9/2011        R           $3,750,000         $24.76                      $10,730,000
3/13/2009    1st United Bancorp, Inc., Boca Raton, FL2               Preferred Stock w/ Exercised Warrants         $10,000,000   11/18/2009        $10,000,000              $—     11/18/2009      R             $500,000          $6.30                         $370,903
1/23/2009    AB&T Financial Corporation, Gastonia, NC                Preferred Stock w/ Warrants                    $3,500,000                                                                                                     $0.70                         $360,694
1/30/2009    Adbanc, Inc, Ogallala, NE2,49                           Preferred Stock w/ Exercised Warrants         $12,720,000   7/21/2011         $12,720,000              $—     7/21/2011       R             $636,000                                      $1,715,769
1/23/2009    Alarion Financial Services, Inc., Ocala, FL2            Preferred Stock w/ Exercised Warrants          $6,514,000                                                                                                                                   $998,057
2/6/2009     Alaska Pacific Bancshares, Inc., Juneau, AK             Preferred Stock w/ Warrants                    $4,781,000                                                                                                     $7.30                         $724,843
6/26/2009    Alliance Bancshares, Inc., Dalton, GA2                  Preferred Stock w/ Exercised Warrants          $2,986,000                                                                                                                                   $428,922
12/19/2008   Alliance Financial Corporation, Syracuse, NY            Preferred Stock w/ Warrants                   $26,918,000   5/13/2009         $26,918,000              $—     6/17/2009       R             $900,000         $31.41                         $538,360
                                                                     Subordinated Debentures w/ Exercised
6/26/2009    Alliance Financial Services Inc., Saint Paul, MN8                                                     $12,000,000                                                                                                                                   $388,742
                                                                     Warrants
                                                      2
4/24/2009    Allied First Bancorp, Inc., Oswego, IL                  Preferred Stock w/ Exercised Warrants          $3,652,000                                                                                                     $0.18                         $409,753
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I April 25, 2012




3/27/2009    Alpine Banks of Colorado, Glenwood Springs, CO2         Preferred Stock w/ Exercised Warrants         $70,000,000                                                                                                                                $11,128,789
1/30/2009    AMB Financial Corp., Munster, IN2,50                    Preferred Stock w/ Exercised Warrants          $3,674,000   9/22/2011           $3,674,000             $—     9/22/2011       R             $184,000          $4.60                         $529,576
3/6/2009     AmeriBank Holding Company, Collinsville, OK2,49         Preferred Stock w/ Exercised Warrants          $2,492,000   9/15/2011           $2,492,000             $—     9/15/2011       R             $125,000                                        $343,021
1/9/2009     American Express Company, New York, NY                  Preferred Stock w/ Warrants                $3,388,890,000   6/17/2009       $3,388,890,000             $—     7/29/2009       R        $340,000,000          $58.01                      $74,367,308
5/29/2009    American Premier Bancorp, Arcadia, CA2                  Preferred Stock w/ Exercised Warrants          $1,800,000   1/26/2011           $1,800,000             $—     1/26/2011       R              $90,000                                        $162,682
1/9/2009     American State Bancshares, Inc., Great Bend, KS2        Preferred Stock w/ Exercised Warrants          $6,000,000   11/2/2011           $6,000,000             $—     11/2/2011       R             $300,000                                        $920,142
11/21/2008   Ameris Bancorp, Moultrie, GA                            Preferred Stock w/ Warrants                   $52,000,000                                                                                                    $13.40       698,554         $8,406,667
12/19/2008   AmeriServ Financial, Inc, Johnstown, PA50               Preferred Stock w/ Warrants                   $21,000,000   8/11/2011         $21,000,000              $—     11/2/2011       R             $825,000          $2.62                       $2,776,667

                                                                 8   Subordinated Debentures w/ Exercised
8/21/2009    AmFirst Financial Services, Inc., McCook, NE                                                           $5,000,000                                                                                                                                 $1,041,760
                                                                     Warrants
1/30/2009    Anchor BanCorp Wisconsin Inc., Madison, WI              Preferred Stock w/ Warrants                 $110,000,000                                                                                                      $1.00     7,399,103
1/30/2009    Annapolis Bancorp, Inc., Annapolis, MD                  Preferred Stock w/ Warrants                    $8,152,000                                                                                                     $5.50       299,706         $1,239,783
                                                                                                                                 4/6/2011         $262,500,000     $262,500,000
11/21/2008   Associated Banc-Corp, Green Bay, WI                     Preferred Stock w/ Warrants                 $525,000,000                                                      11/30/2011      A           $3,584,977         $13.87                      $68,104,167
                                                                                                                                 9/14/2011        $262,500,000              $—
                                                          2,10
12/29/2009   Atlantic Bancshares, Inc., Bluffton, SC                 Preferred Stock w/ Exercised Warrants          $2,000,000                                                                                                     $1.10                         $122,725
2/27/2009    Avenue Financial Holdings, Inc., Nashville, TN2,49      Preferred Stock w/ Exercised Warrants          $7,400,000   9/15/2011           $7,400,000             $—     9/15/2011       R             $370,000                                      $1,028,415
3/13/2009    BancIndependent, Inc., Sheffield, AL2,49                Preferred Stock w/ Exercised Warrants         $21,100,000   7/14/2011         $21,100,000              $—     7/14/2011       R           $1,055,000                                      $2,686,411
7/10/2009    Bancorp Financial, Inc., Oak Brook, IL2,10,49           Preferred Stock w/ Exercised Warrants         $13,669,000   8/18/2011         $13,669,000              $—     8/18/2011       R             $410,000                                      $1,516,737
12/19/2008   Bancorp Rhode Island, Inc., Providence, RI              Preferred Stock w/ Warrants                   $30,000,000   8/5/2009          $30,000,000              $—     9/30/2009       R           $1,400,000                                        $941,667
2/20/2009    BancPlus Corporation, Ridgeland, MS2,30                 Preferred Stock w/ Exercised Warrants         $48,000,000   9/29/2010         $48,000,000              $—     9/29/2010       R           $2,400,000                                      $4,207,399
4/3/2009     BancStar, Inc., Festus, MO2                             Preferred Stock w/ Exercised Warrants          $8,600,000                                                                                                                                 $1,343,607
12/19/2008   BancTrust Financial Group, Inc., Mobile, AL             Preferred Stock w/ Warrants                   $50,000,000                                                                                                     $1.58       730,994         $7,888,889
8/14/2009    Bank Financial Services, Inc., Eden Prairie, MN2        Preferred Stock w/ Exercised Warrants          $1,004,000                                                                                                                                   $136,902
10/28/2008   Bank of America Corporation, Charlotte, NC1b            Preferred Stock w/ Warrants               $15,000,000,000   12/9/2009      $15,000,000,000             $—     3/3/2010        A        $186,342,969           $9.68                    $458,333,333
1/9/2009     Bank of America Corporation, Charlotte, NC1a,1b         Preferred Stock w/ Warrants               $10,000,000,000   12/9/2009      $10,000,000,000             $—     3/3/2010        A        $124,228,646                                    $835,416,667
1/16/2009    Bank of Commerce, Charlotte, NC2                        Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                   $381,046
11/14/2008   Bank of Commerce Holdings, Redding, CA49                Preferred Stock w/ Warrants                   $17,000,000   9/27/2011         $17,000,000              $—     10/26/2011      R             $125,000          $2.69                       $2,439,028
3/13/2009    Bank of George, Las Vegas, NV2                          Preferred Stock w/ Exercised Warrants          $2,672,000                                                                                                                                   $279,991
12/5/2008    Bank of Marin Bancorp, Novato, CA                       Preferred Stock w/ Warrants                   $28,000,000   3/31/2009         $28,000,000              $—     11/18/2011      P           $1,703,984         $38.18                         $451,111
4/17/2009    Bank of the Carolinas Corporation, Mocksville, NC       Preferred Stock w/ Warrants                   $13,179,000                                                                                                     $0.23       475,204         $1,039,677
12/12/2008   Bank of the Ozarks, Inc., Little Rock, AR               Preferred Stock w/ Warrants                   $75,000,000   11/4/2009         $75,000,000              $—     11/24/2009      R           $2,650,000         $31.96                       $3,354,167
             Bankers’ Bank of the West Bancorp, Inc.,
1/30/2009                                                            Preferred Stock w/ Exercised Warrants         $12,639,000                                                                                                                                   $717,532
             Denver, CO2
                                                                                                                                                                                                                                                    Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                       (CONTINUED)
                                                                                                                                 Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
1/23/2009    BankFirst Capital Corporation, Macon, MS2,49            Preferred Stock w/ Exercised Warrants         $15,500,000   9/8/2011          $15,500,000              $—     9/8/2011        R             $775,000                                      $2,217,469
2/13/2009    BankGreenville, Greenville, SC2                         Preferred Stock w/ Exercised Warrants          $1,000,000                                                                                                                                   $163,803
11/21/2008   Banner Corporation, Walla Walla, WA                     Preferred Stock w/ Warrants                 $124,000,000    3/28/2012        $108,071,915              $—                                                    $21.87       243,998        $20,046,667
             Banner County Ban Corporation, Harrisburg,
2/6/2009                                                             Preferred Stock w/ Exercised Warrants           $795,000    7/28/2011            $795,000              $—     7/28/2011       R              $40,000                                        $107,411
             NE2,49
1/16/2009    Bar Harbor Bankshares, Bar Harbor, ME                   Preferred Stock w/ Warrants                   $18,751,000   2/24/2010         $18,751,000              $—     7/28/2010       R             $250,000         $33.20                       $1,036,514
11/14/2008   BB&T Corp., Winston-Salem, NC                           Preferred Stock w/ Warrants                $3,133,640,000   6/17/2009       $3,133,640,000             $—     7/22/2009       R          $67,010,402         $31.34                      $92,703,517
             BBCN Bancorp, Inc. (Center Financial Corporation),
12/12/2008                                                           Preferred Stock w/ Warrants                   $55,000,000                                                                                                                                 $8,731,250
             Los Angeles, CA66
                                                                                                                                                                                                                                  $11.35       337,480
             BBCN Bancorp, Inc. (Nara Bancorp, Inc.),
11/21/2008                                                           Preferred Stock w/ Warrants                   $67,000,000                                                                                                                                $10,831,667
             Los Angeles, CA66
4/3/2009     BCB Holding Company, Inc., Theodore, AL2                Preferred Stock w/ Exercised Warrants          $1,706,000                                                                                                                                   $173,508
12/23/2008   BCSB Bancorp, Inc., Baltimore, MD                       Preferred Stock w/ Warrants                   $10,800,000   1/26/2011         $10,800,000              $—                                                    $13.30       183,465         $1,129,500
                                                                                                                                 7/6/2011            $1,500,000      $4,500,000
1/30/2009    Beach Business Bank, Manhattan Beach, CA2               Preferred Stock w/ Exercised Warrants          $6,000,000   10/19/2011          $1,500,000      $3,000,000                                                    $8.95                         $929,417
                                                                                                                                 3/7/2012            $1,500,000      $1,500,000
12/19/2008   Berkshire Hills Bancorp, Inc., Pittsfield, MA           Preferred Stock w/ Warrants                   $40,000,000   5/27/2009         $40,000,000              $—     6/24/2009       R           $1,040,000         $23.35                         $877,778
2/13/2009    Bern Bancshares, Inc., Bern, KS2,49                     Preferred Stock w/ Exercised Warrants           $985,000    9/1/2011             $985,000              $—     9/1/2011        R              $50,000          $6.95                         $137,063
             Birmingham Bloomfield Bancshares, Inc,
4/24/2009                                                            Preferred Stock w/ Exercised Warrants          $1,635,000   7/28/2011           $1,635,000             $—     7/28/2011       R              $82,000                                        $342,023
             Birmingham, MI2,49
             Birmingham Bloomfield Bancshares, Inc,
12/18/2009                                                           Preferred Stock                                $1,744,000   7/28/2011           $1,744,000             $—     N/A                                 N/A         $3.02
             Birmingham, MI2,10a,49
                                                                     Subordinated Debentures w/ Exercised
6/19/2009    Biscayne Bancshares, Inc., Coconut Grove, FL8,10                                                       $6,400,000                                                                                                                                 $1,386,033
                                                                     Warrants
3/13/2009    Blackhawk Bancorp, Inc., Beloit, WI2                    Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                     $9.00                       $1,592,611
5/22/2009    Blackridge Financial, Inc., Fargo, ND2                  Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                                   $744,076
3/6/2009     Blue Ridge Bancshares, Inc., Independence, MO2          Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                 $1,596,850
3/6/2009     Blue River Bancshares, Inc., Shelbyville, IN2           Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                     $0.02                         $529,105
12/5/2008    Blue Valley Ban Corp, Overland Park, KS                 Preferred Stock w/ Warrants                   $21,750,000                                                                                                     $5.50       111,083           $211,458
             BNB Financial Services Corporation, New
4/17/2009                                                            Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                   $440,542
             York, NY2
12/5/2008    BNC Bancorp, Thomasville, NC                            Preferred Stock w/ Warrants                   $31,260,000                                                                                                     $7.76       543,337         $4,992,917
2/27/2009    BNC Financial Group, Inc., New Canaan, CT2,49           Preferred Stock w/ Exercised Warrants          $4,797,000   8/4/2011            $4,797,000             $—     8/4/2011        R             $240,000         $14.00                         $636,921
1/16/2009    BNCCORP, Inc., Bismarck, ND2                            Preferred Stock w/ Exercised Warrants         $20,093,000                                                                                                     $2.30                         $909,542
3/6/2009     BOH Holdings, Inc., Houston, TX2,49                     Preferred Stock w/ Exercised Warrants         $10,000,000   7/14/2011         $10,000,000              $—     7/14/2011       R             $500,000                                      $1,283,777
                                                                     Subordinated Debentures w/ Exercised
5/15/2009    Boscobel Bancorp, Inc, Boscobel, WI8                                                                   $5,586,000                                                                                                                                   $468,624
                                                                     Warrants

             Boston Private Financial Holdings, Inc.,                                                                            1/13/2010         $50,000,000     $104,000,000    2/1/2011        A           $6,352,500
11/21/2008                                                           Preferred Stock w/ Warrants                 $154,000,000                                                                                                     $10.00                      $11,022,222
             Boston, MA                                                                                                          6/16/2010        $104,000,000              $—
                                                                                                                                 2/23/2011         $15,000,000       $8,864,000    4/20/2011       R           $1,395,000
12/23/2008   Bridge Capital Holdings, San Jose, CA                   Preferred Stock w/ Warrants                   $23,864,000                                                                                                    $13.59                       $2,613,582
                                                                                                                                 3/16/2011           $8,864,000             $—
12/19/2008   Bridgeview Bancorp, Inc., Bridgeview, IL2               Preferred Stock w/ Exercised Warrants         $38,000,000                                                                                                                                 $2,393,156
             Broadway Financial Corporation,
11/14/2008                                                           Preferred Stock                                $9,000,000
             Los Angeles, CA3a,72
                                                                                                                                                                                                                                   $1.31                         $810,417
             Broadway Financial Corporation,
12/4/2009                                                            Preferred Stock                                $6,000,000
             Los Angeles, CA3,10a,72
                                                                     Subordinated Debentures w/ Exercised
5/15/2009    Brogan Bankshares, Inc., Kaukauna, WI8                                                                 $2,400,000                                                                                                                                   $402,720
                                                                     Warrants
                                                              2,49
7/17/2009    Brotherhood Bancshares, Inc., Kansas City, KS           Preferred Stock w/ Exercised Warrants         $11,000,000   9/15/2011         $11,000,000              $—     9/15/2011       R             $550,000                                      $1,295,586
4/24/2009    Business Bancshares, Inc., Clayton, MO2                 Preferred Stock w/ Exercised Warrants         $15,000,000                                                                                                                                 $2,295,813
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I April 25, 2012




3/13/2009    Butler Point, Inc., Catlin, IL2                         Preferred Stock w/ Exercised Warrants           $607,000    11/2/2011            $607,000              $—     11/2/2011       R              $30,000                                         $87,124
1/9/2009     C&F Financial Corporation, West Point, VA               Preferred Stock w/ Warrants                   $20,000,000   7/27/2011         $10,000,000      $10,000,000                                                   $29.78       167,504         $2,825,000
                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              241
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                      (CONTINUED)                                                                                                                                                                     242
                                                                                                                                Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
12/23/2008   Cache Valley Banking Company, Logan, UT2,49            Preferred Stock w/ Exercised Warrants          $4,767,000   7/14/2011           $4,767,000             $—     7/14/2011       R             $238,000
                                                                                                                                                                                                                                                              $1,029,334
12/18/2009   Cache Valley Banking Company , Logan, UT2,10a,49       Preferred Stock                                $4,640,000   7/14/2011           $4,640,000             $—     N/A                                 N/A
1/9/2009     Cadence Financial Corporation, Starkville, MS33        Preferred Stock w/ Warrants                   $44,000,000   3/4/2011          $38,000,000              $—     N/A                                 N/A                                     $3,984,063
2/27/2009    California Bank of Commerce, Lafayette, CA2,49         Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $200,000                                        $555,900
1/23/2009    California Oaks State Bank, Thousand Oaks, CA2         Preferred Stock w/ Exercised Warrants          $3,300,000   12/8/2010           $3,300,000             $—     12/8/2010       R             $165,000                                        $337,219
1/23/2009    Calvert Financial Corporation, Ashland, MO2            Preferred Stock w/ Exercised Warrants          $1,037,000                                                                                                                                   $173,046
1/23/2009    CalWest Bancorp, Rancho Santa Margarita, CA2           Preferred Stock w/ Exercised Warrants          $4,656,000                                                                                                     $0.38                         $396,164
12/23/2008   Capital Bancorp, Inc., Rockville, MD2                  Preferred Stock w/ Exercised Warrants          $4,700,000   12/30/2010          $4,700,000             $—     12/30/2010      R             $235,000                                        $517,281
12/12/2008   Capital Bank Corporation, Raleigh, NC35                Preferred Stock w/ Warrants                   $41,279,000   1/28/2011         $41,279,000              $—     N/A                                 N/A         $2.39       749,619         $3,973,104
4/10/2009    Capital Commerce Bancorp, Inc., Milwaukee, WI2         Preferred Stock w/ Exercised Warrants          $5,100,000                                                                                                                                   $304,973
11/14/2008   Capital One Financial Corporation, McLean, VA          Preferred Stock w/ Warrants                $3,555,199,000   6/17/2009       $3,555,199,000             $—     12/3/2009       A        $148,731,030          $56.36                    $105,174,638
12/23/2008   Capital Pacific Bancorp, Portland, OR2                 Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                   $685,489
                                                                    Subordinated Debentures w/ Exercised
10/23/2009   Cardinal Bancorp II, Inc., Washington, MO8,50                                                         $6,251,000   9/8/2011            $6,251,000             $—     9/8/2011        R             $313,000                                        $983,480
                                                                    Warrants
1/9/2009     Carolina Bank Holdings, Inc., Greensboro, NC           Preferred Stock w/ Warrants                   $16,000,000                                                                                                     $4.11       357,675         $1,882,500
2/6/2009     Carolina Trust Bank, Lincolnton, NC                    Preferred Stock w/ Warrants                    $4,000,000                                                                                                     $2.30        86,957           $455,000
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I April 25, 2012




2/13/2009    Carrollton Bancorp, Baltimore, MD                      Preferred Stock w/ Warrants                    $9,201,000                                                                                                     $4.14       205,379           $922,656
1/16/2009    Carver Bancorp, Inc, New York, NY3,30                  Preferred Stock                               $18,980,000   8/27/2010         $18,980,000              $—     N/A                                 N/A         $6.53                       $1,531,581
             Cascade Financial Corporation,
11/21/2008                                                          Preferred Stock w/ Warrants                   $38,970,000   6/30/2011         $16,250,000              $—     N/A                                 N/A                                     $1,428,900
             Everett, WA47
12/5/2008    Cathay General Bancorp, Los Angeles, CA                Preferred Stock w/ Warrants                 $258,000,000                                                                                                     $18.03     1,846,374        $41,208,333
2/27/2009    Catskill Hudson Bancorp, Inc, Rock Hill, NY2,49        Preferred Stock w/ Exercised Warrants          $3,000,000   7/21/2011           $3,000,000             $—     7/21/2011       R             $150,000
                                                                                                                                                                                                                                 $17.35                         $685,071
12/22/2009   Catskill Hudson Bancorp, Inc, Rock Hill, NY2,10a,49    Preferred Stock w/ Exercised Warrants          $3,500,000   7/21/2011           $3,500,000             $—     7/21/2011       R             $113,000
5/29/2009    CB Holding Corp., Aledo, IL2,63                        Preferred Stock w/ Exercised Warrants          $4,114,000                                                                                                                                   $271,580
2/20/2009    CBB Bancorp, Cartersville, GA2                         Preferred Stock w/ Exercised Warrants          $2,644,000
                                                                                                                                                                                                                                                                $616,739
12/29/2009   CBB Bancorp, Cartersville, GA2,10a                     Preferred Stock                                $1,753,000
                                                2
3/27/2009    CBS Banc-Corp., Russellville, AL                       Preferred Stock w/ Exercised Warrants         $24,300,000                                                                                                                 523,076         $3,885,962
12/23/2008   Cecil Bancorp, Inc., Elkton, MD                        Preferred Stock w/ Warrants                   $11,560,000                                                                                                     $0.75       261,538           $516,989
2/6/2009     CedarStone Bank, Lebanon, TN2                          Preferred Stock w/ Exercised Warrants          $3,564,000                                                                                                                                   $587,516
1/9/2009     Center Bancorp, Inc., Union, NJ49                      Preferred Stock w/ Warrants                   $10,000,000   9/15/2011         $10,000,000              $—     12/7/2011       R             $245,000         $10.13                       $1,341,667
5/1/2009     CenterBank, Milford, OH2                               Preferred Stock w/ Exercised Warrants          $2,250,000                                                                                                                                   $342,114
11/21/2008   Centerstate Banks of Florida Inc., Davenport, FL       Preferred Stock w/ Warrants                   $27,875,000   9/30/2009         $27,875,000              $—     10/28/2009      R             $212,000                                      $1,196,303
1/16/2009    Centra Financial Holdings, Inc., Morgantown, WV2       Preferred Stock w/ Exercised Warrants         $15,000,000   3/31/2009         $15,000,000              $—     4/15/2009       R             $750,000          $8.35                         $172,938
12/5/2008    Central Bancorp, Inc., Somerville, MA50                Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     10/19/2011      R           $2,525,000         $18.60                       $1,361,111
2/27/2009    Central Bancorp, Inc., Garland, TX2                    Preferred Stock w/ Exercised Warrants         $22,500,000                                                                                                                                 $2,411,625
1/30/2009    Central Bancshares, Inc., Houston, TX2                 Preferred Stock w/ Exercised Warrants          $5,800,000   7/6/2011            $5,800,000             $—     7/6/2011        R             $290,000                                        $769,177
2/20/2009    Central Community Corporation, Temple, TX2             Preferred Stock w/ Exercised Warrants         $22,000,000                                                                                                                                 $3,580,347
12/5/2008    Central Federal Corporation, Fairlawn, OH              Preferred Stock w/ Warrants                    $7,225,000                                                                                                                 336,568           $612,118
12/23/2008   Central Jersey Bancorp, Oakhurst, NJ                   Preferred Stock w/ Warrants                   $11,300,000   11/24/2010        $11,300,000              $—     12/1/2010       R             $319,659          $0.92                       $1,084,486

             Central Pacific Financial Corp.,                                                                                   6/17/2011         $35,883,281      $99,116,719
1/9/2009                                                            Common Stock w/ Warrants                    $135,000,000                                                                                                     $13.39        79,288         $2,362,500
             Honolulu, HI37,46                                                                                                  3/29/2012         $36,039,222              $—
1/30/2009    Central Valley Community Bancorp, Fresno, CA50         Preferred Stock w/ Warrants                    $7,000,000   8/18/2011           $7,000,000             $—     9/28/2011       R             $185,017          $7.07                         $892,500
1/30/2009    Central Virginia Bankshares, Inc., Powhatan, VA        Preferred Stock w/ Warrants                   $11,385,000                                                                                                     $1.08       263,542           $450,656
12/18/2009   Centric Financial Corporation, Harrisburg, PA2,10,49   Preferred Stock w/ Exercised Warrants          $6,056,000   7/14/2011           $6,056,000             $—     7/14/2011       R             $182,000                                        $501,822
2/6/2009     Centrix Bank & Trust, Bedford, NH2,49                  Preferred Stock w/ Exercised Warrants          $7,500,000   7/28/2011           $7,500,000             $—     7/28/2011       R             $375,000         $17.75                       $1,012,791
1/9/2009     Centrue Financial Corporation, St. Louis, MO           Preferred Stock w/ Warrants                   $32,668,000                                                                                                                 508,320           $571,690
             Century Financial Services Corporation,                Subordinated Debentures w/ Exercised
6/19/2009                                                                                                         $10,000,000                                                                                                                                 $2,228,011
             Santa Fe, NM8                                          Warrants
                                                                    Subordinated Debentures w/ Exercised
5/29/2009    Chambers Bancshares, Inc., Danville, AR8                                                             $19,817,000                                                                                                                                 $4,507,675
                                                                    Warrants
                                                                                                                                                                                                                                                   Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                      (CONTINUED)
                                                                                                                               Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                           Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
7/31/2009    Chicago Shore Corporation , Chicago, IL2              Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                                                   $969,646
12/31/2008   CIT Group Inc., New York, NY16                        Contingent Value Rights                    $2,330,000,000   2/8/2010                  $—               $—     N/A                                 N/A        $41.60                      $43,687,500
10/28/2008   Citigroup Inc., New York, NY11,23                     Common Stock w/ Warrants                  $25,000,000,000   **             $25,000,000,000             $—     1/25/2011       A          $54,621,849         $36.87                    $932,291,667
1/16/2009    Citizens & Northern Corporation, Wellsboro, PA        Preferred Stock w/ Warrants                   $26,440,000   8/4/2010          $26,440,000              $—     9/1/2010        R             $400,000         $20.32                       $2,049,100
12/23/2008   Citizens Bancorp, Nevada City, CA2,61                 Preferred Stock w/ Exercised Warrants         $10,400,000                                                                                                     $0.01                         $223,571
5/29/2009    Citizens Bancshares Co., Chillicothe, MO2             Preferred Stock w/ Exercised Warrants         $24,990,000                                                                                                                                   $628,033
             Citizens Bancshares Corporation,
3/6/2009                                                           Preferred Stock                                $7,462,000   8/13/2010           $7,462,000             $—     N/A                                 N/A         $3.90                         $535,813
             Atlanta, GA3,30
                                                             2
3/20/2009    Citizens Bank & Trust Company, Covington, LA          Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                   $216,183
             Citizens Commerce Bancshares, Inc.,
2/6/2009                                                           Preferred Stock w/ Exercised Warrants          $6,300,000                                                                                                                                   $180,259
             Versailles, KY2
12/23/2008   Citizens Community Bank, South Hill, VA2,49           Preferred Stock w/ Exercised Warrants          $3,000,000   7/28/2011           $3,000,000             $—     7/28/2011       R             $150,000                                        $424,646
12/19/2008   Citizens First Corporation, Bowling Green, KY         Preferred Stock w/ Warrants                    $8,779,000   2/16/2011           $2,212,308      $6,566,692                                                    $7.60       254,218         $1,274,824
12/12/2008   Citizens Republic Bancorp, Inc., Flint, MI            Preferred Stock w/ Warrants                 $300,000,000                                                                                                     $15.83     1,757,813        $13,875,000
             Citizens South Banking Corporation,
12/12/2008                                                         Preferred Stock w/ Warrants                   $20,500,000   9/22/2011         $20,500,000              $—     11/9/2011       R             $225,157          $4.55                       $2,847,222
             Gastonia, NC50
             City National Bancshares Corporation,
4/10/2009                                                          Preferred Stock                                $9,439,000                                                                                                                                   $281,859
             Newark, NJ2,3
                                                                                                                               12/30/2009       $200,000,000     $200,000,000
11/21/2008   City National Corporation, Beverly Hills, CA          Preferred Stock w/ Warrants                 $400,000,000                                                      4/7/2010        R          $18,500,000         $52.38                      $23,916,667
                                                                                                                               3/3/2010         $200,000,000              $—
3/27/2009    Clover Community Bankshares, Inc., Clover, SC2        Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                   $267,050
             Coastal Banking Company, Inc.,
12/5/2008                                                          Preferred Stock w/ Warrants                    $9,950,000                                                                                                     $3.87       205,579           $967,361
             Fernandina Beach, FL
             CoastalSouth Bancshares, Inc.,
8/28/2009                                                          Preferred Stock w/ Exercised Warrants         $16,015,000                                                                                                                                 $1,235,449
             Hilton Head Island, SC2,10
12/19/2008   CoBiz Financial Inc., Denver, CO50                    Preferred Stock w/ Warrants                   $64,450,000   9/8/2011          $64,450,000              $—     11/18/2011      P             $143,677          $7.09                       $8,763,410
1/9/2009     Codorus Valley Bancorp, Inc., York, PA49              Preferred Stock w/ Warrants                   $16,500,000   8/18/2011         $16,500,000              $—     9/28/2011       R             $526,604         $11.19                       $2,151,875
2/13/2009    ColoEast Bankshares, Inc., Lamar, CO2                 Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                                                 $1,229,278
3/27/2009    Colonial American Bank, West Conshohocken, PA2        Preferred Stock w/ Exercised Warrants           $574,000    10/26/2011           $574,000              $—     10/26/2011      R              $29,000                                         $65,143
1/9/2009     Colony Bankcorp, Inc., Fitzgerald, GA                 Preferred Stock w/ Warrants                   $28,000,000                                                                                                     $3.80       500,000         $3,990,000
11/21/2008   Columbia Banking System, Inc., Tacoma, WA             Preferred Stock w/ Warrants                   $76,898,000   8/11/2010         $76,898,000              $—     9/1/2010        R           $3,301,647         $23.42                       $6,621,772
2/27/2009    Columbine Capital Corp., Buena Vista, CO2,49          Preferred Stock w/ Exercised Warrants          $2,260,000   9/22/2011           $2,260,000             $—     9/22/2011       R             $113,000                                        $316,479
11/14/2008   Comerica Inc., Dallas, TX                             Preferred Stock w/ Warrants                $2,250,000,000   3/17/2010       $2,250,000,000             $—     5/6/2010        A        $183,673,472          $32.29                    $150,937,500
1/9/2009     Commerce National Bank, Newport Beach, CA             Preferred Stock w/ Warrants                    $5,000,000   10/7/2009           $5,000,000             $—                                                     $8.30        87,209            $36,111
                                                                   Subordinated Debentures w/ Exercised
5/22/2009    Commonwealth Bancshares, Inc., Louisville, KY8                                                      $20,400,000                                                                                                                                 $4,673,515
                                                                   Warrants
1/23/2009    Commonwealth Business Bank, Los Angeles, CA2          Preferred Stock w/ Exercised Warrants          $7,701,000                                                                                                     $8.50                         $445,348
1/16/2009    Community 1st Bank, Roseville, CA2                    Preferred Stock w/ Exercised Warrants          $2,550,000                                                                                                                                   $139,020
3/6/2009     Community Bancshares of Kansas, Inc., Goff, KS2       Preferred Stock w/ Exercised Warrants           $500,000                                                                                                                                     $80,161
             Community Bancshares of Mississippi, Inc.,
9/11/2009                                                          Preferred Stock w/ Exercised Warrants         $52,000,000   9/29/2010         $52,000,000              $—     9/29/2010       R           $2,600,000                                      $2,975,700
             Brandon, MS2,30
7/24/2009    Community Bancshares, Inc., Kingman, AZ2,10           Preferred Stock w/ Exercised Warrants          $3,872,000                                                                                                                                   $522,002
1/16/2009    Community Bank of the Bay, Oakland, CA3,30            Preferred Stock                                $1,747,000   9/29/2010           $1,747,000             $—     N/A                                 N/A                                        $76,189
             Community Bank Shares of Indiana, Inc.,
5/29/2009                                                          Preferred Stock w/ Warrants                   $19,468,000   9/15/2011         $19,468,000              $—     10/19/2011      R           $1,100,870         $14.00                       $2,233,412
             New Albany, IN49
12/19/2008   Community Bankers Trust Corporation, Glen Allen, VA   Preferred Stock w/ Warrants                   $17,680,000                                                                                                     $2.20       780,000         $1,529,663
             Community Business Bank,
2/27/2009                                                          Preferred Stock w/ Exercised Warrants          $3,976,000                                                                                                     $6.50                         $642,907
             West Sacramento, CA2
12/19/2008   Community Financial Corporation, Staunton, VA         Preferred Stock w/ Warrants                   $12,643,000                                                                                                     $3.23       351,194         $1,994,785
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I April 25, 2012




5/15/2009    Community Financial Shares, Inc., Glen Ellyn, IL2     Preferred Stock w/ Exercised Warrants          $6,970,000                                                                                                     $2.20                         $569,865
             Community First Bancshares Inc.,
3/20/2009                                                          Preferred Stock w/ Exercised Warrants         $20,000,000   8/18/2011         $20,000,000              $—     8/18/2011       R           $1,000,000                                      $2,628,111
             Union City, TN2,49
4/3/2009     Community First Bancshares, Inc., Harrison, AR2       Preferred Stock w/ Exercised Warrants         $12,725,000                                                                                                                                 $1,988,005
2/27/2009    Community First Inc., Columbia, TN2                   Preferred Stock w/ Exercised Warrants         $17,806,000                                                                                                                                 $1,908,453
                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            243
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                    (CONTINUED)                                                                                                                                                                     244
                                                                                                                              Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
             Community Holding Company of Florida, Inc.,
2/6/2009                                                          Preferred Stock w/ Exercised Warrants          $1,050,000                                                                                                                                   $172,426
             Miramar Beach, FL2
12/23/2008   Community Investors Bancorp, Inc., Bucyrus, OH2      Preferred Stock w/ Exercised Warrants          $2,600,000                                                                                                                                   $445,568
1/30/2009    Community Partners Bancorp, Middletown, NJ49         Preferred Stock w/ Warrants                    $9,000,000   8/11/2011           $9,000,000             $—     10/26/2011      R             $460,000          $5.75                       $1,138,750
             Community Pride Bank Corporation,                    Subordinated Debentures w/ Exercised
11/13/2009                                                                                                       $4,400,000                                                                                                                                   $448,253
             Ham Lake, MN8,10                                     Warrants
             Community Trust Financial Corporation,
1/9/2009                                                          Preferred Stock w/ Exercised Warrants         $24,000,000   7/6/2011          $24,000,000              $—     7/6/2011        R           $1,200,000                                      $3,259,100
             Ruston, LA2,49
12/19/2008   Community West Bancshares, Goleta, CA                Preferred Stock w/ Warrants                   $15,600,000                                                                                                     $2.59       521,158         $2,461,333
1/9/2009     Congaree Bancshares, Inc., Cayce, SC2                Preferred Stock w/ Exercised Warrants          $3,285,000                                                                                                     $2.40                         $563,976
             Corning Savings and Loan Association,
2/13/2009                                                         Preferred Stock w/ Exercised Warrants           $638,000                                                                                                                                    $104,533
             Corning, AR2
1/30/2009    Country Bank Shares, Inc., Milford, NE2              Preferred Stock w/ Exercised Warrants          $7,525,000                                                                                                                                 $1,247,358
6/5/2009     Covenant Financial Corporation, Clarksdale, MS2      Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                                   $742,864
2/20/2009    Crazy Woman Creek Bancorp, Inc., Buffalo, WY2        Preferred Stock w/ Exercised Warrants          $3,100,000                                                                                                     $7.55                         $504,503
             Crescent Financial Bancshares, Inc. (Crescent
1/9/2009                                                          Preferred Stock w/ Warrants                   $24,900,000                                                                                                     $3.99                       $2,303,250
             Financial Corporation), Cary, NC65
1/23/2009    Crosstown Holding Company, Blaine, MN2               Preferred Stock w/ Exercised Warrants         $10,650,000                                                                                                                                 $1,776,884
                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I April 25, 2012




3/27/2009    CSRA Bank Corp., Wrens, GA2                          Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                   $180,940
             Customers Bancorp, Inc. (Berkshire Bancorp, Inc.),
6/12/2009                                                         Preferred Stock w/ Exercised Warrants          $2,892,000   12/28/2011          $2,892,000             $—     12/28/2011      R             $145,000                                        $407,478
             Phoenixville, PA2,60
                                                                                                                              8/26/2009         $97,500,000      $32,500,000
12/5/2008    CVB Financial Corp, Ontario, CA                      Preferred Stock w/ Warrants                 $130,000,000                                                      10/28/2009      R           $1,307,000         $11.80                       $4,739,583
                                                                                                                              9/2/2009          $32,500,000              $—
                                             2,49
2/27/2009    D.L. Evans Bancorp, Burley, ID                       Preferred Stock w/ Exercised Warrants         $19,891,000   9/27/2011         $19,891,000              $—     9/27/2011       R             $995,000                                      $2,800,592
                                                                  Subordinated Debentures w/ Exercised
5/15/2009    Deerfield Financial Corporation, Deerfield, WI8,49                                                  $2,639,000   9/8/2011            $2,639,000             $—     9/8/2011        R             $132,000                                        $512,339
                                                                  Warrants
12/4/2009    Delmar Bancorp, Delmar, MD2                          Preferred Stock w/ Exercised Warrants          $9,000,000                                                                                                                                   $832,488
2/13/2009    DeSoto County Bank, Horn Lake, MS2                   Preferred Stock w/ Exercised Warrants          $1,173,000
                                                                                                                                                                                                                                                              $352,669
12/29/2009   DeSoto County Bank, Horn Lake, MS2,10a               Preferred Stock                                $1,508,000
                                                                  Subordinated Debentures w/ Exercised
5/22/2009    Diamond Bancorp, Inc., Washington, MO8                                                             $20,445,000                                                                                                                                 $4,683,730
                                                                  Warrants
             Dickinson Financial Corporation II,
1/16/2009                                                         Preferred Stock w/ Exercised Warrants       $146,053,000                                                                                                                                  $2,631,197
             Kansas City, MO2
3/13/2009    Discover Financial Services , Riverwoods, IL         Preferred Stock w/ Warrants                $1,224,558,000   4/21/2010       $1,224,558,000             $—     7/7/2010        R        $172,000,000          $33.70                      $67,690,844
1/30/2009    DNB Financial Corporation, Downingtown, PA49         Preferred Stock w/ Warrants                   $11,750,000   8/4/2011          $11,750,000              $—     9/21/2011       R             $458,000         $14.25                       $1,475,278
                                                                  Subordinated Debentures w/ Exercised
6/19/2009    Duke Financial Group, Inc., Minneapolis, MN8                                                       $12,000,000                                                                                                                                 $2,824,473
                                                                  Warrants
                                                                                                                              12/23/2009        $15,000,000      $23,235,000
12/5/2008    Eagle Bancorp, Inc., Bethesda, MD49                  Preferred Stock w/ Warrants                   $38,235,000                                                     11/18/2011      P           $2,794,422         $17.44                       $3,817,732
                                                                                                                              7/14/2011         $23,235,000              $—
12/5/2008    East West Bancorp, Pasadena, CA                      Preferred Stock w/ Warrants                 $306,546,000    12/29/2010       $306,546,000              $—     1/26/2011       R          $14,500,000         $23.06                      $31,676,420
             Eastern Virginia Bankshares, Inc.,
1/9/2009                                                          Preferred Stock w/ Warrants                   $24,000,000                                                                                                     $3.61       373,832         $2,220,000
             Tappahannock, VA
1/16/2009    ECB Bancorp, Inc., Engelhard, NC                     Preferred Stock w/ Warrants                   $17,949,000                                                                                                     $9.31       144,984         $2,764,645
12/23/2008   Emclaire Financial Corp., Emlenton, PA49             Preferred Stock w/ Warrants                    $7,500,000   8/18/2011           $7,500,000             $—     12/7/2011       R              $51,113         $18.59                         $994,792
12/5/2008    Encore Bancshares Inc., Houston, TX50                Preferred Stock w/ Warrants                   $34,000,000   9/27/2011         $34,000,000              $—     11/18/2011      P             $637,071         $20.42                       $4,778,889
12/19/2008   Enterprise Financial Services Corp., St. Louis, MO   Preferred Stock w/ Warrants                   $35,000,000                                                                                                    $12.08       324,074         $5,522,222
             Enterprise Financial Services Group, Inc.,
6/12/2009                                                         Preferred Stock w/ Exercised Warrants          $4,000,000   8/25/2011           $4,000,000             $—     8/25/2011       R             $200,000                                        $480,206
             Allison Park, PA2,49
                                                    2,49
1/30/2009    Equity Bancshares, Inc., Wichita, KS                 Preferred Stock w/ Exercised Warrants          $8,750,000   8/11/2011           $8,750,000             $—     8/11/2011       R             $438,000                                      $1,206,873
12/19/2008   Exchange Bank, Santa Rosa, CA2                       Preferred Stock w/ Exercised Warrants         $43,000,000                                                                                                                                 $6,809,169
                                                                  Subordinated Debentures w/ Exercised
5/22/2009    F & C Bancorp, Inc., Holden, MO8                                                                    $2,993,000                                                                                                                                   $685,810
                                                                  Warrants
1/30/2009    F & M Bancshares, Inc., Trezevant, TN2               Preferred Stock w/ Exercised Warrants          $4,609,000
                                                                                                                                                                                                                                                            $1,166,021
11/6/2009    F & M Bancshares, Inc., Trezevant, TN2,10a           Preferred Stock                                $3,535,000
2/6/2009     F & M Financial Corporation, Salisbury, NC2          Preferred Stock w/ Exercised Warrants         $17,000,000                                                                                                                                 $2,802,663
                                                                                                                                                                                                                                                 Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                        (CONTINUED)
                                                                                                                                  Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
2/13/2009    F&M Financial Corporation, Clarksville, TN2              Preferred Stock w/ Exercised Warrants         $17,243,000                                                                                                                                 $2,824,411
1/9/2009     F.N.B. Corporation, Hermitage, PAm                       Preferred Stock w/ Warrants                 $100,000,000    9/9/2009         $100,000,000              $—     11/18/2011      P             $690,100         $12.32       819,640         $3,333,333
             F.N.B. Corporation (Parkvale Financial
12/23/2008                                                            Preferred Stock w/ Warrants                   $31,762,000   1/3/2012          $31,762,000              $—                                                                                 $4,808,414
             Corporation), Monroeville, PA67
             Farmers & Merchants Bancshares, Inc.,
3/6/2009                                                              Preferred Stock w/ Exercised Warrants         $11,000,000                                                                                                                                 $1,763,530
             Houston, TX2
             Farmers & Merchants Financial Corporation,
3/20/2009                                                             Preferred Stock w/ Exercised Warrants           $442,000                                                                                                                                     $69,899
             Argonia, KS2
                                           2
1/23/2009    Farmers Bank , Windsor, VA                               Preferred Stock w/ Exercised Warrants          $8,752,000                                                                                                                                 $1,460,211
1/9/2009     Farmers Capital Bank Corporation, Frankfort, KY          Preferred Stock w/ Warrants                   $30,000,000                                                                                                     $6.29       223,992         $4,650,000
                                                                      Subordinated Debentures w/ Exercised
6/19/2009    Farmers Enterprises, Inc., Great Bend, KS8                                                             $12,000,000                                                                                                                                 $2,673,616
                                                                      Warrants
                                                              2, 50
3/20/2009    Farmers State Bankshares, Inc., Holton, KS               Preferred Stock w/ Exercised Warrants           $700,000    7/21/2011            $700,000              $—     7/21/2011       R              $40,000                                         $90,174
                                                                      Subordinated Debentures w/ Exercised
12/29/2009   FBHC Holding Company, Boulder, CO8,10,38                                                                $3,035,000   3/9/2011             $650,000              $—     N/A                                 N/A                                       $154,592
                                                                      Warrants
6/26/2009    FC Holdings, Inc., Houston, TX2                          Preferred Stock w/ Exercised Warrants         $21,042,000                                                                                                                                   $156,090
12/19/2008   FCB Bancorp, Inc., Louisville, KY2,50                    Preferred Stock w/ Exercised Warrants          $9,294,000   9/22/2011           $9,294,000             $—     9/22/2011       R             $465,000                                      $1,397,234
12/19/2008   FFW Corporation, Wabash, IN2                             Preferred Stock w/ Exercised Warrants          $7,289,000                                                                                                                                 $1,253,419
                                                                      Subordinated Debentures w/ Exercised
5/29/2009    Fidelity Bancorp, Inc, Baton Rouge, LA8                                                                 $3,942,000                                                                                                                                   $896,620
                                                                      Warrants
12/12/2008   Fidelity Bancorp, Inc., Pittsburgh, PA                   Preferred Stock w/ Warrants                    $7,000,000                                                                                                    $10.85       121,387         $1,111,250
11/13/2009   Fidelity Federal Bancorp, Evansville, IN2,10             Preferred Stock w/ Exercised Warrants          $6,657,000                                                                                                                                         $—
12/19/2008   Fidelity Financial Corporation, Wichita, KS2             Preferred Stock w/ Exercised Warrants         $36,282,000                                                                                                                                 $6,239,669
12/19/2008   Fidelity Southern Corporation, Atlanta, GA               Preferred Stock w/ Warrants                   $48,200,000                                                                                                     $6.75     2,422,071         $7,604,889
12/31/2008   Fifth Third Bancorp, Cincinnati, OH                      Preferred Stock w/ Warrants                $3,408,000,000   2/2/2011        $3,408,000,000             $—     3/16/2011       R        $280,025,936          $14.44                    $355,946,667
                                                                                                                                  2/23/2011         $12,505,000      $25,010,000
12/23/2008   Financial Institutions, Inc., Warsaw, NY                 Preferred Stock w/ Warrants                   $37,515,000                                                     5/11/2011       R           $2,079,963         $16.87                       $4,192,649
                                                                                                                                  3/30/2011         $25,010,000              $—
                                                           2,50
2/13/2009    Financial Security Corporation, Basin, WY                Preferred Stock w/ Exercised Warrants          $5,000,000   7/21/2011           $5,000,000             $—     7/21/2011       R             $250,000                                        $664,597
             Financial Services of Winger, Inc.,                      Subordinated Debentures w/ Exercised
7/31/2009                                                                                                            $3,742,000   9/1/2011            $3,742,000             $—     9/1/2011        R             $112,000                                        $633,322
             Winger, MN8,10,49                                        Warrants
             First Advantage Bancshares Inc.,
5/22/2009                                                             Preferred Stock w/ Exercised Warrants          $1,177,000                                                                                                                                   $175,192
             Coon Rapids, MN2
6/26/2009    First Alliance Bancshares, Inc., Cordova, TN2            Preferred Stock w/ Exercised Warrants          $3,422,000                                                                                                                                   $491,608
             First American Bank Corporation,                         Subordinated Debentures w/ Exercised
7/24/2009                                                                                                           $50,000,000   12/21/2011        $15,000,000      $35,000,000                                                                               $10,558,975
             Elk Grove Village, IL8                                   Warrants
             First American International Corp.,
3/13/2009                                                             Preferred Stock                               $17,000,000   8/13/2010         $17,000,000              $—     N/A                                 N/A                                     $1,204,167
             Brooklyn, NY3,30
                                      50
1/9/2009     First Bancorp, Troy, NC                                  Preferred Stock w/ Warrants                   $65,000,000   9/1/2011          $65,000,000              $—     11/18/2011      P             $924,462         $11.17       616,308         $8,594,444
1/16/2009    First BanCorp, San Juan, PR28                            Common Stock w/ Warrants                    $424,174,000                                                                                                     $15.27       389,484        $32,999,386
2/20/2009    First BancTrust Corporation, Paris, IL2                  Preferred Stock w/ Exercised Warrants          $7,350,000   1/18/2012           $3,675,000      $3,675,000                                                   $10.40                       $1,182,515
2/6/2009     First Bank of Charleston, Inc., Charleston, WV2,50       Preferred Stock w/ Exercised Warrants          $3,345,000   7/21/2011           $3,345,000             $—     7/21/2011       R             $167,000                                        $448,105
1/16/2009    First Bankers Trustshares, Inc., Quincy, IL2,50          Preferred Stock w/ Exercised Warrants         $10,000,000   9/8/2011          $10,000,000              $—     9/8/2011        R             $500,000         $24.95                       $1,441,222
12/31/2008   First Banks, Inc., Clayton, MO2                          Preferred Stock w/ Exercised Warrants       $295,400,000                                                                                                                                  $6,037,238
3/6/2009     First Busey Corporation, Urbana, IL50                    Preferred Stock w/ Warrants                 $100,000,000    8/25/2011        $100,000,000              $—     11/18/2011      P              $63,677          $5.10                      $12,347,222
4/10/2009    First Business Bank, N.A., San Diego, CA2                Preferred Stock w/ Exercised Warrants          $2,211,000
                                                                                                                                                                                                                                                                  $564,466
12/11/2009   First Business Bank, N.A., San Diego, CA2,10a            Preferred Stock                                $2,032,000
             First California Financial Group, Inc,
12/19/2008                                                            Preferred Stock w/ Warrants                   $25,000,000   7/14/2011         $25,000,000              $—     8/24/2011       R             $599,042          $5.95                       $3,211,806
             Westlake Village, CA50
4/3/2009     First Capital Bancorp, Inc., Glen Allen, VA              Preferred Stock w/ Warrants                   $10,958,000                                                                                                     $2.02       250,947         $1,570,647
2/13/2009    First Choice Bank, Cerritos, CA2,30                      Preferred Stock w/ Exercised Warrants          $2,200,000   9/24/2010           $2,200,000             $—     9/24/2010       R             $110,000
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I April 25, 2012




                                                                                                                                                                                                                                                                  $300,643
12/22/2009   First Choice Bank, Cerritos, CA2,10a,30                  Preferred Stock                                $2,836,000   9/24/2010           $2,836,000             $—     N/A                                 N/A
1/23/2009    First Citizens Banc Corp, Sandusky, OH                   Preferred Stock w/ Warrants                   $23,184,000                                                                                                     $7.60       469,312         $3,548,440
3/20/2009    First Colebrook Bancorp, Inc., Colebrook, NH2,49         Preferred Stock w/ Exercised Warrants          $4,500,000   9/22/2011           $4,500,000             $—     9/22/2011       R             $225,000                                        $614,488
11/21/2008   First Community Bancshares Inc., Bluefield, VA           Preferred Stock w/ Warrants                   $41,500,000   7/8/2009          $41,500,000              $—     11/18/2011      P              $30,600         $14.04                       $1,308,403
                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                               245
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                            (CONTINUED)                                                                                                                                                                    246
                                                                                                                                     Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                             Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                              Investment Description                     Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
             First Community Bancshares, Inc, Overland
5/15/2009                                                             Preferred Stock w/ Exercised Warrants            $14,800,000                                                                                                                                   $604,950
             Park, KS2
             First Community Bank Corporation of America,
12/23/2008                                                            Preferred Stock w/ Warrants                      $10,685,000   5/31/2011           $7,754,267             $—     N/A                                 N/A                                       $744,982
             Pinellas Park, FL39
11/21/2008   First Community Corporation, Lexington, SC               Preferred Stock w/ Warrants                      $11,350,000                                                                                                     $7.80       195,915         $1,834,917
12/11/2009   First Community Financial Partners, Inc., Joliet, IL2    Preferred Stock w/ Exercised Warrants            $22,000,000                                                                                                                                 $2,611,156
12/5/2008    First Defiance Financial Corp., Defiance, OH             Preferred Stock w/ Warrants                      $37,000,000                                                                                                    $17.41       550,595         $5,909,722
             First Eagle Bancshares, Inc.,                            Subordinated Debentures w/ Exercised
9/11/2009                                                                                                               $7,500,000   9/17/2010           $7,500,000             $—     9/17/2010       R             $375,000                                        $639,738
             Hanover Park, IL8,30                                     Warrants
                                                             2
2/6/2009     First Express of Nebraska, Inc., Gering, NE              Preferred Stock w/ Exercised Warrants             $5,000,000   2/15/2012           $5,000,000             $—     2/15/2012       R             $250,000                                        $824,313
             First Federal Bancshares of Arkansas, Inc.,
3/6/2009                                                              Preferred Stock w/ Warrants                      $16,500,000   5/3/2011            $6,000,000             $—     N/A                                 N/A         $6.84                         $570,625
             Harrison, AR42
12/23/2008   First Financial Bancorp, Cincinnati, OH                  Preferred Stock w/ Warrants                      $80,000,000   2/24/2010         $80,000,000              $—     6/2/2010        A           $3,116,284         $17.70                       $4,677,778
             First Financial Bancshares, Inc.,                        Subordinated Debentures w/ Exercised
6/12/2009                                                                                                               $3,756,000   9/22/2011           $3,756,000             $—     9/22/2011       R             $113,000                                        $694,280
             Lawrence, KS8,10,49                                      Warrants
             First Financial Holdings Inc.,
12/5/2008                                                             Preferred Stock w/ Warrants                      $65,000,000   3/28/2012         $55,926,478              $—                                                    $11.42       241,696        $10,381,944
             Charleston, SC75
1/9/2009     First Financial Service Corporation, Elizabethtown, KY   Preferred Stock w/ Warrants                      $20,000,000                                                                                                     $3.34       215,983         $1,600,000
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I April 25, 2012




12/22/2009   First Freedom Bancshares, Inc., Lebanon, TN2,10          Preferred Stock w/ Exercised Warrants             $8,700,000                                                                                                                                   $984,480
             First Gothenburg Bancshares, Inc.,
2/27/2009                                                             Preferred Stock w/ Exercised Warrants             $7,570,000                                                                                                                                 $1,224,321
             Gothenburg, NE2
8/28/2009    First Guaranty Bancshares, Inc., Hammond, LA2,49         Preferred Stock w/ Exercised Warrants            $20,699,000   9/22/2011         $20,699,000              $—     9/22/2011       R           $1,030,000                                      $2,330,477
11/14/2008   First Horizon National Corporation, Memphis, TN          Preferred Stock w/ Warrants                    $866,540,000    12/22/2010       $866,540,000              $—     3/9/2011        R          $79,700,000         $10.47                      $91,227,406
8/28/2009    First Independence Corporation, Detroit, MI2,3           Preferred Stock                                   $3,223,000                                                                                                                                   $397,056
3/13/2009    First Intercontinental Bank, Doraville, GA2              Preferred Stock w/ Exercised Warrants             $6,398,000                                                                                                                                   $757,454
12/12/2008   First Litchfield Financial Corporation, Litchfield, CT   Preferred Stock w/ Warrants                      $10,000,000   4/7/2010          $10,000,000              $—     4/7/2010        R           $1,488,046                                        $659,722
2/27/2009    First M&F Corporation, Kosciusko, MS30                   Preferred Stock w/ Warrants                      $30,000,000   9/29/2010         $30,000,000              $—                                                     $4.99       513,113         $2,383,333
1/16/2009    First Manitowoc Bancorp, Inc., Manitowoc, WI2            Preferred Stock w/ Exercised Warrants            $12,000,000   5/27/2009         $12,000,000              $—     5/27/2009       R             $600,000         $14.10                         $237,983
2/13/2009    First Menasha Bancshares, Inc., Neenah, WI2,49           Preferred Stock w/ Exercised Warrants             $4,797,000   9/15/2011           $4,797,000             $—     9/15/2011       R             $240,000                                        $676,865
                                                                      Preferred Stock w/ Warrants                      $69,600,000   9/22/2011         $69,600,000              $—     11/18/2011                                                                 $12,167,111
                                                         27,49,50
2/20/2009    First Merchants Corporation, Muncie, IN                                                                                                                                                   P             $367,500         $12.16
                                                                      Trust Preferred Securities                       $46,400,000   9/22/2011         $46,400,000              $—                                                                                 $2,848,444
12/5/2008    First Midwest Bancorp, Inc., Itasca, IL                  Preferred Stock w/ Warrants                    $193,000,000    11/23/2011       $193,000,000              $—     12/21/2011      R             $900,000         $12.24                      $28,628,333
3/13/2009    First National Corporation, Strasburg, VA2               Preferred Stock w/ Exercised Warrants            $13,900,000                                                                                                                                 $2,213,730
             First NBC Bank Holding Company,
3/20/2009                                                             Preferred Stock w/ Exercised Warrants            $17,836,000   8/4/2011          $17,836,000              $—     8/4/2011        R             $892,000                                      $2,305,990
             New Orleans, LA2,49
11/21/2008   First Niagara Financial Group, Lockport, NY              Preferred Stock w/ Warrants                    $184,011,000    5/27/2009        $184,011,000              $—     6/24/2009       R           $2,700,000          $9.79                       $4,753,618
3/13/2009    First Northern Community Bancorp, Dixon, CA49            Preferred Stock w/ Warrants                      $17,390,000   9/15/2011         $17,390,000              $—     11/16/2011      R             $375,000          $5.35                       $2,178,580
11/21/2008   First PacTrust Bancorp, Inc., Chula Vista, CA            Preferred Stock w/ Warrants                      $19,300,000   12/15/2010        $19,300,000              $—     1/5/2011        R           $1,003,227         $11.95     3,670,822         $1,994,333
3/13/2009    First Place Financial Corp., Warren, OH                  Preferred Stock w/ Warrants                      $72,927,000                                                                                                     $0.72                       $7,009,095
2/20/2009    First Priority Financial Corp., Malvern, PA2             Preferred Stock w/ Exercised Warrants             $4,579,000
                                                                                                                                                                                                                                                                   $1,241,199
12/18/2009   First Priority Financial Corp., Malvern, PA2,10a         Preferred Stock                                   $4,596,000
3/6/2009     First Reliance Bancshares, Inc., Florence, SC2           Preferred Stock w/ Exercised Warrants            $15,349,000                                                                                                     $1.90                       $2,042,406
1/30/2009    First Resource Bank, Exton, PA2,50                       Preferred Stock w/ Exercised Warrants             $2,600,000   9/15/2011           $2,600,000             $—     9/15/2011       R             $130,000
                                                                                                                                                                                                                                                                     $584,794
12/11/2009   First Resource Bank, Exton, PA2,10a,49                   Preferred Stock                                   $2,417,000   9/15/2011           $2,417,000             $—     N/A                                 N/A
1/9/2009     First Security Group, Inc., Chattanooga, TN              Preferred Stock w/ Warrants                      $33,000,000                                                                                                     $3.30       823,627         $1,402,500
12/23/2008   First Sound Bank, Seattle, WA                            Preferred Stock w/ Warrants                       $7,400,000                                                                                                     $0.06       114,080           $330,944
                                                                      Subordinated Debentures w/ Exercised
7/17/2009    First South Bancorp, Inc., Lexington, TN8                                                                 $50,000,000   9/28/2011         $13,125,000      $36,875,000                                                                               $10,429,178
                                                                      Warrants
1/30/2009    First Southern Bancorp, Inc., Boca Raton, FL2            Preferred Stock w/ Exercised Warrants            $10,900,000   6/16/2010         $10,900,000              $—     6/16/2010       R             $545,000                                        $818,468
             First Southwest Bancorporation, Inc.,
3/6/2009                                                              Preferred Stock w/ Exercised Warrants             $5,500,000                                                                                                                                   $207,327
             Alamosa, CO2
2/27/2009    First State Bank of Mobeetie, Mobeetie, TX2              Preferred Stock w/ Exercised Warrants              $731,000    4/14/2010            $731,000              $—     4/14/2010       R              $37,000                                         $45,087
3/6/2009     First Texas BHC, Inc., Fort Worth, TX2,49                Preferred Stock w/ Exercised Warrants            $13,533,000   9/15/2011         $13,533,000              $—     9/15/2011       R             $677,000                                      $1,862,389
                                                                                                                                                                                                                                                        Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (CONTINUED)
                                                                                                                             Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                     Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                         Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
                                                                 Subordinated Debentures w/ Exercised
6/5/2009     First Trust Corporation, New Orleans, LA8                                                         $17,969,000                                                                                                                                 $1,046,896
                                                                 Warrants
                                            2
1/23/2009    First ULB Corp., Oakland, CA                        Preferred Stock w/ Exercised Warrants          $4,900,000   4/22/2009           $4,900,000             $—     4/22/2009       R             $245,000                                         $66,021
1/30/2009    First United Corporation, Oakland, MD               Preferred Stock w/ Warrants                   $30,000,000                                                                                                     $6.35       326,323         $2,312,500
             First Vernon Bancshares, Inc.,
6/12/2009                                                        Preferred Stock w/ Exercised Warrants          $6,000,000   9/29/2010           $6,000,000             $—     9/29/2010       R             $245,000                                        $417,770
             Vernon, AL2,10,30
                                                          2
2/6/2009     First Western Financial, Inc., Denver, CO           Preferred Stock w/ Exercised Warrants          $8,559,000
                                                                                                                                                                                                                                                           $2,704,780
12/11/2009   First Western Financial, Inc., Denver, CO2,10a      Preferred Stock                               $11,881,000
1/30/2009    Firstbank Corporation, Alma, MI                     Preferred Stock w/ Warrants                   $33,000,000                                                                                                     $8.32       578,947         $5,018,750
1/9/2009     FirstMerit Corporation, Akron, OH                   Preferred Stock w/ Warrants                 $125,000,000    4/22/2009        $125,000,000              $—     5/27/2009       R           $5,025,000         $16.89                       $1,788,194
1/30/2009    Flagstar Bancorp, Inc., Troy, MI                    Preferred Stock w/ Warrants                 $266,657,000                                                                                                      $0.92     6,451,379        $37,220,872
7/24/2009    Florida Bank Group, Inc., Tampa, FL2                Preferred Stock w/ Exercised Warrants         $20,471,000                                                                                                                                 $1,180,793
2/20/2009    Florida Business BancGroup, Inc., Tampa, FL2,49     Preferred Stock w/ Exercised Warrants          $9,495,000   9/22/2011           $9,495,000             $—     9/22/2011       R             $475,000                                      $1,339,751
12/19/2008   Flushing Financial Corporation, Lake Success, NY    Preferred Stock w/ Warrants                   $70,000,000   10/28/2009        $70,000,000              $—     12/30/2009      R             $900,000         $13.74                       $3,004,167
2/27/2009    FNB Bancorp, South San Francisco, CA2,50            Preferred Stock w/ Exercised Warrants         $12,000,000   9/15/2011         $12,000,000              $—     9/15/2011       R             $600,000         $15.50                       $1,667,700
2/13/2009    FNB United Corp., Asheboro, NC58                    Common Stock w/ Warrants                      $51,500,000                                                                                                    $18.12        22,071         $2,589,305
5/15/2009    Foresight Financial Group, Inc., Rockford, IL2      Preferred Stock w/ Exercised Warrants         $15,000,000                                                                                                    $13.50                       $2,248,125
5/22/2009    Fort Lee Federal Savings Bank, Fort Lee, NJ2        Preferred Stock w/ Exercised Warrants          $1,300,000                                                                                                                                    $87,185
4/3/2009     Fortune Financial Corporation , Arnold, MO2,50      Preferred Stock w/ Exercised Warrants          $3,100,000   9/15/2011           $3,100,000             $—     9/15/2011       R             $155,000                                        $413,928
12/5/2008    FPB Bancorp, Inc., Port St. Lucie, FL55             Preferred Stock w/ Warrants                    $5,800,000                                                                                                     $0.01       183,158           $273,889
                                                                                                                             12/16/2009          $1,000,000      $2,240,000
1/23/2009    FPB Financial Corp., Hammond, LA2                   Preferred Stock w/ Exercised Warrants          $3,240,000                                                     6/16/2010       R             $162,000                                        $221,722
                                                                                                                             6/16/2010           $2,240,000             $—
5/22/2009    Franklin Bancorp, Inc., Washington, MO2             Preferred Stock w/ Exercised Warrants          $5,097,000                                                                                                                                   $758,548
                                                                 Subordinated Debentures w/ Exercised
5/8/2009     Freeport Bancshares, Inc., Freeport, IL8                                                           $3,000,000                                                                                                                                   $697,068
                                                                 Warrants
                                                                 Subordinated Debentures w/ Exercised
6/26/2009    Fremont Bancorporation, Fremont, CA8                                                              $35,000,000                                                                                                                                 $7,740,955
                                                                 Warrants
                                             2
1/23/2009    Fresno First Bank, Fresno, CA                       Preferred Stock w/ Exercised Warrants          $1,968,000                                                                                                                                   $294,855

                                                                 Subordinated Debentures w/ Exercised                        11/24/2009          $1,600,000      $1,400,000
4/24/2009    Frontier Bancshares, Inc., Austin, TX8                                                             $3,000,000                                                     10/6/2010       R             $150,000                                        $258,192
                                                                 Warrants                                                    10/6/2010           $1,400,000             $—
12/23/2008   Fulton Financial Corporation, Lancaster, PA         Preferred Stock w/ Warrants                 $376,500,000    7/14/2010        $376,500,000              $—     9/8/2010        R          $10,800,000         $10.47                      $29,335,625
5/8/2009     Gateway Bancshares, Inc., Ringgold, GA2             Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                                                   $742,108
2/6/2009     Georgia Commerce Bancshares, Inc., Atlanta, GA2     Preferred Stock w/ Exercised Warrants          $8,700,000   2/16/2011           $8,700,000             $—     2/16/2011       R             $435,000                                        $961,471
5/1/2009     Georgia Primary Bank, Atlanta, GA2                  Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                                                         $—
             Germantown Capital Corporation, Inc.,
3/6/2009                                                         Preferred Stock w/ Exercised Warrants          $4,967,000                                                                                                                                   $796,391
             Germantown, TN2
6/26/2009    Gold Canyon Bank, Gold Canyon, AZ2,10               Preferred Stock w/ Exercised Warrants          $1,607,000                                                                                                                                    $53,860
1/30/2009    Goldwater Bank, N.A., Scottsdale, AZ2               Preferred Stock w/ Exercised Warrants          $2,568,000                                                                                                                                   $145,750
4/24/2009    Grand Capital Corporation, Tulsa, OK2,49            Preferred Stock w/ Exercised Warrants          $4,000,000   9/8/2011            $4,000,000             $—     9/8/2011        R             $200,000                                        $517,145
                                                                 Subordinated Debentures w/ Exercised
9/25/2009    Grand Financial Corporation, Hattiesburg, MS8                                                      $2,443,320                                                                                                                                   $489,653
                                                                 Warrants
5/29/2009    Grand Mountain Bancshares, Inc., Granby, CO2        Preferred Stock w/ Exercised Warrants          $3,076,000                                                                                                                                         $—
1/9/2009     GrandSouth Bancorporation, Greenville, SC2,50       Preferred Stock w/ Exercised Warrants          $9,000,000   9/8/2011            $9,000,000             $—     9/8/2011        R             $450,000
                                                                                                                                                                                                                               $3.80                       $1,856,917
12/11/2009   GrandSouth Bancorporation, Greenville, SC2,10a,49   Preferred Stock                                $6,319,000   9/8/2011            $6,319,000             $—     N/A                                 N/A
                                                                 Subordinated Debentures w/ Exercised
7/17/2009    Great River Holding Company, Baxter, MN8                                                           $8,400,000                                                                                                                                   $759,575
                                                                 Warrants
                                                          50
12/5/2008    Great Southern Bancorp, Springfield, MO             Preferred Stock w/ Warrants                   $58,000,000   8/18/2011         $58,000,000              $—     9/21/2011       R           $6,436,364         $24.11                       $7,838,056
12/23/2008   Green Bankshares, Inc., Greeneville, TN59           Preferred Stock w/ Warrants                   $72,278,000   9/7/2011          $68,700,000              $—     N/A                                 N/A                                     $5,942,858
                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I April 25, 2012




2/27/2009    Green Circle Investments, Inc., Clive, IA2          Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                   $388,040
2/27/2009    Green City Bancshares, Inc., Green City, MO2        Preferred Stock w/ Exercised Warrants           $651,000    7/14/2010            $651,000              $—     7/14/2010       R              $33,000                                         $49,037
1/30/2009    Greer Bancshares Incorporated, Greer, SC2           Preferred Stock w/ Exercised Warrants          $9,993,000                                                                                                     $2.00                         $975,831
2/13/2009    Gregg Bancshares, Inc., Ozark, MO2                  Preferred Stock w/ Exercised Warrants           $825,000                                                                                                                                     $45,190
                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                          247
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                     (CONTINUED)                                                                                                                                                                    248
                                                                                                                              Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
2/20/2009    Guaranty Bancorp, Inc., Woodsville, NH2,50           Preferred Stock w/ Exercised Warrants          $6,920,000   9/15/2011           $6,920,000             $—     9/15/2011       R             $346,000                                        $969,040
             Guaranty Capital Corporation,
9/25/2009                                                         Subordinated Debentures                       $14,000,000   7/30/2010         $14,000,000              $—     N/A                                 N/A                                       $913,299
             Belzoni, MS3,8,30
1/30/2009    Guaranty Federal Bancshares, Inc., Springfield, MO   Preferred Stock w/ Warrants                   $17,000,000                                                                                                     $8.95       459,459         $2,585,417
9/25/2009    GulfSouth Private Bank, Destin, FL10,21              Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                   $757,380
6/26/2009    Gulfstream Bancshares, Inc., Stuart, FL2,50          Preferred Stock w/ Exercised Warrants          $7,500,000   8/18/2011           $7,500,000             $—     8/18/2011       R             $375,000                                        $876,542
2/20/2009    Hamilton State Bancshares, Hoschton, GA2             Preferred Stock w/ Exercised Warrants          $7,000,000   4/13/2011           $7,000,000             $—     4/13/2011       R             $350,000                                        $819,166
             Hampton Roads Bankshares, Inc.,
12/31/2008                                                        Common Stock w/ Warrants                      $80,347,000                                                                                                     $3.04        53,034         $2,510,844
             Norfolk, VA31
7/17/2009    Harbor Bankshares Corporation, Baltimore, MD2,3      Preferred Stock                                $6,800,000                                                                                                                                   $282,744
             Hartford Financial Services Group, Inc.,
6/26/2009                                                         Preferred Stock w/ Warrants                $3,400,000,000   3/31/2010       $3,400,000,000             $—     9/21/2010       A        $713,687,430          $21.95                    $129,861,111
             Hartford, CT
3/13/2009    Haviland Bancshares, Inc., Haviland, KS2             Preferred Stock w/ Exercised Warrants           $425,000    12/29/2010           $425,000              $—     12/29/2010      R              $21,000                                         $41,524
12/19/2008   Hawthorne Bancshares, Inc., Lee’s Summit, MO         Preferred Stock w/ Warrants                   $30,255,000                                                                                                     $7.87       276,090         $4,773,567
3/6/2009     HCSB Financial Corporation, Loris, SC                Preferred Stock w/ Warrants                   $12,895,000                                                                                                     $0.20        91,714         $1,090,702
9/11/2009    Heartland Bancshares, Inc., Franklin, IN2,10         Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                     $9.10                         $916,269
12/19/2008   Heartland Financial USA, Inc., Dubuque, IA50         Preferred Stock w/ Warrants                   $81,698,000   9/15/2011         $81,698,000              $—     9/28/2011       R           $1,800,000         $17.44                      $11,188,087
                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I April 25, 2012




                                                                                                                              3/16/2011           $2,606,000      $7,497,000
9/25/2009    Heritage Bankshares, Inc., Norfolk, VA2,10,50        Preferred Stock w/ Exercised Warrants         $10,103,000                                                     8/11/2011       R             $303,000         $12.73                         $947,284
                                                                                                                              8/11/2011           $7,497,000             $—
11/21/2008   Heritage Commerce Corp., San Jose, CA                Preferred Stock w/ Warrants                   $40,000,000   3/7/2012          $40,000,000              $—                                                     $6.75       462,963         $6,761,267
11/21/2008   Heritage Financial Corporation, Olympia, WA          Preferred Stock w/ Warrants                   $24,000,000   12/22/2010        $24,000,000              $—     8/17/2011       R             $450,000         $14.19                       $2,503,333
3/20/2009    Heritage Oaks Bancorp, Paso Robles, CA               Preferred Stock w/ Warrants                   $21,000,000                                                                                                     $5.14       611,650           $947,916
11/21/2008   HF Financial Corp., Sioux Falls, SD                  Preferred Stock w/ Warrants                   $25,000,000   6/3/2009          $25,000,000              $—     6/30/2009       R             $650,000         $18.75                         $666,667
             Highlands Bancorp, Inc. (Highlands State Bank),
5/8/2009                                                          Preferred Stock w/ Exercised Warrants          $3,091,000   9/22/2011           $3,091,000             $—     9/22/2011       R             $155,000
             Vernon, NJ2,13
                                                                                                                                                                                                                                $4.50                         $547,251
             Highlands Bancorp, Inc. (Highlands State Bank),
12/22/2009                                                        Preferred Stock                                $2,359,000   9/22/2011           $2,359,000             $—     N/A                                 N/A
             Vernon, NJ2,10a,13
             Highlands Independent Bancshares, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants          $6,700,000                                                                                                                                   $617,712
             Sebring, FL2
1/30/2009    Hilltop Community Bancorp, Inc., Summit, NJ2         Preferred Stock w/ Exercised Warrants          $4,000,000   4/21/2010           $4,000,000             $—     4/21/2010       R             $200,000          $5.55                         $267,050
12/23/2008   HMN Financial, Inc., Rochester, MN                   Preferred Stock w/ Warrants                   $26,000,000                                                                                                     $2.43       833,333         $2,462,778
1/16/2009    Home Bancshares, Inc., Conway, AR                    Preferred Stock w/ Warrants                   $50,000,000   7/6/2011          $50,000,000              $—     7/27/2011       R           $1,300,000         $27.24                       $6,180,556
             Hometown Bancorp of Alabama, Inc.,
2/20/2009                                                         Preferred Stock w/ Exercised Warrants          $3,250,000                                                                                                                                   $529,050
             Oneonta, AL2
2/13/2009    Hometown Bancshares, Inc., Corbin, KY2               Preferred Stock w/ Exercised Warrants          $1,900,000                                                                                                                                   $311,225
             HomeTown Bankshares Corporation,
9/18/2009                                                         Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                     $4.30                       $1,322,864
             Roanoke, VA2,10
12/12/2008   HopFed Bancorp, Hopkinsville, KY                     Preferred Stock w/ Warrants                   $18,400,000                                                                                                     $8.41       253,666         $2,921,000
                                                                                                                              11/10/2010          $6,250,000     $18,750,000
12/19/2008   Horizon Bancorp, Michigan City, IN50                 Preferred Stock w/ Warrants                   $25,000,000                                                     11/18/2011      P           $1,750,551         $17.92                       $3,106,771
                                                                                                                              8/25/2011         $18,750,000              $—
                                                       2,49
2/27/2009    Howard Bancorp, Inc., Ellicott City, MD              Preferred Stock w/ Exercised Warrants          $5,983,000   9/22/2011           $5,983,000             $—     9/22/2011       R             $299,000          $5.40                         $837,793
11/13/2009   HPK Financial Corporation, Chicago, IL2,10a          Preferred Stock w/ Exercised Warrants          $5,000,000
                                                                                                                                                                                                                                                            $1,201,099
5/1/2009     HPK Financial Corporation, Chicago, IL2              Preferred Stock w/ Exercised Warrants          $4,000,000
11/14/2008   Huntington Bancshares, Columbus, OH                  Preferred Stock w/ Warrants                $1,398,071,000   12/22/2010      $1,398,071,000             $—     1/19/2011       R          $49,100,000          $6.56                    $147,185,809
2/6/2009     Hyperion Bank, Philadelphia, PA2                     Preferred Stock w/ Exercised Warrants          $1,552,000                                                                                                                                   $255,976
9/18/2009    IA Bancorp, Inc., Iselin, NJ2,10                     Preferred Stock w/ Exercised Warrants          $5,976,000                                                                                                                                   $758,772
5/15/2009    IBC Bancorp, Inc., Chicago, IL3,8,30                 Subordinated Debentures                        $4,205,000   9/10/2010           $4,205,000             $—     N/A                                 N/A                                       $427,216
12/5/2008    Iberiabank Corporation, Lafayette, LA                Preferred Stock w/ Warrants                   $90,000,000   3/31/2009         $90,000,000              $—     5/20/2009       R           $1,200,000         $53.91                       $1,450,000
3/27/2009    IBT Bancorp, Inc., Irving, TX2                       Preferred Stock w/ Exercised Warrants          $2,295,000                                                                                                                                   $360,705
             IBW Financial Corporation,
3/13/2009                                                         Preferred Stock                                $6,000,000   9/3/2010            $6,000,000             $—     N/A                                 N/A         $7.00                         $453,067
             Washington, DC2,3a,30
3/6/2009     ICB Financial, Ontario, CA2                          Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                     $4.44                         $961,925
1/16/2009    Idaho Bancorp, Boise, ID2                            Preferred Stock w/ Exercised Warrants          $6,900,000                                                                                                     $0.03                         $124,306
                                                                                                                                                                                                                                                 Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (CONTINUED)
                                                                                                                               Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                         Investment Description                    Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
5/22/2009    Illinois State Bancorp, Inc., Chicago, IL2,49       Preferred Stock w/ Exercised Warrants            $6,272,000   9/22/2011           $6,272,000             $—     9/22/2011       R             $314,000
                                                                                                                                                                                                                                                             $1,158,113
12/29/2009   Illinois State Bancorp, Inc., Chicago, IL2,10a,49   Preferred Stock w/ Exercised Warrants            $4,000,000   9/22/2011           $4,000,000             $—     9/22/2011       R              $92,000
                                                         2
1/9/2009     Independence Bank, East Greenwich, RI               Preferred Stock w/ Exercised Warrants            $1,065,000                                                                                                                                   $179,862
1/9/2009     Independent Bank Corp., Rockland, MA                Preferred Stock w/ Warrants                     $78,158,000   4/22/2009         $78,158,000              $—     5/27/2009       R           $2,200,000         $29.35                       $1,118,094
                                                                 Mandatorily Convertible Preferred Stock
12/12/2008   Independent Bank Corporation, Ionia, MI22                                                           $74,426,000                                                                                                     $2.28       346,154         $2,430,000
                                                                 w/ Warrants
                                             2
4/24/2009    Indiana Bank Corp., Dana, IN                        Preferred Stock w/ Exercised Warrants            $1,312,000                                                                                                                                   $165,139
12/12/2008   Indiana Community Bancorp, Columbus, IN             Preferred Stock w/ Warrants                     $21,500,000                                                                                                    $23.46       188,707         $3,413,125
2/27/2009    Integra Bank Corporation, Evansville, IN14,57       Preferred Stock w/ Warrants                     $83,586,000                                                                                                               7,418,876         $1,950,340
12/19/2008   Intermountain Community Bancorp, Sandpoint, ID      Preferred Stock w/ Warrants                     $27,000,000                                                                                                     $1.16       653,226         $1,222,500
12/23/2008   International Bancshares Corporation, Laredo, TX    Preferred Stock w/ Warrants                   $216,000,000                                                                                                     $21.37     1,326,238        $33,960,000
12/23/2008   Intervest Bancshares Corporation, New York, NY      Preferred Stock w/ Warrants                     $25,000,000                                                                                                     $3.88       691,882         $1,118,056
             Investors Financial Corporation of Pettis County,   Subordinated Debentures w/ Exercised
5/8/2009                                                                                                          $4,000,000                                                                                                                                   $174,325
             Inc., Sedalia, MO8                                  Warrants
10/28/2008   JPMorgan Chase & Co., New York, NY                  Preferred Stock w/ Warrants                 $25,000,000,000   6/17/2009      $25,000,000,000             $—     12/10/2009      A        $950,318,243          $46.13                    $795,138,889
1/30/2009    Katahdin Bankshares Corp., Houlton, ME2,49          Preferred Stock w/ Exercised Warrants           $10,449,000   8/18/2011         $10,449,000              $—     8/18/2011       R             $522,000         $12.30                       $1,452,047
11/14/2008   KeyCorp, Cleveland, OH                              Preferred Stock w/ Warrants                  $2,500,000,000   3/30/2011       $2,500,000,000             $—     4/20/2011       R          $70,000,000          $8.48                    $297,222,222
3/20/2009    Kirksville Bancorp, Inc., Kirksville, MO2           Preferred Stock w/ Exercised Warrants             $470,000                                                                                                                                     $74,485
8/21/2009    KS Bancorp, Inc., Smithfield, NC2                   Preferred Stock w/ Exercised Warrants            $4,000,000                                                                                                     $3.81                         $541,367
2/20/2009    Lafayette Bancorp, Inc., Oxford, MS2,30             Preferred Stock w/ Exercised Warrants            $1,998,000   9/29/2010           $1,998,000             $—     9/29/2010       R             $100,000
                                                                                                                                                                                                                                                               $267,134
12/29/2009   Lafayette Bancorp, Inc., Oxford, MS2,10a,30         Preferred Stock                                  $2,453,000   9/29/2010           $2,453,000             $—     N/A                                 N/A
                                                                                                                               8/4/2010          $20,000,000      $39,000,000
2/6/2009     Lakeland Bancorp, Inc., Oak Ridge, NJ               Preferred Stock w/ Warrants                     $59,000,000   3/16/2011         $20,000,000      $19,000,000    2/29/2012       R           $2,800,000         $10.14                       $6,460,833
                                                                                                                               2/8/2012          $19,000,000              $—
2/27/2009    Lakeland Financial Corporation, Warsaw, IN          Preferred Stock w/ Warrants                     $56,044,000   6/9/2010          $56,044,000              $—     11/18/2011      P             $877,557         $26.50                       $3,596,156
12/18/2009   Layton Park Financial Group, Milwaukee, WI2         Preferred Stock w/ Exercised Warrants            $3,000,000                                                                                                                                   $352,888
1/9/2009     LCNB Corp., Lebanon, OH                             Preferred Stock w/ Warrants                     $13,400,000   10/21/2009        $13,400,000              $—     11/18/2011      P             $602,557         $13.00                         $524,833
12/23/2008   Leader Bancorp, Inc., Arlington, MA2                Preferred Stock w/ Exercised Warrants            $5,830,000   11/24/2010          $5,830,000             $—     11/24/2010      R             $292,000                                        $609,961
1/30/2009    Legacy Bancorp, Inc., Milwaukee, WI3,53             Preferred Stock                                  $5,498,000                                                                                                                                   $355,079
1/23/2009    Liberty Bancshares, Inc., Jonesboro, AR2,50         Preferred Stock w/ Exercised Warrants           $57,500,000   7/21/2011         $57,500,000              $—     7/21/2011       R           $2,875,000                                      $7,816,966
2/13/2009    Liberty Bancshares, Inc., Springfield, MO2,50       Preferred Stock w/ Exercised Warrants           $21,900,000   8/18/2011         $21,900,000              $—     8/18/2011       R           $1,095,000                                      $3,000,452
12/4/2009    Liberty Bancshares, Inc., Fort Worth, TX2,10        Preferred Stock w/ Exercised Warrants            $6,500,000                                                                                                                                   $752,856
             Liberty Financial Services, Inc.,
2/6/2009                                                         Preferred Stock                                  $5,645,000   9/24/2010           $5,645,000             $—     N/A                                 N/A                                       $461,009
             New Orleans, LA3,30
2/20/2009    Liberty Shares, Inc., Hinesville, GA2               Preferred Stock w/ Exercised Warrants           $17,280,000                                                                                                                                 $1,399,560
7/10/2009    Lincoln National Corporation, Radnor, PA            Preferred Stock w/ Warrants                   $950,000,000    6/30/2010        $950,000,000              $—     9/16/2010       A        $216,620,887          $26.56                      $46,180,555
12/12/2008   LNB Bancorp Inc., Lorain, OH                        Preferred Stock w/ Warrants                     $25,223,000                                                                                                     $6.88       561,343         $4,004,152
2/6/2009     Lone Star Bank, Houston, TX2                        Preferred Stock w/ Exercised Warrants            $3,072,000                                                                                                                                         $—
12/12/2008   LSB Corporation, North Andover, MA                  Preferred Stock w/ Warrants                     $15,000,000   11/18/2009        $15,000,000              $—     12/16/2009      R             $560,000                                        $700,000
6/26/2009    M&F Bancorp, Inc., Durham, NC2,3,10,30              Preferred Stock                                 $11,735,000   8/20/2010         $11,735,000              $—     N/A                                 N/A                                       $674,763
12/23/2008   M&T Bank Corporation, Buffalo, NY                   Preferred Stock w/ Warrants                   $600,000,000    5/18/2011        $370,000,000     $230,000,000                                                   $87.00     1,218,522        $95,762,500
             M&T Bank Corporation (Provident Bancshares
11/14/2008                                                       Preferred Stock w/ Warrants                   $151,500,000                                                                                                                  407,542         $9,489,792
             Corp.), Baltimore, MD
             M&T Bank Corporation (Wilmington Trust
12/12/2008                                                       Preferred Stock w/ Warrants                   $330,000,000    5/13/2011        $330,000,000              $—                                                                  95,383        $39,920,833
             Corporation), Wilmington, DE43
4/24/2009    Mackinac Financial Corporation, Manistique, MI      Preferred Stock w/ Warrants                     $11,000,000                                                                                                     $6.72       379,310         $1,544,583
3/13/2009    Madison Financial Corporation, Richmond, KY2        Preferred Stock w/ Exercised Warrants            $3,370,000                                                                                                                                   $169,422
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I April 25, 2012




                                                                                                                               11/24/2009          $3,455,000     $10,340,000
12/23/2008   Magna Bank, Memphis, TN2,49                         Preferred Stock w/ Exercised Warrants           $13,795,000   6/8/2011            $3,455,000      $6,885,000    8/18/2011       R             $690,000                                      $1,661,468
                                                                                                                               8/18/2011           $6,885,000             $—
12/29/2009   Mainline Bancorp, Inc., Ebensburg, PA2,73           Preferred Stock w/ Exercised Warrants            $4,500,000   3/9/2012            $4,500,000             $—     3/9/2012        R             $225,000         $69.50                         $538,188
             MainSource Financial Group, Inc.,
1/16/2009                                                        Preferred Stock w/ Warrants                     $57,000,000   3/28/2012         $52,277,171              $—                                                    $12.05       571,906         $8,779,583
             Greensburg, IN78
                                                                                                                                                                                                                                                                            249




                                                                                                                                                                                                                                                  Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                      (CONTINUED)                                                                                                                                                                       250
                                                                                                                                  Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                            Investment Description                    Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
12/5/2008    Manhattan Bancorp, El Segundo, CA                      Preferred Stock w/ Warrants                      $1,700,000   9/16/2009           $1,700,000             $—     10/14/2009      R              $63,364          $3.00                          $66,347
                                                                    Subordinated Debentures w/ Exercised
6/19/2009    Manhattan Bancshares, Inc., Manhattan, IL8                                                              $2,639,000                                                                                                                                   $587,991
                                                                    Warrants
3/6/2009     Marine Bank & Trust Company, Vero Beach, FL2           Preferred Stock w/ Exercised Warrants            $3,000,000                                                                                                                                   $235,713
2/20/2009    Market Bancorporation, Inc., New Market, MN2           Preferred Stock w/ Exercised Warrants            $2,060,000                                                                                                                                   $138,778

                                                              8     Subordinated Debentures w/ Exercised
5/15/2009    Market Street Bancshares, Inc., Mt. Vernon, IL                                                         $20,300,000                                                                                                                                 $4,683,718
                                                                    Warrants
12/19/2008   Marquette National Corporation, Chicago, IL2           Preferred Stock w/ Exercised Warrants           $35,500,000                                                                                                  $125.00                        $6,105,212
11/14/2008   Marshall & Ilsley Corporation, Milwaukee, WI44         Preferred Stock w/ Warrants                  $1,715,000,000   7/5/2011        $1,715,000,000             $—     7/5/2011        R           $3,250,000                                   $226,522,917
3/27/2009    Maryland Financial Bank, Towson, MD2                   Preferred Stock w/ Exercised Warrants            $1,700,000                                                                                                                                   $174,491
12/5/2008    MB Financial Inc., Chicago, IL                         Preferred Stock w/ Warrants                   $196,000,000    3/14/2012        $196,000,000              $—                                                    $21.34       506,024        $32,095,000
11/20/2009   McLeod Bancshares, Inc., Shorewood, MN2,50             Preferred Stock w/ Exercised Warrants            $6,000,000   8/18/2011           $6,000,000             $—     8/18/2011       R             $300,000                                        $570,433
2/27/2009    Medallion Bank, Salt Lake City, UT2,49                 Preferred Stock w/ Exercised Warrants           $11,800,000   7/21/2011         $11,800,000              $—     7/21/2011       R             $590,000                                      $2,317,675
12/22/2009   Medallion Bank, Salt Lake City, UT2,10a,49             Preferred Stock w/ Exercised Warrants            $9,698,000   7/21/2011           $9,698,000             $—     7/21/2011       R              $55,000
5/15/2009    Mercantile Bank Corporation, Grand Rapids, MI          Preferred Stock w/ Warrants                     $21,000,000                                                                                                    $14.50       616,438         $2,932,687
2/6/2009     Mercantile Capital Corp., Boston, MA2,49               Preferred Stock w/ Exercised Warrants            $3,500,000   8/4/2011            $3,500,000             $—     8/4/2011        R             $175,000                                        $475,815
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I April 25, 2012




             Merchants and Manufacturers Bank Corporation,
6/19/2009                                                           Preferred Stock w/ Exercised Warrants            $3,510,000   9/8/2011            $3,510,000             $—     9/8/2011        R             $176,000                                        $424,668
             Joliet, IL2,49
             Merchants and Planters Bancshares, Inc.,
3/6/2009                                                            Preferred Stock w/ Exercised Warrants            $1,881,000   9/7/2011            $1,881,000             $—     9/7/2011        R              $94,000                                        $256,560
             Toone, TN2,62
2/13/2009    Meridian Bank, Devon, PA2                              Preferred Stock w/ Exercised Warrants            $6,200,000
                                                                                                                                                                                                                                                                $1,705,388
12/11/2009   Meridian Bank, Devon, PA2,10a                          Preferred Stock                                  $6,335,000
1/30/2009    Metro City Bank, Doraville, GA2                        Preferred Stock w/ Exercised Warrants            $7,700,000                                                                                                                                 $1,276,436
1/16/2009    MetroCorp Bancshares, Inc., Houston, TX                Preferred Stock w/ Warrants                     $45,000,000                                                                                                    $10.08       771,429         $6,966,250
             Metropolitan Bank Group, Inc.,
6/26/2009                                                           Preferred Stock w/ Exercised Warrants           $74,706,000                                                                                                                                 $3,454,185
             Chicago, IL2,41
             Metropolitan Bank Group, Inc. (NC Bancorp, Inc.),
6/26/2009                                                           Preferred Stock w/ Exercised Warrants            $7,186,000                                                                                                                                   $332,256
             Chicago, IL2,41
4/10/2009    Metropolitan Capital Bancorp, Inc., Chicago, IL2       Preferred Stock w/ Exercised Warrants            $2,040,000
                                                                                                                                                                                                                                                                  $579,074
11/20/2009   Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a   Preferred Stock                                  $2,348,000
12/19/2008   Mid Penn Bancorp, Inc., Millersburg, PA                Preferred Stock w/ Warrants                     $10,000,000                                                                                                    $10.40        73,099         $1,577,778
1/30/2009    Middleburg Financial Corporation, Middleburg, VA       Preferred Stock w/ Warrants                     $22,000,000   12/23/2009        $22,000,000              $—     11/18/2011      P             $301,001                                        $986,944
1/23/2009    Midland States Bancorp, Inc., Effingham, IL2           Preferred Stock w/ Exercised Warrants           $10,189,000   12/23/2009        $10,189,000              $—     12/23/2009      R             $509,000                                        $508,989
1/9/2009     MidSouth Bancorp, Inc., Lafayette, LA49                Preferred Stock w/ Warrants                     $20,000,000   8/25/2011         $20,000,000              $—     11/18/2011      P             $206,557                                      $2,627,778
2/27/2009    Midtown Bank & Trust Company, Atlanta, GA2             Preferred Stock w/ Exercised Warrants            $5,222,000                                                                                                                                   $275,105
                                                                    Mandatorily Convertible Preferred Stock
12/5/2008    Midwest Banc Holdings, Inc., Melrose Park, IL14,20                                                     $89,388,000                                                                                                               4,282,020           $824,289
                                                                    w/ Warrants
2/13/2009    Midwest Regional Bancorp, Inc., Festus, MO2            Preferred Stock w/ Exercised Warrants             $700,000    11/10/2009           $700,000              $—     11/10/2009      R              $35,000                                         $28,294
2/6/2009     MidWestOne Financial Group, Inc., Iowa City, IA        Preferred Stock w/ Warrants                     $16,000,000   7/6/2011          $16,000,000              $—     7/27/2011       R           $1,000,000         $20.00                       $1,933,333
             Mid-Wisconsin Financial Services, Inc.,
2/20/2009                                                           Preferred Stock w/ Exercised Warrants           $10,000,000                                                                                                     $4.50                       $1,082,431
             Medford, WI2
4/3/2009     Millennium Bancorp, Inc., Edwards, CO2                 Preferred Stock w/ Exercised Warrants            $7,260,000                                                                                                                                   $343,053
             Mission Community Bancorp,
1/9/2009                                                            Preferred Stock                                  $5,116,000   12/28/2011          $5,116,000             $—     N/A                                 N/A         $3.40                         $759,584
             San Luis Obispo, CA3
                                                       3,30
12/23/2008   Mission Valley Bancorp, Sun Valley, CA                 Preferred Stock                                  $5,500,000   8/20/2010           $5,500,000             $—     N/A                                 N/A                                       $456,042
12/19/2008   Monadnock Bancorp, Inc., Peterborough, NH2             Preferred Stock w/ Exercised Warrants            $1,834,000                                                                                                     $5.00                         $190,517
2/6/2009     Monarch Community Bancorp, Inc., Coldwater, MI         Preferred Stock w/ Warrants                      $6,785,000                                                                                                     $1.62       260,962           $262,919
12/19/2008   Monarch Financial Holdings, Inc., Chesapeake, VA       Preferred Stock w/ Warrants                     $14,700,000   12/23/2009        $14,700,000              $—     2/10/2010       R             $260,000          $8.80                         $743,167
3/13/2009    Moneytree Corporation, Lenoir City, TN2,50             Preferred Stock w/ Exercised Warrants            $9,516,000   9/15/2011           $9,516,000             $—     9/15/2011       R             $476,000                                      $1,299,481
1/30/2009    Monument Bank, Bethesda, MD2,49                        Preferred Stock w/ Exercised Warrants            $4,734,000   8/11/2011           $4,734,000             $—     8/11/2011       R             $237,000                                        $652,959
10/28/2008   Morgan Stanley, New York, NY                           Preferred Stock w/ Warrants                 $10,000,000,000   6/17/2009      $10,000,000,000             $—     8/12/2009       R        $950,000,000          $19.81                    $318,055,555
1/16/2009    Morrill Bancshares, Inc., Merriam, KS2                 Preferred Stock w/ Exercised Warrants           $13,000,000   7/20/2011         $13,000,000              $—     7/20/2011       R             $650,000                                      $1,779,122
1/23/2009    Moscow Bancshares, Inc., Moscow, TN2                   Preferred Stock w/ Exercised Warrants            $6,216,000                                                                                                                                 $1,037,074
                                                                                                                                                                                                                                                     Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (CONTINUED)
                                                                                                                             Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                     Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                         Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
9/25/2009    Mountain Valley Bancshares, Inc., Cleveland, GA2    Preferred Stock w/ Exercised Warrants          $3,300,000                                                                                                                                   $429,642
3/27/2009    MS Financial, Inc., Kingwood, TX2                   Preferred Stock w/ Exercised Warrants          $7,723,000   10/19/2011          $7,723,000             $—     10/19/2011      R             $386,000                                      $1,097,290
12/23/2008   MutualFirst Financial, Inc., Muncie, IN50           Preferred Stock w/ Warrants                   $32,382,000   8/25/2011         $32,382,000              $—     9/28/2011       R             $900,194          $9.82                       $4,326,595
3/27/2009    Naples Bancorp, Inc., Naples, FL2                   Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                   $356,067
2/27/2009    National Bancshares, Inc., Bettendorf, IA2          Preferred Stock w/ Exercised Warrants         $24,664,000                                                                                                                                 $2,307,492
12/12/2008   National Penn Bancshares, Inc., Boyertown, PA       Preferred Stock w/ Warrants                 $150,000,000    3/16/2011        $150,000,000              $—     4/13/2011       R           $1,000,000          $9.31                      $16,958,333
                                                                 Subordinated Debentures w/ Exercised
12/11/2009   Nationwide Bankshares, Inc., West Point, NE8                                                       $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000                                        $176,190
                                                                 Warrants
12/19/2008   NCAL Bancorp, Los Angeles, CA2                      Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                     $2.75                       $1,311,028
                                                                 Subordinated Debentures w/ Exercised
6/19/2009    NEMO Bancshares Inc., Madison, MO8                                                                 $2,330,000                                                                                                                                   $519,310
                                                                 Warrants
             New Hampshire Thrift Bancshares, Inc.,
1/16/2009                                                        Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     2/15/2012       R             $737,100         $12.50                       $1,304,167
             Newport, NH49
             New York Private Bank & Trust Corporation,
1/9/2009                                                         Preferred Stock w/ Exercised Warrants       $267,274,000                                                                                                                                 $45,156,026
             New York, NY2
12/12/2008   NewBridge Bancorp, Greensboro, NC                   Preferred Stock w/ Warrants                   $52,372,000                                                                                                     $4.91     2,567,255         $8,314,055
12/23/2008   Nicolet Bankshares, Inc., Green Bay, WI2,49         Preferred Stock w/ Exercised Warrants         $14,964,000   9/1/2011          $14,964,000              $—     9/1/2011        R             $748,000                                      $2,192,843
1/9/2009     North Central Bancshares, Inc., Fort Dodge, IA      Preferred Stock w/ Warrants                   $10,200,000   12/14/2011        $10,200,000              $—     1/11/2012       R             $600,000         $30.20                       $1,494,583
12/12/2008   Northeast Bancorp, Lewiston, ME                     Preferred Stock w/ Warrants                    $4,227,000                                                                                                    $11.70        67,958           $671,037
5/15/2009    Northern State Bank, Closter, NJ2                   Preferred Stock w/ Exercised Warrants          $1,341,000   3/28/2012           $1,341,000             $—     3/28/2012       R              $67,000
                                                                                                                                                                                                                                                             $349,782
12/18/2009   Northern State Bank, Closter, NJ2,10a               Preferred Stock                                $1,230,000   3/28/2012           $1,230,000             $—     N/A                                 N/A
             Northern States Financial Corporation,
2/20/2009                                                        Preferred Stock w/ Warrants                   $17,211,000                                                                                                     $0.72       584,084           $418,323
             Waukegan, IL
11/14/2008   Northern Trust Corporation, Chicago, IL             Preferred Stock w/ Warrants                $1,576,000,000   6/17/2009       $1,576,000,000             $—     8/26/2009       R          $87,000,000         $47.83                      $46,623,333
1/30/2009    Northway Financial, Inc., Berlin, NH2,49            Preferred Stock w/ Exercised Warrants         $10,000,000   9/15/2011         $10,000,000              $—     9/15/2011       R             $500,000         $11.00                       $1,430,625
2/13/2009    Northwest Bancorporation, Inc., Spokane, WA2        Preferred Stock w/ Exercised Warrants         $10,500,000                                                                                                                                   $575,430
2/13/2009    Northwest Commercial Bank, Lakewood, WA2            Preferred Stock w/ Exercised Warrants          $1,992,000                                                                                                                                   $272,103
1/30/2009    Oak Ridge Financial Services, Inc., Oak Ridge, NC   Preferred Stock w/ Warrants                    $7,700,000                                                                                                     $4.00       163,830         $1,171,042
12/5/2008    Oak Valley Bancorp, Oakdale, CA50                   Preferred Stock w/ Warrants                   $13,500,000   8/11/2011         $13,500,000              $—     9/28/2011       R             $560,000          $6.86                       $1,811,250
1/16/2009    OceanFirst Financial Corp., Toms River, NJ          Preferred Stock w/ Warrants                   $38,263,000   12/30/2009        $38,263,000              $—     2/3/2010        R             $430,797         $14.56                       $1,828,122
1/30/2009    Ojai Community Bank, Ojai, CA2                      Preferred Stock w/ Exercised Warrants          $2,080,000                                                                                                     $5.00                         $288,123
12/5/2008    Old Line Bancshares, Inc., Bowie, MD                Preferred Stock w/ Warrants                    $7,000,000   7/15/2009           $7,000,000             $—     9/2/2009        R             $225,000         $10.45                         $213,889
12/12/2008   Old National Bancorp, Evansville, IN                Preferred Stock w/ Warrants                 $100,000,000    3/31/2009        $100,000,000              $—     5/8/2009        R           $1,200,000         $13.21                       $1,513,889
1/16/2009    Old Second Bancorp, Inc., Aurora, IL                Preferred Stock w/ Warrants                   $73,000,000                                                                                                     $1.88       815,339         $5,769,028
4/17/2009    Omega Capital Corp., Lakewood, CO2                  Preferred Stock w/ Exercised Warrants          $2,816,000                                                                                                                                    $50,311
5/8/2009     One Georgia Bank, Atlanta, GA2,56                   Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                         $—

                                                          8,10   Subordinated Debentures w/ Exercised
6/5/2009     OneFinancial Corporation , Little Rock, AR                                                        $17,300,000                                                                                                                                 $3,782,991
                                                                 Warrants
12/19/2008   OneUnited Bank, Boston, MA2,3                       Preferred Stock                               $12,063,000                                                                                                                                    $93,823
4/24/2009    Oregon Bancorp, Inc., Salem, OR2                    Preferred Stock w/ Exercised Warrants          $3,216,000                                                                                                     $7.50                         $492,273
                                                                 Subordinated Debentures w/ Exercised
5/1/2009     OSB Financial Services, Inc., Orange, TX8                                                          $6,100,000   10/5/2011           $6,100,000             $—     10/5/2011       R             $305,000                                      $1,257,315
                                                                 Warrants
                                                           29
11/21/2008   Pacific Capital Bancorp, Santa Barbara, CA          Common Stock w/ Warrants                    $195,045,000                                                                                                     $45.80        15,120         $2,107,397
             Pacific City Financial Corporation,
12/19/2008                                                       Preferred Stock w/ Exercised Warrants         $16,200,000                                                                                                                                   $358,065
             Los Angeles, CA2
             Pacific Coast Bankers’ Bancshares,
12/23/2008                                                       Preferred Stock w/ Exercised Warrants         $11,600,000   7/28/2011         $11,600,000              $—     7/28/2011       R             $580,000                                      $1,641,964
             San Francisco, CA2,50
             Pacific Coast National Bancorp,
1/16/2009                                                        Preferred Stock w/ Exercised Warrants          $4,120,000   2/11/2010                 $—               $—     N/A                                 N/A                                        $18,088
             San Clemente, CA2,19
                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I April 25, 2012




12/23/2008   Pacific Commerce Bank, Los Angeles, CA2             Preferred Stock w/ Exercised Warrants          $4,060,000                                                                                                     $2.75                         $387,223
12/12/2008   Pacific International Bancorp, Seattle, WA          Preferred Stock w/ Warrants                    $6,500,000                                                                                                     $2.00                         $463,125
3/6/2009     Park Bancorporation, Inc., Madison, WI2             Preferred Stock w/ Exercised Warrants         $23,200,000                                                                                                                                 $3,719,443
12/23/2008   Park National Corporation, Newark, OH               Preferred Stock w/ Warrants                 $100,000,000                                                                                                     $69.93       227,376        $15,722,222
1/30/2009    Parke Bancorp, Inc., Sewell, NJ                     Preferred Stock w/ Warrants                   $16,288,000                                                                                                     $7.00       362,733         $2,477,133
                                                                                                                                                                                                                                                                          251




                                                                                                                                                                                                                                                Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                     (CONTINUED)                                                                                                                                                                     252
                                                                                                                               Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                          Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
             Pascack Bancorp, Inc.(Pascack Community Bank),
2/6/2009                                                          Preferred Stock w/ Exercised Warrants           $3,756,000   10/19/2011          $3,756,000             $—     10/19/2011      R             $188,000                                        $553,313
             Westwood, NJ2,13
12/19/2008   Patapsco Bancorp, Inc., Dundalk, MD2                 Preferred Stock w/ Exercised Warrants           $6,000,000                                                                                                     $0.60                         $377,867
9/11/2009    Pathfinder Bancorp, Inc., Oswego, NY49               Preferred Stock w/ Warrants                     $6,771,000   9/1/2011            $6,771,000             $—     2/1/2012        R             $537,633          $9.75                         $667,696
3/27/2009    Pathway Bancorp, Cairo, NE2                          Preferred Stock w/ Exercised Warrants           $3,727,000                                                                                                                                    $77,852
12/19/2008   Patriot Bancshares, Inc., Houston, TX2               Preferred Stock w/ Exercised Warrants          $26,038,000                                                                                                                                 $2,704,136
4/17/2009    Patterson Bancshares, Inc, Patterson, LA2            Preferred Stock w/ Exercised Warrants           $3,690,000   3/7/2012             $250,000       $3,440,000                                                                                  $588,681
                                                                                                                               1/6/2010            $7,172,000     $21,513,000
             Peapack-Gladstone Financial Corporation,
1/9/2009                                                          Preferred Stock w/ Warrants                    $28,685,000   3/2/2011            $7,172,000     $14,341,000                                                   $14.02       150,296         $3,280,740
             Gladstone, NJ
                                                                                                                               1/11/2012         $14,341,000              $—
1/30/2009    Peninsula Bank Holding Co., Palo Alto, CA            Preferred Stock w/ Warrants                     $6,000,000                                                                                                     $8.00        81,670           $933,943
4/17/2009    Penn Liberty Financial Corp., Wayne, PA2,49          Preferred Stock w/ Exercised Warrants           $9,960,000   9/1/2011            $9,960,000             $—     9/1/2011        R             $498,000                                      $1,287,689
2/13/2009    Peoples Bancorp, Lynden, WA2,62                      Preferred Stock w/ Exercised Warrants          $18,000,000   8/3/2011          $18,000,000              $—     8/3/2011        R             $900,000                                      $2,425,250
                                                                                                                               2/2/2011          $21,000,000      $18,000,000
1/30/2009    Peoples Bancorp Inc., Marietta, OH                   Preferred Stock w/ Warrants                    $39,000,000                                                     2/15/2012       R           $1,200,724         $17.83                       $4,725,833
                                                                                                                               12/28/2011        $18,000,000              $—
             Peoples Bancorp of North Carolina, Inc.,
12/23/2008                                                        Preferred Stock w/ Warrants                    $25,054,000                                                                                                     $8.07       357,234         $3,939,046
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I April 25, 2012




             Newton, NC
                                                          2
4/24/2009    Peoples Bancorporation, Inc., Easley, SC             Preferred Stock w/ Exercised Warrants          $12,660,000                                                                                                                                 $1,937,666
3/20/2009    Peoples Bancshares of TN, Inc, Madisonville, TN2     Preferred Stock w/ Exercised Warrants           $3,900,000                                                                                                                                   $616,985
3/6/2009     PeoplesSouth Bancshares, Inc., Colquitt, GA2         Preferred Stock w/ Exercised Warrants          $12,325,000                                                                                                                                 $1,975,888
9/11/2009    PFSB Bancorporation, Inc., Pigeon Falls, WI2,10,50   Preferred Stock w/ Exercised Warrants           $1,500,000   8/25/2011           $1,500,000             $—     8/25/2011       R              $71,000                                        $159,163
2/6/2009     PGB Holdings, Inc., Chicago, IL3,30                  Preferred Stock                                 $3,000,000   8/13/2010           $3,000,000             $—     N/A                                 N/A                                       $227,917
1/23/2009    Pierce County Bancorp, Tacoma, WA2,51                Preferred Stock w/ Exercised Warrants           $6,800,000                                                                                                                                   $207,948
             Pinnacle Bank Holding Company, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants           $4,389,000                                                                                                                 267,455           $284,999
             Orange City, FL2
12/12/2008   Pinnacle Financial Partners, Inc., Nashville, TN     Preferred Stock w/ Warrants                    $95,000,000   12/28/2011        $23,750,000      $71,250,000                                                   $18.56                      $14,926,215
12/19/2008   Plains Capital Corporation, Dallas, TX2,49           Preferred Stock w/ Exercised Warrants          $87,631,000   9/27/2011         $87,631,000              $—     9/27/2011       R           $4,382,000                                     $13,239,940
                                                                  Subordinated Debentures w/ Exercised
7/17/2009    Plato Holdings Inc., Saint Paul, MN8,10                                                              $2,500,000                                                                                                                                   $534,286
                                                                  Warrants
1/30/2009    Plumas Bancorp, Quincy, CA                           Preferred Stock w/ Warrants                    $11,949,000                                                                                                     $3.35       237,712           $622,344
12/5/2008    Popular, Inc., San Juan, PR12                        Trust Preferred Securities w/ Warrants       $935,000,000                                                                                                      $2.05    20,932,836      $136,484,028
11/21/2008   Porter Bancorp Inc., Louisville, KY                  Preferred Stock w/ Warrants                    $35,000,000                                                                                                     $2.12       330,561         $4,783,333
4/3/2009     Prairie Star Bancshares, Inc., Olathe, KS2           Preferred Stock w/ Exercised Warrants           $2,800,000                                                                                                                                   $132,253
5/8/2009     Premier Bancorp, Inc., Wilmette, IL3,8,30            Subordinated Debentures                         $6,784,000   8/13/2010           $6,784,000             $—     N/A                                 N/A                                       $660,215
3/20/2009    Premier Bank Holding Company, Tallahassee, FL2       Preferred Stock w/ Exercised Warrants           $9,500,000                                                                                                                                   $467,413
10/2/2009    Premier Financial Bancorp, Inc., Huntington, WV      Preferred Stock w/ Warrants                    $22,252,000                                                                                                     $7.74       628,588         $2,646,718
                                                                  Subordinated Debentures w/ Exercised
5/22/2009    Premier Financial Corp, Dubuque, IA8                                                                 $6,349,000                                                                                                                                   $522,263
                                                                  Warrants
                                                    2
2/20/2009    Premier Service Bank, Riverside, CA                  Preferred Stock w/ Exercised Warrants           $4,000,000                                                                                                     $1.50                          $54,500
2/13/2009    PremierWest Bancorp, Medford, OR                     Preferred Stock w/ Warrants                    $41,400,000                                                                                                     $1.88       109,039         $1,046,500
11/20/2009   Presidio Bank, San Francisco, CA2,10                 Preferred Stock w/ Exercised Warrants          $10,800,000                                                                                                     $7.50                       $1,272,906
1/23/2009    Princeton National Bancorp, Inc., Princeton, IL      Preferred Stock w/ Warrants                    $25,083,000                                                                                                     $2.17       155,025         $2,271,405
2/27/2009    Private Bancorporation, Inc., Minneapolis, MN2       Preferred Stock w/ Exercised Warrants           $4,960,000
                                                                                                                                                                                                                                                               $498,860
12/29/2009   Private Bancorporation, Inc., Minneapolis, MN2,10a   Preferred Stock                                 $3,262,000
1/30/2009    PrivateBancorp, Inc., Chicago, IL                    Preferred Stock w/ Warrants                  $243,815,000                                                                                                     $14.98       645,013        $37,080,198
10/2/2009    Providence Bank, Rocky Mount, NC2,10,49              Preferred Stock w/ Exercised Warrants           $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $175,000                                        $421,312
             Provident Community Bancshares, Inc.,
3/13/2009                                                         Preferred Stock w/ Warrants                     $9,266,000                                                                                                     $0.68       178,880           $543,091
             Rock Hill, SC
2/27/2009    PSB Financial Corporation, Many, LA2,30              Preferred Stock w/ Exercised Warrants           $9,270,000   9/29/2010           $9,270,000             $—     9/29/2010       R             $464,000                                        $802,802
1/16/2009    Puget Sound Bank, Bellevue, WA2,49                   Preferred Stock w/ Exercised Warrants           $4,500,000   8/11/2011           $4,500,000             $—     8/11/2011       R             $225,000          $9.02                         $630,157
1/16/2009    Pulaski Financial Corp, Creve Coeur, MO              Preferred Stock w/ Warrants                    $32,538,000                                                                                                     $7.97       778,421         $5,011,756
2/13/2009    QCR Holdings, Inc., Moline, IL49                     Preferred Stock w/ Warrants                    $38,237,000   9/15/2011         $38,237,000              $—     11/16/2011      R           $1,100,000         $11.90                       $4,949,567
                                                                                                                                                                                                                                                  Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                            (CONTINUED)
                                                                                                                                      Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                              Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                                  Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
10/30/2009   Randolph Bank & Trust Company, Asheboro, NC2                 Preferred Stock w/ Exercised Warrants          $6,229,000                                                                                                                                   $523,303
6/19/2009    RCB Financial Corporation, Rome, GA2,10                      Preferred Stock w/ Exercised Warrants          $8,900,000                                                                                                                                   $893,934
1/16/2009    Redwood Capital Bancorp, Eureka, CA2,49                      Preferred Stock w/ Exercised Warrants          $3,800,000   7/21/2011           $3,800,000             $—     7/21/2011       R             $190,000          $6.05                         $520,626
1/9/2009     Redwood Financial Inc., Redwood Falls, MN2,49                Preferred Stock w/ Exercised Warrants          $2,995,000   8/18/2011           $2,995,000             $—     8/18/2011       R             $150,000         $11.60                         $425,811
3/6/2009     Regent Bancorp, Inc., Davie, FL2                             Preferred Stock w/ Exercised Warrants          $9,982,000                                                                                                                                   $784,282
2/27/2009    Regent Capital Corporation, Nowata, OK2,49                   Preferred Stock w/ Exercised Warrants          $2,655,000   7/21/2011           $2,655,000             $—     7/21/2011       R             $133,000                                        $347,328
10/23/2009   Regents Bancshares, Inc., Vancouver, WA2,10,69               Preferred Stock w/ Exercised Warrants         $12,700,000   1/27/2012         $12,700,000              $—     1/27/2012       R             $381,000                                      $1,513,339
2/13/2009    Regional Bankshares, Inc., Hartsville, SC2                   Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                                   $245,705
11/14/2008   Regions Financial Corporation, Birmingham, AL                Preferred Stock w/ Warrants                $3,500,000,000                                                                                                     $6.58    48,253,677      $569,236,111
2/13/2009    Reliance Bancshares, Inc., Frontenac, MO2                    Preferred Stock w/ Exercised Warrants         $40,000,000                                                                                                     $1.14                       $3,827,111
             Ridgestone Financial Services, Inc.,
2/27/2009                                                                 Preferred Stock w/ Exercised Warrants         $10,900,000                                                                                                                                   $277,224
             Brookfield, WI2
1/9/2009     Rising Sun Bancorp, Rising Sun, MD2                          Preferred Stock w/ Exercised Warrants          $5,983,000                                                                                                                                   $195,637

                                                                 8        Subordinated Debentures w/ Exercised
6/12/2009    River Valley Bancorporation, Inc., Wausau, WI                                                              $15,000,000                                                                                                    $15.61                       $3,366,488
                                                                          Warrants

                                                           8              Subordinated Debentures w/ Exercised
5/15/2009    Riverside Bancshares, Inc., Little Rock, AR                                                                 $1,100,000                                                                                                                                   $253,798
                                                                          Warrants
1/30/2009    Rogers Bancshares, Inc., Little Rock, AR2                    Preferred Stock w/ Exercised Warrants         $25,000,000                                                                                                                                   $738,021
             Royal Bancshares of Pennsylvania, Inc.,
2/20/2009                                                                 Preferred Stock w/ Warrants                   $30,407,000                                                                                                     $1.50     1,104,370           $358,971
             Narberth, PA
1/16/2009    S&T Bancorp, Indiana, PA                                     Preferred Stock w/ Warrants                 $108,676,000    12/7/2011        $108,676,000              $—                                                    $21.88       517,012        $15,712,738
12/23/2008   Saigon National Bank, Westminster, CA2                       Preferred Stock w/ Exercised Warrants          $1,549,000                                                                                                     $0.06                               $—
3/13/2009    Salisbury Bancorp, Inc., Lakeville, CT49                     Preferred Stock w/ Warrants                    $8,816,000   8/25/2011           $8,816,000             $—     11/2/2011       R             $205,000         $23.25                       $1,079,960
                                                                                                                                      7/21/2010         $41,547,000      $41,547,000
12/5/2008    Sandy Spring Bancorp, Inc., Olney, MD                        Preferred Stock w/ Warrants                   $83,094,000                                                     2/23/2011       R           $4,450,000         $18.53                       $7,593,868
                                                                                                                                      12/15/2010        $41,547,000              $—
                                                                      2
2/13/2009    Santa Clara Valley Bank, N.A., Santa Paula, CA               Preferred Stock w/ Exercised Warrants          $2,900,000                                                                                                     $5.28                         $158,928
12/19/2008   Santa Lucia Bancorp, Atascadero, CA64                        Preferred Stock w/ Warrants                    $4,000,000   10/21/2011          $2,800,000             $—     N/A                                 N/A         $0.34                         $331,111
3/27/2009    SBT Bancorp, Inc., Simsbury, CT2,49                          Preferred Stock w/ Exercised Warrants          $4,000,000   8/11/2011           $4,000,000             $—     8/11/2011       R             $200,000                                        $517,145
1/16/2009    SCBT Financial Corporation, Columbia, SC                     Preferred Stock w/ Warrants                   $64,779,000   5/20/2009         $64,779,000              $—     6/24/2009       R           $1,400,000         $33.48                       $1,115,639
             Seacoast Banking Corporation of Florida,
12/19/2008                                                                Preferred Stock w/ Warrants                   $50,000,000   3/28/2012         $40,404,700              $—                                                     $1.89       589,623         $8,252,430
             Stuart, FL77
                                                               2,49
12/23/2008   Seacoast Commerce Bank, Chula Vista, CA                      Preferred Stock w/ Exercised Warrants          $1,800,000   9/1/2011            $1,800,000             $—     9/1/2011        R              $90,000          $4.25                         $263,780
             Security Bancshares of Pulaski County, Inc.,
2/13/2009                                                                 Preferred Stock w/ Exercised Warrants          $2,152,000                                                                                                                                   $352,612
             Waynesville, MO2
1/9/2009     Security Business Bancorp, San Diego, CA2,49                 Preferred Stock w/ Exercised Warrants          $5,803,000   7/14/2011           $5,803,000             $—     7/14/2011       R             $290,000                                        $795,018
1/9/2009     Security California Bancorp, Riverside, CA2,49               Preferred Stock w/ Exercised Warrants          $6,815,000   9/15/2011           $6,815,000             $—     9/15/2011       R             $341,000          $9.75                         $996,698
             Security Capital Corporation,
6/26/2009                                                                 Preferred Stock w/ Exercised Warrants         $17,388,000   9/29/2010         $17,388,000              $—     9/29/2010       R             $522,000                                      $1,153,111
             Batesville, MS2,10,30
12/19/2008   Security Federal Corporation, Aiken, SC30                    Preferred Stock w/ Warrants                   $18,000,000   9/29/2010         $18,000,000              $—                                                     $9.00       137,966         $1,600,000
2/20/2009    Security State Bancshares, Inc., Charleston, MO2,49          Preferred Stock w/ Exercised Warrants         $12,500,000   9/22/2011         $12,500,000              $—     9/22/2011       R             $625,000                                      $1,763,680
             Security State Bank Holding-Company,                         Subordinated Debentures w/ Exercised
5/1/2009                                                                                                                $10,750,000                                                                                                                                 $1,414,005
             Jamestown, ND8                                               Warrants
11/21/2008   Severn Bancorp, Inc., Annapolis, MD                          Preferred Stock w/ Warrants                   $23,393,000                                                                                                     $3.81       556,976         $3,781,869
1/9/2009     Shore Bancshares, Inc., Easton, MD                           Preferred Stock w/ Warrants                   $25,000,000   4/15/2009         $25,000,000              $—     11/16/2011      R              $25,000          $7.10       172,970           $333,333

                                                      8                   Subordinated Debentures w/ Exercised
6/26/2009    Signature Bancshares, Inc., Dallas, TX                                                                      $1,700,000   12/15/2010          $1,700,000             $—     12/15/2010      R              $85,000                                        $209,588
                                                                          Warrants
12/12/2008   Signature Bank, New York, NY                                 Preferred Stock w/ Warrants                 $120,000,000    3/31/2009        $120,000,000              $—     3/10/2010       A          $11,320,751         $63.62                       $1,816,667
1/16/2009    Somerset Hills Bancorp, Bernardsville, NJ                    Preferred Stock w/ Warrants                    $7,414,000   5/20/2009           $7,414,000             $—     6/24/2009       R             $275,000          $8.45                         $127,686
2/20/2009    Sonoma Valley Bancorp, Sonoma, CA2,25                        Preferred Stock w/ Exercised Warrants          $8,653,000                                                                                                                                   $347,164
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I April 25, 2012




1/9/2009     Sound Banking Company, Morehead City, NC2                    Preferred Stock w/ Exercised Warrants          $3,070,000                                                                                                     $4.20                         $518,816
12/5/2008    South Financial Group, Inc., Greenville, SC26                Preferred Stock w/ Warrants                 $347,000,000    9/30/2010        $130,179,219              $—     9/30/2010       R             $400,000                                     $16,386,111
7/17/2009    SouthCrest Financial Group, Inc., Fayetteville, GA2          Preferred Stock w/ Exercised Warrants         $12,900,000                                                                                                     $3.00                         $933,494
1/16/2009    Southern Bancorp, Inc., Arkadelphia, AR3,30                  Preferred Stock                               $11,000,000   8/6/2010          $11,000,000              $—     N/A                                 N/A                                       $855,556
                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                   253
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                          (CONTINUED)                                                                                                                                                                      254
                                                                                                                                     Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                             Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                                Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
             Southern Community Financial Corp.,
12/5/2008                                                               Preferred Stock w/ Warrants                    $42,750,000                                                                                                     $2.64     1,623,418         $4,156,250
             Winston-Salem, NC
2/27/2009    Southern First Bancshares, Inc., Greenville, SC            Preferred Stock w/ Warrants                    $17,299,000                                                                                                     $7.60       399,970         $2,566,019
             Southern Heritage Bancshares, Inc.,
5/15/2009                                                               Preferred Stock w/ Exercised Warrants           $4,862,000   9/8/2011            $4,862,000             $—     9/8/2011        R             $243,000                                        $613,111
             Cleveland, TN2,50
1/23/2009    Southern Illinois Bancorp, Inc., Carmi, IL2,49             Preferred Stock w/ Exercised Warrants           $5,000,000   8/25/2011           $5,000,000             $—     8/25/2011       R             $250,000                                        $705,472
             Southern Missouri Bancorp, Inc.,
12/5/2008                                                               Preferred Stock w/ Warrants                     $9,550,000   7/21/2011           $9,550,000             $—                                                    $25.85       114,326         $1,254,764
             Poplar Bluff, MO49
6/12/2009    SouthFirst Bancshares, Inc., Sylacauga, AL2                Preferred Stock w/ Exercised Warrants           $2,760,000                                                                                                     $1.90                         $364,796
12/5/2008    Southwest Bancorp, Inc., Stillwater, OK                    Preferred Stock w/ Warrants                    $70,000,000                                                                                                     $9.25       703,753         $8,555,556
3/13/2009    Sovereign Bancshares, Inc., Dallas, TX2,49                 Preferred Stock w/ Exercised Warrants          $18,215,000   9/22/2011         $18,215,000              $—     9/22/2011       R             $911,000                                      $2,506,669
3/27/2009    Spirit BankCorp, Inc., Bristow, OK2                        Preferred Stock w/ Exercised Warrants          $30,000,000                                                                                                                                 $2,261,750
3/13/2009    St. Johns Bancshares, Inc., St. Louis, MO2                 Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                                   $477,783
4/24/2009    Standard Bancshares, Inc., Hickory Hills, IL2              Preferred Stock w/ Exercised Warrants          $60,000,000                                                                                                                                 $6,730,750
                                                                                                                                     8/12/2009         $12,500,000      $37,500,000
1/16/2009    State Bankshares, Inc., Fargo, ND2                         Preferred Stock w/ Exercised Warrants          $50,000,000                                                     6/29/2011       R           $2,500,000                                      $5,508,472
                                                                                                                                     6/29/2011         $37,500,000              $—
2/13/2009    State Capital Corporation, Greenwood, MS2,30               Preferred Stock w/ Exercised Warrants          $15,000,000   9/29/2010         $15,000,000              $—     9/29/2010       R             $750,000                                      $1,330,709
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I April 25, 2012




10/28/2008   State Street Corporation, Boston, MA                       Preferred Stock w/ Warrants                 $2,000,000,000   6/17/2009       $2,000,000,000             $—     7/8/2009        R          $60,000,000         $45.88                      $63,611,111
                                                                        Subordinated Debentures w/ Exercised
6/26/2009    Stearns Financial Services, Inc., St. Cloud, MN8                                                          $24,900,000   1/18/2012         $24,900,000              $—     1/18/2012       R           $1,245,000                                      $5,350,442
                                                                        Warrants

                                                              8,10,50   Subordinated Debentures w/ Exercised
9/25/2009    Steele Street Bank Corporation, Denver, CO                                                                $11,019,000   9/1/2011          $11,019,000              $—     9/1/2011        R             $331,000                                      $1,728,673
                                                                        Warrants
                                                                                                                                     4/13/2011           $7,500,000     $22,500,000
12/19/2008   StellarOne Corporation, Charlottesville, VA                Preferred Stock w/ Warrants                    $30,000,000                                                                                                    $12.19       302,623         $4,271,875
                                                                                                                                     12/28/2011        $22,500,000              $—
12/23/2008   Sterling Bancorp, New York, NY                             Preferred Stock w/ Warrants                    $42,000,000   4/27/2011         $42,000,000              $—     5/18/2011       R             $945,775          $9.70                       $4,923,333
12/12/2008   Sterling Bancshares, Inc., Houston, TX                     Preferred Stock w/ Warrants                  $125,198,000    5/5/2009         $125,198,000              $—     6/9/2010        A           $3,007,891                                      $2,486,571
12/5/2008    Sterling Financial Corporation, Spokane, WA24              Common Stock w/ Warrants                     $303,000,000                                                                                                     $20.86        97,541         $6,733,333
             Stewardship Financial Corporation,
1/30/2009                                                               Preferred Stock w/ Warrants                    $10,000,000   9/1/2011          $10,000,000              $—     10/26/2011      R             $107,398          $4.81                       $1,293,055
             Midland Park, NJ49
                                                                                                                                     1/14/2011           $4,000,000     $11,568,000    3/16/2011       R             $778,000                                      $1,755,554
2/6/2009     Stockmens Financial Corporation, Rapid City, SD2           Preferred Stock w/ Exercised Warrants          $15,568,000
                                                                                                                                     3/16/2011         $11,568,000              $—
1/23/2009    Stonebridge Financial Corp., West Chester, PA2             Preferred Stock w/ Exercised Warrants          $10,973,000                                                                                                                                   $634,609

                                                              8         Subordinated Debentures w/ Exercised
6/19/2009    Suburban Illinois Bancorp, Inc., Elmhurst, IL                                                             $15,000,000                                                                                                                                 $2,083,520
                                                                        Warrants
12/19/2008   Summit State Bank, Santa Rosa, CA49                        Preferred Stock w/ Warrants                     $8,500,000   8/4/2011            $8,500,000             $—     9/14/2011       R             $315,000          $6.10                       $1,115,625
1/9/2009     Sun Bancorp, Inc., Vineland, NJ                            Preferred Stock w/ Warrants                    $89,310,000   4/8/2009          $89,310,000              $—     5/27/2009       R           $2,100,000          $3.58                       $1,103,971
11/14/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $3,500,000,000   3/30/2011       $3,500,000,000             $—     9/22/2011       A          $14,269,536
                                                                                                                                                                                                                                      $24.28                    $567,986,111
12/31/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $1,350,000,000   3/30/2011       $1,350,000,000             $—     9/22/2011       A          $16,224,035
                                                      17,54
12/5/2008    Superior Bancorp Inc., Birmingham, AL                      Trust Preferred Securities w/ Warrants         $69,000,000                                                                                                               1,923,792         $4,983,333
1/9/2009     Surrey Bancorp, Mount Airy, NC2                            Preferred Stock w/ Exercised Warrants           $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000          $9.94                         $214,972
                                                                                                                                     4/21/2010        $200,000,000     $100,000,000
12/12/2008   Susquehanna Bancshares, Inc, Lititz, PA                    Preferred Stock w/ Warrants                  $300,000,000                                                      1/19/2011       R           $5,269,179          $9.99                      $23,722,222
                                                                                                                                     12/22/2010       $100,000,000              $—
                                            2
4/10/2009    SV Financial, Inc., Sterling, IL                           Preferred Stock w/ Exercised Warrants           $4,000,000   8/31/2011           $4,000,000             $—     8/31/2011       R             $200,000                                        $521,383
12/12/2008   SVB Financial Group, Santa Clara, CA                       Preferred Stock w/ Warrants                  $235,000,000    12/23/2009       $235,000,000              $—     6/16/2010       R           $6,820,000         $64.43                      $12,109,028
                                                                        Subordinated Debentures w/ Exercised
5/8/2009     Sword Financial Corporation , Horicon, WI8,49                                                             $13,644,000   9/15/2011         $13,644,000              $—     9/15/2011       R             $682,000                                      $2,693,234
                                                                        Warrants
12/19/2008   Synovus Financial Corp., Columbus, GA                      Preferred Stock w/ Warrants                  $967,870,000                                                                                                      $2.06    15,510,737      $152,708,378
1/16/2009    Syringa Bancorp, Boise, ID2                                Preferred Stock w/ Exercised Warrants           $8,000,000                                                                                                     $0.06                         $253,122
11/21/2008   Taylor Capital Group, Rosemont, IL                         Preferred Stock w/ Warrants                  $104,823,000                                                                                                     $14.66     1,462,647        $16,946,386
                                                                        Subordinated Debentures w/ Exercised
8/28/2009    TCB Corporation, Greenwood, SC8,10,50                                                                      $9,720,000   9/8/2011            $9,720,000             $—     9/8/2011        R             $292,000                                      $1,599,381
                                                                        Warrants
             TCB Holding Company, Texas Community Bank,
1/16/2009                                                               Preferred Stock w/ Exercised Warrants          $11,730,000                                                                                                                                   $690,832
             The Woodlands, TX2
11/14/2008   TCF Financial Corporation, Wayzata, MN                     Preferred Stock w/ Warrants                  $361,172,000    4/22/2009        $361,172,000              $—     12/15/2009      A           $9,599,964         $11.85                       $7,925,719
                                                                                                                                                                                                                                                        Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                       (CONTINUED)
                                                                                                                                 Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
12/23/2008   TCNB Financial Corp., Dayton, OH2                       Preferred Stock w/ Exercised Warrants          $2,000,000   8/3/2011            $2,000,000             $—     8/3/2011        R             $100,000                                        $284,611
12/19/2008   Tennessee Commerce Bancorp, Inc., Franklin, TN70        Preferred Stock w/ Warrants                   $30,000,000                                                                                                                 461,538         $3,233,333
             Tennessee Valley Financial Holdings, Inc.,
12/23/2008                                                           Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                   $146,242
             Oak Ridge, TN2
1/16/2009    Texas Capital Bancshares, Inc., Dallas, TX              Preferred Stock w/ Warrants                   $75,000,000   5/13/2009         $75,000,000              $—     3/11/2010       A           $6,709,061         $35.43                       $1,218,750
1/9/2009     Texas National Bancorporation, Jacksonville, TX2        Preferred Stock w/ Exercised Warrants          $3,981,000   5/19/2010           $3,981,000             $—     5/19/2010       R             $199,000                                        $295,308
8/7/2009     The ANB Corporation, Terrell, TX2,49                    Preferred Stock w/ Exercised Warrants         $20,000,000   8/25/2011         $20,000,000              $—     8/25/2011       R           $1,000,000                                      $2,234,500
12/12/2008   The Bancorp, Inc., Wilmington, DE                       Preferred Stock w/ Warrants                   $45,220,000   3/10/2010         $45,220,000              $—     9/8/2010        R           $4,753,985         $10.48                       $2,813,689
2/6/2009     The Bank of Currituck, Moyock, NC2,34                   Preferred Stock w/ Exercised Warrants          $4,021,000   12/3/2010           $1,742,850             $—     N/A                                 N/A                                       $169,834

             The Bank of Kentucky Financial Corporation,                                                                         12/22/2010        $17,000,000      $17,000,000
2/13/2009                                                            Preferred Stock w/ Warrants                   $34,000,000                                                                                                    $26.50       274,784         $3,940,694
             Crestview Hills, KY                                                                                                 11/23/2011        $17,000,000              $—
             The Bank of New York Mellon Corporation,
10/28/2008                                                           Preferred Stock w/ Warrants                $3,000,000,000   6/17/2009       $3,000,000,000             $—     8/5/2009        R        $136,000,000          $24.49                      $95,416,667
             New York, NY
1/16/2009    The Baraboo Bancorporation, Baraboo, WI2                Preferred Stock w/ Exercised Warrants         $20,749,000                                                                                                     $4.20                       $3,483,432
             The Connecticut Bank and Trust Company,
12/19/2008                                                           Preferred Stock w/ Warrants                    $5,448,000                                                                                                     $8.57       175,742           $612,900
             Hartford, CT
12/19/2008   The Elmira Savings Bank, FSB, Elmira, NY49              Preferred Stock w/ Warrants                    $9,090,000   8/25/2011           $9,090,000             $—                                                    $18.50       116,538         $1,219,575
1/9/2009     The First Bancorp, Inc., Damariscotta, ME               Preferred Stock w/ Warrants                   $25,000,000   8/24/2011         $12,500,000      $12,500,000                                                   $15.27       225,904         $3,578,125
2/6/2009     The First Bancshares, Inc., Hattiesburg, MS30           Preferred Stock w/ Warrants                    $5,000,000   9/29/2010           $5,000,000             $—                                                                  54,705           $411,806
2/6/2009     The Freeport State Bank, Harper, KS2                    Preferred Stock w/ Exercised Warrants           $301,000                                                                                                                                     $49,610
10/28/2008   The Goldman Sachs Group, Inc., New York, NY             Preferred Stock w/ Warrants               $10,000,000,000   6/17/2009      $10,000,000,000             $—     7/22/2009       R      $1,100,000,000        $124.90                     $318,055,555
5/22/2009    The Landrum Company, Columbia, MO2,49                   Preferred Stock w/ Exercised Warrants         $15,000,000   8/18/2011         $15,000,000              $—     8/18/2011       R             $750,000                                      $1,830,292
12/23/2008   The Little Bank, Incorporated, Kinston, NC2             Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                 $1,285,292
12/31/2008   The PNC Financial Services Group Inc., Pittsburgh, PA   Preferred Stock w/ Warrants                $7,579,200,000   2/10/2010       $7,579,200,000             $—     4/29/2010       A        $324,195,686          $64.72                    $421,066,667
2/20/2009    The Private Bank of California, Los Angeles, CA2,49     Preferred Stock w/ Exercised Warrants          $5,450,000   9/1/2011            $5,450,000             $—     9/1/2011        R             $273,000                                        $751,752
1/9/2009     The Queensborough Company, Louisville, GA2              Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                   $882,900
                                                                     Subordinated Debentures w/ Exercised
9/4/2009     The State Bank of Bartley, Bartley, NE8,10,49                                                          $1,697,000   9/22/2011           $1,697,000             $—     9/22/2011       R              $51,000                                        $282,299
                                                                     Warrants
12/11/2009   The Victory Bancorp, Inc., Limerick, PA2,10a,49         Preferred Stock w/ Exercised Warrants          $1,505,000   9/22/2011           $1,505,000             $—     9/22/2011       R              $34,000                                        $215,183
             The Victory Bancorp, Inc. (The Victory Bank),
2/27/2009                                                            Preferred Stock w/ Exercised Warrants           $541,000    9/22/2011            $541,000              $—     9/22/2011       R              $27,000
             Limerick, PA2,13,49
             Three Shores Bancorporation, Inc. (Seaside
1/23/2009                                                            Preferred Stock w/ Exercised Warrants          $5,677,000                                                                                                                                   $947,139
             National Bank & Trust), Orlando, FL2,13
12/5/2008    TIB Financial Corp, Naples, FL32                        Preferred Stock w/ Warrants                   $37,000,000   9/30/2010         $12,119,637              $—     9/30/2010       R              $40,000         $13.44                       $1,284,722
12/19/2008   Tidelands Bancshares, Inc, Mount Pleasant, SC           Preferred Stock w/ Warrants                   $14,448,000                                                                                                                 571,821         $1,195,973
4/17/2009    Tifton Banking Company, Tifton, GA2,52                  Preferred Stock w/ Exercised Warrants          $3,800,000                                                                                                                                   $223,208
12/23/2008   Timberland Bancorp, Inc., Hoquiam, WA                   Preferred Stock w/ Warrants                   $16,641,000                                                                                                     $4.70                         $952,236
4/3/2009     Titonka Bancshares, Inc, Titonka, IA2                   Preferred Stock w/ Exercised Warrants          $2,117,000                                                                                                                                   $330,785
2/6/2009     Todd Bancshares, Inc., Hopkinsville, KY2                Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                   $659,450
12/12/2008   TowneBank, Portsmouth, VA50                             Preferred Stock w/ Warrants                   $76,458,000   9/22/2011         $76,458,000              $—                                                    $13.76                      $10,619,167
1/16/2009    Treaty Oak Bancorp, Inc., Austin, TX2,36                Warrants                                       $3,268,000   2/15/2011            $500,000              $—                                                     $0.22     3,098,341           $192,415
3/27/2009    Triad Bancorp, Inc., Frontenac, MO2,49                  Preferred Stock w/ Exercised Warrants          $3,700,000   9/22/2011           $3,700,000             $—     9/22/2011       R             $185,000                                        $501,325
12/19/2008   Tri-County Financial Corporation, Waldorf, MD2,49       Preferred Stock w/ Exercised Warrants         $15,540,000   9/22/2011         $15,540,000              $—     9/22/2011       R             $777,000                                      $2,336,116
3/27/2009    Trinity Capital Corporation , Los Alamos, NM2           Preferred Stock w/ Exercised Warrants         $35,539,000                                                                                                                                 $5,623,746
4/3/2009     Tri-State Bank of Memphis, Memphis, TN2,3,30            Preferred Stock                                $2,795,000   8/13/2010           $2,795,000             $—     N/A                                 N/A                                       $190,215
2/27/2009    TriState Capital Holdings, Inc., Pittsburgh, PA2        Preferred Stock w/ Exercised Warrants         $23,000,000                                                                                                                                 $3,722,893
4/3/2009     TriSummit Bank, Kingsport, TN2                          Preferred Stock w/ Exercised Warrants          $2,765,000
                                                                                                                                                                                                                                                                 $886,810
12/22/2009   TriSummit Bank, Kingsport, TN2                          Preferred Stock                                $4,237,000
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I April 25, 2012




11/21/2008   Trustmark Corporation, Jackson, MS                      Preferred Stock w/ Warrants                 $215,000,000    12/9/2009        $215,000,000              $—     12/30/2009      R          $10,000,000         $25.24                      $11,287,500
5/29/2009    Two Rivers Financial Group, Burlington, IA2,49          Preferred Stock w/ Exercised Warrants         $12,000,000   9/1/2011          $12,000,000              $—     9/1/2011        R             $600,000         $14.00                       $1,475,133
11/14/2008   U.S. Bancorp, Minneapolis, MN                           Preferred Stock w/ Warrants                $6,599,000,000   6/17/2009       $6,599,000,000             $—     7/15/2009       R        $139,000,000          $31.71                    $195,220,417
8/7/2009     U.S. Century Bank, Miami, FL2                           Preferred Stock w/ Exercised Warrants         $50,236,000                                                                                                                                   $745,312
                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              255
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                       (CONTINUED)                                                                                                                                                                    256
                                                                                                                                Capital                                           Final                                           Stock        Current         Dividends/
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition   Price as of   Outstanding    Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     4/2/2012        Warrants            Treasury
1/30/2009    UBT Bancshares, Inc., Marysville, KS2,49               Preferred Stock w/ Exercised Warrants          $8,950,000   8/11/2011           $8,950,000             $—     8/11/2011       R             $450,000                                      $1,234,912
11/14/2008   UCBH Holdings, Inc., San Francisco, CA14               Preferred Stock w/ Warrants                 $298,737,000                                                                                                                7,847,732         $7,509,920
11/14/2008   Umpqua Holdings Corp., Portland, OR                    Preferred Stock w/ Warrants                 $214,181,000    2/17/2010        $214,181,000              $—     3/31/2010       R           $4,500,000         $13.65                      $13,475,555
5/1/2009     Union Bank & Trust Company, Oxford, NC2,50             Preferred Stock w/ Exercised Warrants          $3,194,000   9/22/2011           $3,194,000             $—     9/22/2011       R             $160,000
                                                                                                                                                                                                                                                                $680,292
12/18/2009   Union Bank & Trust Company, Oxford, NC2,10a,49         Preferred Stock                                $2,997,000   9/22/2011           $2,997,000             $—     N/A                                 N/A
                                                             2,10
12/29/2009   Union Financial Corporation, Albuquerque, NM           Preferred Stock w/ Exercised Warrants          $2,179,000                                                                                                                                   $244,269
             Union First Market Bankshares Corporation
2/6/2009                                                            Preferred Stock                               $33,900,000   12/7/2011         $35,595,000              $—     N/A                                 N/A                                     $5,239,844
             (First Market Bank, FSB), Bowling Green, VA18
                                                                                                                                                                                                                                 $14.51
             Union First Market Bankshares Corporation (Union
12/19/2008                                                          Preferred Stock w/ Warrants                   $59,000,000   11/18/2009        $59,000,000              $—     12/23/2009      R             $450,000                                      $2,695,972
             Bankshares Corporation), Bowling Green, VA18
2/20/2009    United American Bank, San Mateo, CA2                   Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                         $—
1/16/2009    United Bancorp, Inc., Tecumseh, MI                     Preferred Stock w/ Warrants                   $20,600,000                                                                                                     $9.75       311,492         $3,172,972
             United Bancorporation of Alabama, Inc.,
12/23/2008                                                          Preferred Stock w/ Warrants                   $10,300,000   9/3/2010          $10,300,000              $—                                                                 108,264           $872,639
             Atmore, AL30
                                                                    Subordinated Debentures w/ Exercised
5/22/2009    United Bank Corporation, Barnesville, GA8                                                            $14,400,000                                                                                                                                 $3,298,951
                                                                    Warrants
12/5/2008    United Community Banks, Inc., Blairsville, GA          Preferred Stock w/ Warrants                 $180,000,000                                                                                                      $9.75       219,908        $28,768,750
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I April 25, 2012




             United Financial Banking Companies, Inc.,                                                                          12/15/2010          $3,000,000      $2,658,000
1/16/2009                                                           Preferred Stock w/ Exercised Warrants          $5,658,000                                                     9/15/2011       R             $283,000         $13.51                         $708,964
             Vienna, VA2,49                                                                                                     9/15/2011           $2,658,000             $—
12/5/2008    Unity Bancorp, Inc., Clinton, NJ                       Preferred Stock w/ Warrants                   $20,649,000                                                                                                     $6.22                       $3,298,105
5/22/2009    Universal Bancorp, Bloomfield, IN2                     Preferred Stock w/ Exercised Warrants          $9,900,000                                                                                                                                 $1,473,271
             University Financial Corp, Inc.,
6/19/2009                                                           Subordinated Debentures                       $11,926,000   7/30/2010         $11,926,000              $—     N/A                                 N/A                                     $1,022,886
             St. Paul, MN3,8,30
                                                  2
2/6/2009     US Metro Bank, Garden Grove, CA                        Preferred Stock w/ Exercised Warrants          $2,861,000                                                                                                     $4.50                         $432,678
12/23/2008   Uwharrie Capital Corp, Albemarle, NC2                  Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                     $3.29                       $1,713,722
1/30/2009    Valley Commerce Bancorp, Visalia, CA2                  Preferred Stock w/ Exercised Warrants          $7,700,000   3/21/2012           $7,700,000             $—     3/21/2012       R             $385,000          $9.50                       $1,318,401
1/9/2009     Valley Community Bank, Pleasanton, CA2                 Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                     $1.70                         $629,476
12/12/2008   Valley Financial Corporation, Roanoke, VA              Preferred Stock w/ Warrants                   $16,019,000                                                                                                                 344,742         $2,581,193
             Valley Financial Group, Ltd., 1st State Bank,
12/18/2009                                                          Preferred Stock w/ Exercised Warrants          $1,300,000   9/22/2011           $1,300,000             $—     9/22/2011       R              $65,000                                        $124,775
             Saginaw, MI2,49
                                                                                                                                6/3/2009          $75,000,000     $225,000,000
11/14/2008   Valley National Bancorp, Wayne, NJ68                   Preferred Stock w/ Warrants                 $300,000,000    9/23/2009        $125,000,000     $100,000,000                                                                465,569        $12,979,167
                                                                                                                                                                                  5/18/2010       A           $5,571,592         $12.96
                                                                                                                                12/23/2009       $100,000,000              $—
12/5/2008    Valley National Bancorp (State Bancorp, Inc.)68        Preferred Stock w/ Warrants                   $36,842,000   12/14/2011        $36,842,000              $—                                                                                 $5,572,353
             Veritex Holdings, Inc. (Fidelity Resources
6/26/2009                                                           Preferred Stock w/ Exercised Warrants          $3,000,000   8/25/2011           $3,000,000             $—     8/25/2011       R             $150,000                                        $353,796
             Company), Dallas, TX2,40, 49
             Village Bank and Trust Financial Corp,
5/1/2009                                                            Preferred Stock w/ Warrants                   $14,738,000                                                                                                     $1.80       499,029         $1,318,232
             Midlothian, VA
12/12/2008   Virginia Commerce Bancorp, Arlington, VA               Preferred Stock w/ Warrants                   $71,000,000                                                                                                     $8.90     2,696,203        $11,271,250
6/12/2009    Virginia Company Bank, Newport News, VA2,10            Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                                                   $663,052
4/24/2009    Vision Bank - Texas, Richardson, TX2                   Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                                   $229,582
12/19/2008   VIST Financial Corp., Wyomissing, PA                   Preferred Stock w/ Warrants                   $25,000,000                                                                                                    $12.10                       $3,944,444
1/30/2009    W.T.B. Financial Corporation, Spokane, WA2,50          Preferred Stock w/ Exercised Warrants       $110,000,000    9/15/2011        $110,000,000              $—     9/15/2011       R           $5,500,000                                     $15,736,874
12/11/2009   Wachusett Financial Services, Inc., Clinton, MA2,10    Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                 $1,400,355
12/19/2008   Wainwright Bank & Trust Company, Boston, MA            Preferred Stock w/ Warrants                   $22,000,000   11/24/2009        $22,000,000              $—     12/16/2009      R             $568,700                                      $1,023,611
1/16/2009    Washington Banking Company, Oak Harbor, WA             Preferred Stock w/ Warrants                   $26,380,000   1/12/2011         $26,380,000              $—     3/2/2011        R           $1,625,000         $14.41                       $2,623,344
11/14/2008   Washington Federal, Inc., Seattle, WA                  Preferred Stock w/ Warrants                 $200,000,000    5/27/2009        $200,000,000              $—     3/9/2010        A          $15,623,222         $16.73                       $5,361,111
             WashingtonFirst Bankshares, Inc.,
10/30/2009                                                          Preferred Stock                                $6,842,000   8/4/2011            $6,842,000             $—     N/A                                 N/A                                     $1,510,318
             Reston, VA2,10a,49
             WashingtonFirst Bankshares, Inc. (WashingtonFirst
1/30/2009                                                           Preferred Stock w/ Exercised Warrants          $6,633,000   8/4/2011            $6,633,000             $—     8/4/2011        R             $332,000
             Bank), Reston, VA2,13, 49
6/26/2009    Waukesha Bankshares, Inc., Waukesha, WI2,10            Preferred Stock w/ Exercised Warrants          $5,625,000                                                                                                                                   $781,501
                                                                                                                                                                                                                                                   Continued on next page.
CPP TRANSACTION DETAIL, AS OF 3/31/2012                                                        (CONTINUED)
                                                                                                                                          Capital                                                        Final                                                   Stock          Current            Dividends/
Purchase                                                                                                                                  Repayment         Capital Repayment            Remaining       Disposition                 Final Disposition      Price as of     Outstanding       Interest Paid to
Date            Institution                                           Investment Description                      Investment Amount       Date                 Amount (Loss)6        Capital Amount      Date            Note15             Proceeds        4/2/2012          Warrants               Treasury
                                                                                                                                          3/3/2010                $100,000,000         $300,000,000
11/21/2008      Webster Financial Corporation, Waterbury, CT          Preferred Stock w/ Warrants                       $400,000,000      10/13/2010              $100,000,000         $200,000,000      6/2/2011           A            $20,678,339            $22.77                           $36,944,444
                                                                                                                                          12/29/2010              $200,000,000                    $—
10/28/2008      Wells Fargo & Company, San Francisco, CA              Preferred Stock w/ Warrants                   $25,000,000,000       12/23/2009           $25,000,000,000                    $—     5/20/2010          A          $849,014,998             $34.51                        $1,440,972,222
12/5/2008       WesBanco, Inc., Wheeling, WV                          Preferred Stock w/ Warrants                        $75,000,000      9/9/2009                 $75,000,000                    $—     12/23/2009         R               $950,000            $20.74                             $2,854,167
12/31/2008      West Bancorporation, Inc., West Des Moines, IA        Preferred Stock w/ Warrants                        $36,000,000      6/29/2011                $36,000,000                    $—     8/31/2011          R               $700,000            $10.18                             $4,495,000
                                                                                                                                          9/2/2009                 $41,863,000          $41,863,000
2/13/2009       Westamerica Bancorporation, San Rafael, CA            Preferred Stock w/ Warrants                        $83,726,000                                                                     11/18/2011         P               $878,256            $48.33           246,698           $2,755,981
                                                                                                                                          11/18/2009               $41,863,000                    $—
11/21/2008      Western Alliance Bancorporation, Las Vegas, NV49      Preferred Stock w/ Warrants                       $140,000,000      9/27/2011               $140,000,000                    $—     11/18/2011         P               $415,000             $8.66                           $19,950,000
                Western Community Bancshares, Inc., Palm
12/23/2008                                                            Preferred Stock w/ Exercised Warrants                $7,290,000                                                                                                                                                                $554,083
                Desert, CA2
12/23/2008      Western Illinois Bancshares Inc., Monmouth, IL2       Preferred Stock w/ Exercised Warrants                $6,855,000
                                                                                                                                                                                                                                                                                                   $1,660,706
12/29/2009      Western Illinois Bancshares Inc., Monmouth, IL2,10a   Preferred Stock                                      $4,567,000
                                                            2
5/15/2009       Western Reserve Bancorp, Inc, Medina, OH              Preferred Stock w/ Exercised Warrants                $4,700,000                                                                                                                           $14.00                               $704,413
                White River Bancshares Company,
2/20/2009                                                             Preferred Stock w/ Exercised Warrants              $16,800,000                                                                                                                                                               $1,589,583
                Fayetteville, AR2
12/19/2008      Whitney Holding Corporation, New Orleans, LA45        Preferred Stock w/ Warrants                       $300,000,000      6/3/2011                $300,000,000                    $—     6/3/2011           R             $6,900,000                                             $36,833,333
12/12/2008      Wilshire Bancorp, Inc., Los Angeles, CA76             Preferred Stock w/ Warrants                        $62,158,000      3/28/2012                $57,766,994                    $—                                                             $4.90           949,460           $9,867,583
12/19/2008      Wintrust Financial Corporation, Lake Forest, IL       Preferred Stock w/ Warrants                       $250,000,000      12/22/2010              $250,000,000                    $—     2/8/2011           A            $25,964,061            $36.00                           $25,104,167
                Worthington Financial Holdings, Inc.,
5/15/2009                                                             Preferred Stock w/ Exercised Warrants                $2,720,000                                                                                                                                                                $370,600
                Huntsville, AL2
                                             79
1/23/2009       WSFS Financial Corporation                            Preferred Stock w/ Warrants                        $52,625,000      3/28/2012                $47,435,299                    $—                                                            $41.00           175,105           $8,054,549
1/16/2009       Yadkin Valley Financial Corporation, Elkin, NC        Preferred Stock w/ Warrants                        $36,000,000                                                                                                                                             273,534
                                                                                                                                                                                                                                                                 $2.84                             $4,782,227
7/24/2009       Yadkin Valley Financial Corporation, Elkin, NC        Preferred Stock w/ Warrants                        $13,312,000                                                                                                                                             385,990
4/24/2009       York Traditions Bank , York, PA                       Preferred Stock w/ Exercised Warrants               $4,871,000      7/14/2011                  $4,871,000                   $—     7/14/2011          R               $244,000                                                 $590,022
11/14/2008      Zions Bancorporation, Salt Lake City, UT              Preferred Stock w/ Warrants                     $1,400,000,000      3/28/2012               $700,000,000         $700,000,000                                                             $21.43         5,789,909        $231,875,000
                                                                                                                                                                                                         Total
                                                                                                                                          Total Capital                                                  Warrant
                                                                                                                                          Repayment                                                      Proceeds
                                                                      Total Purchase Amount*                     $204,943,827,320         Amount **         $186,914,050,341                             ****                       $7,674,262,865
                                                                      Total Treasury CPP Invesment
                                                                      Outstanding                                  $18,029,776,979
Notes: Numbers may not total due to rounding. Data as of 4/2/2012. Numeric notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 3/31/2012.
* Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
** Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup
    Common Stock Disposition” on following pages) and (ii) the amount of $355,724,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
*** Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings (see Notes 16 and 19) and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale (see Notes 26, 32, 33, 34, 38, 39, 42, 46, 47, 59, 64,
     74, 75, 76, 77, 78, 79), but excludes investment amounts for institutions that have pending receivership or bankruptcy proceedings (see Notes 14, 25, 51, 52, 53, 54, 55, 56, 57, 61, 63, 70, and 71).
**** Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a).

1a	
     This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on
     1/1/2009, and this transaction under the CPP was funded on 1/9/2009.
1b	
     The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total gross disposition proceeds from CPP warrants on 3/3/2010 was $310,571,615, consisting of $186,342,969 and
     $124,228,646. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2	
     Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3	
     To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a	
     Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4	
     Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5	
      Redemption pursuant to a qualified equity offering.
6	
     This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7	
     The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8	
     Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9	
     In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10	
     This institution participated in the expansion of CPP for small banks.
10a	
     This institution received an additional investment through the expansion of CPP for small banks.
11	
     Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s
     investment in Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”)
     and a warrant to purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
                                                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                                                                 257
                                                                                                                                                                                                                                                                                                                            258
12	
      n 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this
     O
     transaction. 	
13	
     This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14	
     As of the date of this report, this institution is in bankruptcy proceedings.
15	
     For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution in a negotiated sale pursuant to the terms of the related securities purchase agreement, “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale
      by Treasury in a registered public offering of the warrants issued by the financial institution, and “P” represents the proceeds to Treasury, before placement expenses, from a sale by Treasury in a private auction principally involving qualified institutional buyers.
16	
      On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of
      common shares to holders of CVRs were not met.
17	
      On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18	
      On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended
       dividend rate equivalent to those of Treasury’s original investment.
19	
       On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20	
       On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and
       unpaid dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock
21	
       On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22	
       On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously
       accrued and unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23	
       Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program
       (see note 11). On April 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on
       completion of the sale). Completion of the sale under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during
       the period ending on June 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares
       of the common stock from time to time during the period ending on September 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary
       authority, as its sales agent, to sell subject to certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at
       the market price. On December 6, 2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted
       average price per share and the total proceeds to Treasury from all such sales during those periods.
24	
       On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on
       4/29/2010. Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25	
       On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.			
26	
       On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the preferred stock and $400,000 for the warrants, pursuant to the terms of the agreement
       between Treasury and TD entered into on 5/18/2010.
27	
       On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28	
       On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
                                                                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I April 25, 2012




       unpaid dividends. On 10/07/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends
       on the MCP at the time of the conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
29	
       On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial
       investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
       common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.
30	
       This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below. 		
30a	
       At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.			
31	
       On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
       8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock. 			
32	
       On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the preferred stock and $40,000 for the warrants, pursuant to the terms of the
       agreement between Treasury and NAFH entered into on 9/24/2010.				
33	
       On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all preferred stock and warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
       entered into on 10/29/2010.
34	
       On 12/3/2010, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury
       and Currituck entered into on 11/5/2010.	
35	
       Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
       closing of the sale also occurred on 1/28/2011.
36	
       On 2/15/2011, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
       payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.	
37	
       On 2/18/11, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.		
38	
       On 3/9/2011, Treasury completed the sale of all subordinated debentures (including the subordinated debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement
       between Treasury and FBHC entered into on 3/9/2011.
39	
       On 5/31/2011, Treasury completed the sale of all preferred stock and warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition
       expenses, debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.							
40	
       As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of
       an agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.	
41	
       As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series
       of preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror
       entered into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.
42	
       On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. preferred stock and warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury
       and Bear State entered into on 05/03/2011.											
43	
       On 5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation preferred stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation warrant for an equivalent
       warrant issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2011.				
44	
       On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the
       Treasury-held M&I Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 05/16/2011.
45	
       On 6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid
       dividends thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.								
46	
       On 06/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 06/17/2011.
       On 3/29/2012, Treasury executed an underwriting agreement for the sale of all of Treasury’s remaining 2,770,117 shares of Central Pacific Financial Corp. common stock at $13.01 per share (which represents the $13.15 public offering price less underwriting discounts) for net proceeds of
       $36,039,222.17.
47	
       On 6/30/2011, Treasury completed the sale of all Cascade Financial Corporation preferred stock held by Treasury and the related warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered
       into on 06/28/2011.
49	
       Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.						
50	
       Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund. 			
51	
       On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.				
52	
       On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.							
53	
       On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.				
54	
       On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.					
55	
       On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.				
56	
       On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.							
57	
       On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.			
58	
       On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB
       United entered into on 08/12/2011.
59	
       On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
       entered into on 9/6/2011.

                                                                                                                                                                                                                                                                                                Continued on next page.
59	
    On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
    entered into on 9/6/2011.
60	
    As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously
    unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.								
61	
    On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.			
62	
    Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.					
63	
    On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.			
64	
    On 10/21/2011, Treasury completed the sale of all Santa Lucia Bancorp preferred stock and warrants held by Treasury to CCI One Acquisition Corporation (“CCI”) for an aggregate purchase price of $2,800,000.00, pursuant to the terms of the agreement between Treasury and CCI entered into on
    10/20/2011.
65	
    As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement
    among Treasury, CFC and CFB entered into on 11/15/2011.					
66	
    As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among
    Treasury, Center Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
67	
    On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by
    Treasury for a like F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 01/01/2012.			
68	
    As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company
    and the acquiror entered into on 1/1/2012.
69	
    On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the
    exercise of warrants) that had been issued to Treasury by Regents.
70	
    On 1/27/2012, Tennessee Commerce Bank, Franklin, TN was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
71	
    On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.				
72	
    On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a
    capital plan.
73	
    On 3/9/2012, Treasury completed the sale of all Mainline Bancorp, Inc. preferred stock and exercised warrants held by Treasury to 9th Street Holdings, Inc., a subsidiary of S&T Bancorp, Inc., for an aggregate purchase price of $4,725,000 plus accrued and unpaid dividends, pursuant to the terms of an
    agreement among Treasury, 9th Street Holdings, Inc., and S&T Bancorp, Inc. entered into on 3/8/2012.
74	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 124,000 shares of Banner Corporation preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $108,071,914.80 plus accrued and unpaid dividends.				
75	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 65,000 shares of First Financial Holdings, Inc. preferred stock at $873.51 per share (less underwriting discounts) for net proceeds of $55,926,477.75 plus accrued and unpaid dividends.			
76	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 62,158 shares of Wilshire Bancorp, Inc. preferred stock at $943.51 per share (less underwriting discounts) for net proceeds of $57,766,994.16 plus accrued and unpaid dividends.			
77	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 2,000 shares of Seacoast Banking Corporation of Florida preferred stock at $20,510.00 per share (less underwriting discounts) for net proceeds of $40,404,700.00 plus accrued and unpaid dividends.
78	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 57,000 shares of MainSource Financial Group, Inc. preferred stock at $931.11 per share (less underwriting discounts) for net proceeds of $52,277,170.95 plus accrued and unpaid dividends.				
79	
    On 3/28/2012, Treasury executed an underwriting agreement for the sale of 52,625 shares of WSFS Financial Corporation preferred stock at $915.11 per share (less underwriting discounts) for net proceeds of $47,435,298.79 plus accrued and unpaid dividends.			

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call, 4/5/2012; Bloomberg, LP accessed 4/2/2012.




Table D.2
 CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 3/31/2012
 Note      Date                                              Pricing Mechanism6                   Number of Shares                            Proceeds7
 1         4/26/2010 - 5/26/2010                                            $4.12                     1,500,000,000                     $6,182,493,158
 2         5/26/2010 - 6/30/2010                                            $3.90                     1,108,971,857                     $4,322,726,825
 3         7/23/2010 - 9/30/2010                                            $3.91                     1,500,000,000                     $5,863,489,587
 4         10/19/2010 - 12/6/2010                                           $4.26                     1,165,928,228                     $4,967,921,811
 5         12/6/2010                                                        $4.35                     2,417,407,607                    $10,515,723,090
                                                                                                     Total Proceeds:                 $31,852,354,471
 Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes taken verbatim from 4/2/2012 Transactions Report.
 1	
    On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
    certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of
    the sale). Completion of the sale under this authority occurred on 5/26/2010.
 2	
    On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
    certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of
    the sale). Completion of the sale under this authority occurred on 6/30/2010.
 3	
    On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
    certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of
    the sale). Completion of the sale under this authority occured on 9/30/2010.
 4	
    On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
    certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/ 2010 (or upon completion
    of the sale), which plan was terminated on 12/6/2010.
 5	
    On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
    fulfillment of certain closing conditions.
 6	
    The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding
    period.
 7	
    Amount represents the gross proceeds to Treasury.

 Source: Treasury, Transactions Report, 4/2/2012.
                                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                                                                     259
Table D.3                                                                                                                                                                                                                                        260
 CDCI PROGRAM TRANSACTION DETAIL, AS OF 3/31/2012
                                                        Seller                                                             Purchase Details                                                      Disposition Details
                                                                                                                                                                                     Pricing                  Remaining    Dividend/Interest
Note   Purchase Date   Name of Institution                                                Investment Description    Amount from CPP   Additional Investment   Investment Amount   Mechanism    Date   Investment Amount     Paid to Treasury
       9/24/2010       Alternatives Federal Credit Union, Ithaca, NY                      Subordinated Debentures                —                      —            $2,234,000          Par                                      $62,179.67
       9/17/2010       American Bancorp of Illinois, Inc., Oak Brook, IL                  Subordinated Debentures                —                      —            $5,457,000          Par                                     $238,713.43
       9/24/2010       Atlantic City Federal Credit Union, Lander, WY                     Subordinated Debentures                —                      —            $2,500,000          Par                                      $69,583.33
       9/24/2010       Bainbridge Bancshares, Inc., Bainbridge GA                         Preferred Stock                        —                      —            $3,372,000          Par                                      $93,854.00
       9/29/2010       Bancorp of Okolona, Inc., Okolona, MS                              Subordinated Debentures                —                      —            $3,297,000          Par                                     $140,818.53
1, 2   9/29/2010       BancPlus Corporation, Ridgeland MS                                 Preferred Stock               $50,400,000           $30,514,000           $80,914,000          Par                                   $2,229,630.22
       9/29/2010       BankAsiana, Palisades Park, NJ                                     Preferred Stock                        —                      —            $5,250,000          Par                                     $144,666.67
       9/29/2010       Bethex Federal Credit Union, Bronx, NY                             Subordinated Debentures                —                      —             $502,000           Par                                      $13,832.89
       9/29/2010       Border Federal Credit Union, Del Rio, TX                           Subordinated Debentures                —                      —            $3,260,000          Par                                      $89,831.11
       9/24/2010       Brewery Credit Union, Milwaukee, WI                                Subordinated Debentures                —                      —            $1,096,000          Par                                      $30,505.33
       9/30/2010       Brooklyn Cooperative Federal Credit Union, Brooklyn, NY            Subordinated Debentures                —                      —             $300,000           Par                                       $8,250.00
       9/24/2010       Buffalo Cooperative Federal Credit Union, Buffalo, NY              Subordinated Debentures                —                      —             $145,000           Par                                       $4,035.83
       9/24/2010       Butte Federal Credit Union, Biggs, CA                              Subordinated Debentures                —                      —            $1,000,000          Par                                      $27,833.33
       9/29/2010       Carter Federal Credit Union, Springhill, LA                        Subordinated Debentures                —                      —            $6,300,000          Par                                     $173,600.00
                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I April 25, 2012




1, 3   8/27/2010       Carver Bancorp, Inc, New York, NY                                  Preferred Stock               $18,980,000                     —           $18,980,000          Par                                     $446,507.39
       9/17/2010       CFBanc Corporation, Washington, DC                                 Preferred Stock                        —                      —            $5,781,000          Par                                     $163,152.67
1      8/13/2010                                                                          Preferred Stock                $7,462,000                     —                    —           Par
                       Citizens Bancshares Corporation, Atlanta, GA                                                                                                                                                              $348,274.22
2a     9/17/2010                                                                          Preferred Stock                        —              $4,379,000          $11,841,000          Par
1      9/29/2010       Community Bancshares of Mississippi, Inc., Brandon, MS             Preferred Stock               $54,600,000                     —           $54,600,000          Par                                   $1,504,533.33
1, 2   9/29/2010       Community Bank of the Bay, Oakland, CA                             Preferred Stock                $1,747,000             $2,313,000           $4,060,000          Par                                      $91,575.56
       9/24/2010       Community First Guam Federal Credit Union, Hagatna, GU             Subordinated Debentures                —                      —            $2,650,000          Par                                      $73,758.33
       9/29/2010       Community Plus Federal Credit Union, Rantoul, IL                   Subordinated Debentures                —                      —             $450,000           Par                                      $12,400.00
       9/24/2010       Cooperative Center Federal Credit Union, Berkeley, CA              Subordinated Debentures                —                      —            $2,799,000          Par                                      $77,905.50
       9/29/2010       D.C. Federal Credit Union, Washington, DC                          Subordinated Debentures                —                      —            $1,522,000          Par                                      $41,939.56
       9/29/2010       East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT   Subordinated Debentures                —                      —               $7,000           Par                                         $192.89
       9/29/2010       Episcopal Community Federal Credit Union, Los Angeles, CA          Subordinated Debentures                —                      —             $100,000           Par                                       $2,755.56
       9/24/2010       Fairfax County Federal Credit Union, Fairfax, VA                   Subordinated Debentures                —                      —            $8,044,000          Par                                     $223,891.33
       9/29/2010       Faith Based Federal Credit Union, Vernon, CA                       Subordinated Debentures                —                      —              $30,000           Par                                         $826.67
       9/29/2010       Fidelis Federal Credit Union, Fairfax, VA                          Subordinated Debentures                —                      —              $14,000           Par                                         $385.78
1      8/13/2010       First American International Corp., Brooklyn, NY                   Preferred Stock               $17,000,000                     —           $17,000,000          Par                                     $171,888.89
1      9/24/2010       First Choice Bank, Cerritos, CA                                    Preferred Stock                $5,146,000                     —            $5,146,000          Par                                     $143,230.33
1      9/17/2010       First Eagle Bancshares, Inc., Hanover Park, IL                     Subordinated Debentures        $7,875,000                     —            $7,875,000          Par                                     $344,487.50
       9/29/2010       First Legacy Community Credit Union, Charlotte, NC                 Subordinated Debentures                —                      —            $1,000,000          Par                                      $27,555.56
1      9/29/2010       First M&F Corporation, Kosciusko, MS                               Preferred Stock               $30,000,000                     —           $30,000,000          Par                                     $826,666.67
1      9/29/2010       First Vernon Bancshares, Inc., Vernon, AL                          Preferred Stock                $6,245,000                     —            $6,245,000          Par                                      $15,959.44
       9/29/2010       Freedom First Federal Credit Union, Roanoke, VA                    Subordinated Debentures                —                      —            $9,278,000          Par                                     $255,660.44
       9/24/2010       Gateway Community Federal Credit Union, Missoula, MT               Subordinated Debentures                —                      —            $1,657,000          Par                                      $46,119.83
       9/17/2010       Genesee Co—op Federal Credit Union, Rochester, NY                  Subordinated Debentures                —                      —             $300,000           Par                                       $8,466.67
       9/29/2010       Greater Kinston Credit Union, Kinston, NC                          Subordinated Debentures                —                      —             $350,000           Par                                       $9,644.44
1      7/30/2010       Guaranty Capital Corporation, Belzoni, MS                          Subordinated Debentures       $14,000,000                     —           $14,000,000          Par                                     $669,083.33
       9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA                 Subordinated Debentures                —                      —             $100,000           Par                                       $2,755.56
       9/17/2010       Hope Federal Credit Union, Jackson, MS                             Subordinated Debentures                —                      —            $4,520,000          Par                                     $127,564.44
1, 2   9/10/2010       IBC Bancorp, Inc., Chicago, IL                                     Subordinated Debentures        $4,205,000             $3,881,000           $8,086,000          Par                                     $358,591.64
1      9/3/2010        IBW Financial Corporation, Washington, DC                          Preferred Stock                $6,000,000                     —            $6,000,000          Par                                     $174,000.00
       9/29/2010       Independent Employers Group Federal Credit Union, Hilo, HI         Subordinated Debentures                —                      —             $698,000           Par                                      $19,233.78
       9/3/2010        Kilmichael Bancorp, Inc., Kilmichael, MS                           Subordinated Debentures                —                      —            $3,154,000          Par                                     $141,772.30
1      9/29/2010       Lafayette Bancorp, Inc., Oxford, MS                                Preferred Stock                $4,551,000                     —            $4,551,000          Par                                     $125,405.33
                                                                                                                                                                                                                       Continued on next page.
CDCI PROGRAM TRANSACTION DETAIL, AS OF 3/31/2012                                                                  (continued)
                                                             Seller                                                                       Purchase Details                                                                           Disposition Details
                                                                                                                                                                                                            Pricing                                Remaining      Dividend/Interest
Note       Purchase Date      Name of Institution                                               Investment Description          Amount from CPP        Additional Investment      Investment Amount      Mechanism                Date     Investment Amount       Paid to Treasury
           9/24/2010          Liberty County Teachers Federal Credit Union, Liberty, TX         Subordinated Debentures                          —                         —                $435,000              Par                                                    $12,107.50
1, 2       9/24/2010          Liberty Financial Services, Inc., New Orleans, LA                 Preferred Stock                        $5,645,000                 $5,689,000             $11,334,000              Par                                                   $315,463.00
           9/24/2010          Lower East Side People’s Federal Credit Union, New York, NY       Subordinated Debentures                          —                         —                $898,000              Par                                                    $24,994.33
1          8/20/2010          M&F Bancorp, Inc., Durham, NC                                     Preferred Stock                       $11,735,000                          —             $11,735,000              Par                                                   $348,790.28
1          8/20/2010                                                                            Preferred Stock                        $5,500,000                          —                                      Par
                              Mission Valley Bancorp, Sun Valley, CA                                                                                                                                                                                                    $298,074.22
2a         9/24/2010                                                                            Preferred Stock                                  —                $4,836,000             $10,336,000              Par
           9/24/2010          Neighborhood Trust Federal Credit Union, New York, NY             Subordinated Debentures                          —                         —                $283,000              Par                                                     $7,876.83
           9/29/2010          North Side Community Federal Credit Union, Chicago, IL            Subordinated Debentures                          —                         —                $325,000              Par                                                     $8,955.56
           9/24/2010          Northeast Community Federal Credit Union, San Francisco, CA       Subordinated Debentures                          —                         —                $350,000              Par                                                     $9,741.67
           9/29/2010          Opportunities Credit Union, Burlington, VT                        Subordinated Debentures                          —                         —              $1,091,000              Par                                                    $30,063.11
1          8/13/2010          PGB Holdings, Inc., Chicago, IL                                   Preferred Stock                        $3,000,000                          —              $3,000,000              Par                                                    $30,333.33
           9/24/2010          Phenix Pride Federal Credit Union, Phenix City, AL                Subordinated Debentures                          —                         —                $153,000              Par                                                     $4,258.50
1,4        8/13/2010          Premier Bancorp, Inc., Wilmette, IL                               Subordinated Debentures                $6,784,000                          —              $6,784,000              Par                                                            $—
           9/24/2010          Prince Kuhio Federal Credit Union, Honolulu, HI                   Subordinated Debentures                          —                         —                $273,000              Par                                                     $7,598.50
1          9/29/2010          PSB Financial Corporation, Many, LA                               Preferred Stock                        $9,734,000                          —              $9,734,000              Par                                                   $268,225.78
           9/24/2010          Pyramid Federal Credit Union, Tucson, AZ                          Subordinated Debentures                          —                         —              $2,500,000              Par                                                    $69,583.33
           9/29/2010          Renaissance Community Development Credit Union, Somerset, NJ      Subordinated Debentures                          —                         —                 $31,000              Par                                                       $854.22
           9/24/2010          Santa Cruz Community Credit Union, Santa Cruz, CA                 Subordinated Debentures                          —                         —              $2,828,000              Par                                                    $78,712.67
1          9/29/2010          Security Capital Corporation, Batesville, MS                      Preferred Stock                       $17,910,000                          —             $17,910,000              Par                                                   $493,520.00
1, 2       9/29/2010          Security Federal Corporation, Aiken, SC                           Preferred Stock                       $18,000,000                 $4,000,000             $22,000,000              Par                                                   $606,222.22
           9/29/2010          Shreveport Federal Credit Union, Shreveport, LA                   Subordinated Debentures                          —                         —              $2,646,000              Par                                                    $72,912.00
1, 2       8/6/2010           Southern Bancorp, Inc., Arkadelphia, AR                           Preferred Stock                       $11,000,000               $22,800,000              $33,800,000              Par                                                 $1,030,900.00
           9/29/2010          Southern Chautauqua Federal Credit Union, Lakewood, NY            Subordinated Debentures                          —                         —              $1,709,000              Par                                                    $47,091.64
           9/29/2010          Southside Credit Union, San Antonio, TX                           Subordinated Debentures                          —                         —              $1,100,000              Par                                                    $30,311.11
1          9/29/2010          State Capital Corporation, Greenwood, MS                          Preferred Stock                       $15,750,000                          —             $15,750,000              Par                                                   $434,000.00
1, 2       9/29/2010          The First Bancshares, Inc., Hattiesburg, MS                       Preferred Stock                        $5,000,000               $12,123,000              $17,123,000              Par                                                   $471,833.78
           9/29/2010          The Magnolia State Corporation, Bay Springs, MS                   Subordinated Debentures                          —                         —              $7,922,000              Par                                                   $338,357.42
                              Thurston Union of Low-Income People (TULIP) Cooperative Credit
           9/24/2010                                                                            Subordinated Debentures                          —                         —                 $75,000              Par                                                     $2,087.50
                              Union, Olympia, WA
           9/24/2010          Tongass Federal Credit Union, Ketchikan, AK                       Subordinated Debentures                          —                         —              $1,600,000              Par                                                    $44,533.33
1          8/13/2010          Tri-State Bank of Memphis, Memphis, TN                            Preferred Stock                        $2,795,000                          —              $2,795,000              Par                                                    $84,160.56
           9/24/2010          Tulane-Loyola Federal Credit Union, New Orleans, LA               Subordinated Debentures                          —                         —                $424,000              Par                                                    $11,801.33
           9/24/2010          Union Baptist Church Federal Credit Union, Fort Wayne, IN         Subordinated Debentures                          —                         —                 $10,000              Par                                                       $278.33
           9/29/2010          Union Settlement Federal Credit Union, New York, NY               Subordinated Debentures                          —                         —                $295,000              Par                                                     $8,128.89
1          9/3/2010           United Bancorporation of Alabama, Inc., Atmore, AL                Preferred Stock                       $10,300,000                          —             $10,300,000              Par                                                   $298,700.00
                              UNITEHERE Federal Credit Union (Workers United Federal Credit
           9/29/2010                                                                            Subordinated Debentures                          —                         —                 $57,000              Par                                                     $1,570.67
                              Union), New York, NY
1, 2       7/30/2010          University Financial Corp, Inc., St. Paul, MN                     Subordinated Debentures               $11,926,000               $10,189,000              $22,115,000              Par                                                 $1,056,912.71
           9/24/2010          UNO Federal Credit Union, New Orleans, LA                         Subordinated Debentures                          —                         —                $743,000              Par                                                    $20,680.17
           9/29/2010          Vigo County Federal Credit Union, Terre Haute, IN                 Subordinated Debentures                          —                         —              $1,229,000              Par                                                    $33,865.78
           9/24/2010          Virginia Community Capital, Inc., Christiansburg, VA              Subordinated Debentures                          —                         —              $1,915,000              Par                                                    $53,300.83
                                                                                                                                                                                                             Total Capital Repayment
                                                                                                                                                     Total Purchase Amount            $570,073,000                                                           —
                                                                                                                                                                                                                               Amount
                                                                                                                                         TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                               $570,073,000
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes are taken verbatim from Treasury’s 4/2/2012 Transactions Report.
1	
    This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2	
    Treasury made an additional investment in this institution at the time it entered the CDCI program.
                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I April 25, 2012




2a	
    Treasury made an additional investment in this institution after the time it entered the CDCI program.
3	
     On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 06/29/2011. Accrued and
      previously unpaid dividends were paid on the date of the exchange.
4	
      On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012.
                                                                                                                                                                                                                                                                                       261
Table D.4                                                                                                                                                                                                                                                                                                        262
 AIFP TRANSACTION DETAIL, AS OF 3/31/2012
                                                                                                                                                                Treasury Investment After Exchange/
                                                Initial Investment                                         Exchange/Transfer/Other Details                                 Transfer/Other                                                                          Payment or Disposition1
                                                                                                                                                                                                                                                                                 Remaining
                          Trans-                                                                                                                                                                                                                              Remaining         Investment         Dividend/
                          action                                                                                                                                                                   Amount/                                       Amount/     Investment           Amount/    Interest Paid to
              Date        Type       Seller      Description                 Amount Note            Date                   Type             Amount Note Obligor          Note Description          Equity %         Date          Type           Proceeds    Description          Equity %          Treasury
                                                 Preferred Stock                                               Exchange for
              12/29/2008 Purchase    GMAC        w/ Exercised         $5,000,000,000         12/30/2009 convertible preferred        $5,000,000,000                            Convertible
                                                                                                                                                                         21,
                                                 Warrants                                                               stock                              GMAC (Ally)          Preferred    $5,937,500,000
                                                                                                                                                                         22
                                                                                                                                                                                   Stock
                                                 Convertible
                                                                                                            Partial conversion of
                                                 Preferred Stock
              5/21/2009   Purchase   GMAC                             $7,500,000,000   22    12/30/2009      preferred stock for     $3,000,000,000
                                                 w/ Exercised
                                                                                                                  common stock
GMAC                                             Warrants
                                                                                                                                                                          3,
(Ally),                                                                                                                                                                          Common                                                                                                      $2,737,315,632
                                                 Convertible                                                                                               GMAC (Ally)   26,                         73.8%
Detroit, MI                                                                                                 Partial conversion of                                                  Stock
                                                 Preferred Stock                       22,                                                                               32
              12/30/2009 Purchase    GMAC                             $1,250,000,000         12/30/2010      preferred stock for     $5,500,000,000   26
                                                 w/ Exercised                          26
                                                                                                                  common stock
                                                 Warrants
                                                 Trust Preferred                                                    Exchange for
                                                                                                                                                                                    Trust
                                                 Securities                                                        amended and
              12/30/2009 Purchase    GMAC                             $2,540,000,000           3/1/2011                              $2,670,000,000   27   GMAC (Ally)    27    Preferred    $2,670,000,000     3/2/2011   Disposition28    $2,667,000,000           N/A              $—
                                                 w/ Exercised                                                      restated Trust
                                                                                                                                                                                Securities
                                                 Warrants                                                    Preferred Securities
                                     General
                                                                                                             Exchange for equity
              12/29/2008 Purchase    Motors      Debt Obligation       $884,024,131    2      5/29/2009                               $884,024,131    3
                                                                                                                interest in GMAC
                                     Corporation
                                                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I April 25, 2012




                                                                                                                  Exchange for
                                     General     Debt Obligation
                                                                                                                  preferred and
              12/31/2008 Purchase    Motors      w/ Additional       $13,400,000,000          7/10/2009                             $13,400,000,000   7
                                                                                                               common stock in
                                     Corporation Note
                                                                                                                       New GM
                                                                                                                  Exchange for
                                     General     Debt Obligation                                                                                           General       10,
                                                                                                                  preferred and                                                  Preferred
              4/22/2009   Purchase   Motors      w/ Additional        $2,000,000,000   4      7/10/2009                              $2,000,000,000   7    Motors        11,                 $2,100,000,000 12/15/2010      Repayment       $2,139,406,778           N/A              $—
                                                                                                               common stock in                                                      Stock
                                     Corporation Note                                                                                                      Company       24
                                                                                                                       New GM

                                                                                                                  Exchange for                                                                                                   Partial                        Common
                                     General     Debt Obligation                                                                                           General       10,                                  11/18/2010                   $11,743,303,903                          36.9%
                                                                                                                  preferred and                                                  Common                                    Disposition25                          Stock
              5/20/2009   Purchase   Motors      w/ Additional        $4,000,000,000   5      7/10/2009                              $4,000,000,000   7    Motors        11,                         60.8%
                                                                                                               common stock in                                                     Stock                                         Partial                        Common
                                     Corporation Note                                                                                                      Company       25                                   11/26/2010                    $1,761,495,577                         32.04%
                                                                                                                       New GM                                                                                              Disposition25                          Stock
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                               7/10/2009                     $360,624,198                   $6,711,864,407
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                              12/18/2009                    $1,000,000,000                  $5,711,864,407
                                                                                                                  Exchange for                             General                                                          Repayment                          Obligation
                                     General     Debt Obligation                                                                                                                                                                                                                               $756,714,508
                                                                                                                  preferred and                            Motors        11,         Debt
              5/27/2009   Purchase   Motors      w/ Additional         $360,624,198    6      7/10/2009                               $360,624,198    7                                      $7,072,488,605                     Partial                             Debt
                                                                                                               common stock in                             Holdings      12     Obligation                     1/21/2010                      $35,084,421                   $5,676,779,986
                                     Corporation Note                                                                                                                                                                       Repayment                          Obligation
                                                                                                                       New GM                              LLC
General
Motors,b,c                                                                                                                                                                                                                      Partial                             Debt
                                                                                                                                                                                                               3/31/2010                    $1,000,000,000                  $4,676,779,986
Detroit, MI                                                                                                                                                                                                                 Repayment                          Obligation
                                                                                                                                                                                                               4/20/2010    Repayment       $4,676,779,986           N/A              $—
                                                                                                                  Exchange for
                                     General     Debt Obligation
                                                                                                                  preferred and
              6/3/2009    Purchase   Motors      w/ Additional       $30,100,000,000   8      7/10/2009                             $22,041,706,310   9
                                                                                                               common stock in
                                     Corporation Note
                                                                                                                       New GM
                                                                                                              Transfer of debt to
                                                                                              7/10/2009                              $7,072,488,605   9
                                                                                                                        New GM
                                                                                                                                                           Motors
                                                                                                                                                                                     Debt                                       Partial                             Debt
                                                                                              7/10/2009      Debt left at Old GM      $985,805,085    9    Liquidation    29                  $985,805,085     3/31/2011                      $50,000,000                    $935,805,085
                                                                                                                                                                                Obligation                                  Repayment                          Obligation
                                                                                                                                                           Company
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                                4/5/2011                      $45,000,000                    $890,805,085
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                                5/3/2011                      $15,887,795                    $874,917,290
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                              12/16/2011                         $144,444                    $874,772,846
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                              12/23/2011                      $18,890,294                    $855,882,552
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                               1/11/2012                        $6,713,489                   $849,169,063
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                                                                       Continued on next page.
 AIFP TRANSACTION DETAIL, AS OF 3/31/2012                                              (continued)
                                                                                                                                                               Treasury Investment After Exchange/
                                               Initial Investment                                      Exchange/Transfer/Other Details                                    Transfer/Other                                                                                 Payment or Disposition1
                                                                                                                                                                                                                                                                                        Remaining
                         Trans-                                                                                                                                                                                                                                    Remaining           Investment         Dividend/
                         action                                                                                                                                                                     Amount/                                           Amount/     Investment             Amount/    Interest Paid to
             Date        Type       Seller       Description                Amount Note         Date                     Type             Amount Note Obligor           Note Description            Equity %          Date             Type           Proceeds    Description            Equity %          Treasury
                                                                                                                                                                                                                                                                          Debt
                                                 Debt Obligation
                                    Chrysler                                                                                                                                                                                        Partial                          Obligation
             1/16/2009   Purchase                w/ Additional       $1,500,000,000   13                                                                                                                        3/17/2009                           $3,499,055                     $1,496,500,945
                                    FinCo                                                                                                                                                                                       Repayment                         w/ Additional
                                                 Note
                                                                                                                                                                                                                                                                          Note
                                                                                                                                                                                                                                                                          Debt
                                                                                                                                                                                                                                    Partial                          Obligation
                                                                                                                                                                                                                4/17/2009                          $31,810,122                     $1,464,690,823
                                                                                                                                                                                                                                Repayment                         w/ Additional
                                                                                                                                                                                                                                                                          Note
Chrysler                                                                                                                                                                                                                                                                  Debt
FinCo,                                                                                                                                                                                                                              Partial                          Obligation
                                                                                                                                                                                                                5/18/2009                          $51,136,084                     $1,413,554,739       $7,405,894
Farmington                                                                                                                                                                                                                      Repayment                         w/ Additional
Hills, MI                                                                                                                                                                                                                                                                 Note
                                                                                                                                                                                                                                                                          Debt
                                                                                                                                                                                                                                    Partial                          Obligation
                                                                                                                                                                                                                6/17/2009                          $44,357,710                     $1,369,197,029
                                                                                                                                                                                                                                Repayment                         w/ Additional
                                                                                                                                                                                                                                                                          Note
                                                                                                                                                                                                                                                                     Additional
                                                                                                                                                                                                                7/14/2009       Repayment        $1,369,197,029                              $—
                                                                                                                                                                                                                                                                          Note
                                                                                                                                                                                                                7/14/2009     Repayment*           $15,000,000             N/A               $—
                                                                                                                                                                                      Debt
                                                 Debt Obligation
                                    Chrysler                                                              Transfer of debt to                             Chrysler               obligation
             1/2/2009    Purchase                w/ Additional       $4,000,000,000        6/10/2009                                $500,000,000     19                  20                   $3,500,000,000    5/14/2010       Termination      $1,900,000,000            N/A               $—
                                    Holding                                                                    New Chrysler                               Holding             w/ additional
                                                 Note                                                                                                                                                                                   and
                                                                                                                                                                                      note
                                                                                                                                                                                                                                 settlement
                                                 Debt Obligation                                                                                                                                                                 payment 20
                                    Chrysler
             4/29/2009   Purchase                w/ Additional                  $—    14
                                    Holding
                                                 Note
                                                 Debt Obligation
                                    Chrysler
             4/29/2009   Purchase                w/ Additional         $280,130,642   15                                                                                                                        7/10/2009       Repayment         $280,130,642             N/A               $—
                                    Holding
                                                 Note
                                                 Debt Obligation                                                                                          Old Carco               Right to                                         Proceeds                           Right to
             5/1/2009    Purchase   Old Chrysler w/ Additional       $1,888,153,580   16   4/30/2010               Completion     ($1,888,153,580)   23   Liquidation    23        recover              N/A     5/10/2010       from sale of       $30,544,528         recover               N/A
                                                 Note                                                           of bankruptcy                             Trust                  proceeds                                          collateral                        proceeds
                                                                                                        proceeding; transfer
                                                 Debt Obligation                                        of collateral security                                                                                                     Proceeds                           Right to
             5/20/2009   Purchase   Old Chrysler w/ Additional                  $—    17                   to liquidation trust                                                                                  9/9/2010       from sale of        $9,666,784         recover               N/A
                                                 Note                                                                                                                                                                              collateral                        proceeds
                                                                                                                                                                                                                                   Proceeds                           Right to
Chrysler,c
                                                                                                                                                                                                               12/29/2010       from sale of        $7,844,409         recover               N/A
Auburn                                                                                                                                                                                                                                                                                              $1,171,263,942
                                                                                                                                                                                                                                   collateral                        proceeds
Hills, MI
                                                                                                                                                                                      Debt
                                                 Debt Obligation
                                                                                                                                                                                 obligation
                                                 w/ Additional
                                    New                                                                 Issuance of equity in                             Chrysler      19,   w/ additional                                   Repayment -
             5/27/2009   Purchase                Note, Zero          $6,642,000,000   18   6/10/2009                                          $—                                            $7,142,000,000      5/24/2011                        $5,076,460,000
                                    Chrysler                                                                   New Chrysler                               Group LLC     31     note & zero                                       Principal
                                                 Coupon Note,
                                                                                                                                                                                   coupon
                                                 Equity
                                                                                                                                                                                      note
                                                                                                                                                                                                                                Termination
                                                                                                                                                                                                                5/24/2011       of undrawn       $2,065,540,000            N/A               $—
                                                                                                                                                                                                                                   facility 31
                                                                                                                                                                                                                              Repayment*
                                                                                                                                                                                                                5/24/2011      - Additional       $288,000,000
                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                                             Repayment* -
                                                                                                                                                                                                                5/24/2011     Zero Coupon         $100,000,000
                                                                                                                                                                                                                                     Note
                                                                                                                                                          Chrysler               Common
                                                                                                                                                                         30                            6.6%     7/21/2011        Disposition      $560,000,000             N/A               $—
                                                                                                                                                          Group LLC                equity
                                                                                                                                                                                                               Additional Proceeds *                                                $403,000,000
                         Total Initial Investment Amount            $81,344,932,551                                                                                                                            Total Payments                                                     $34,884,977,248
                                                                                                                                                                                                               Total Treasury Investment Amount                                   $40,906,261,723
                                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I April 25, 2012




                                                                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                                                                        263
                                                                                                                                                                                                                                                                                                                                          264
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.

1
 	 Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
 	 Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
 	Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See transactions
    marked by orange line in the table above and footnote 22.)
4
 	 This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
 	 This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
 	This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM . On 7/10/2009, the principal amount was included in the $7.07 billion of debt
    assumed by the new GM, as explained in footnote 10.
7
 	 On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
 	Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/09/2009, $30.1 billion of funds had been
    disbursed by Treasury.
9
 	On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a
    separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
  	 In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
  	Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company”
    on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
  	 Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
  	 The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
  	 This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
  	 The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
  	This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
    6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17
  	This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
                                                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I April 25, 2012




    terminated.
18
  	This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion.
    The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new
    Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
  	 Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
  	Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement payment
    of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21
  	Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22
  	 Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23
  	On April 30, 2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were transferred to
    a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24
  	On October 27, 2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common stock.
    The repurchase was completed on 12/15/2010.
25
  	On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On 11/26/2010,
    the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting agreement total
    $13,504,799,480.
26
  	 On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27
  	On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement, Treasury
    received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28
  	On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not include the
    accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29
  	On March 31, 2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were
    transferred to liquidation trusts. On December 15, 2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30
  	In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership automatically increased
    from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On May 24, 2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully diluted basis). On July 21, 2011,
    Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31
  	 On May 24, 2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32
  	On November 1, 2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated May 22, 2009.

a
    	 For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
    	According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
    	 This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call, 4/5/2012.
Table D.5
 ASSP TRANSACTION DETAIL, AS OF 3/31/2012
                       Seller                                                                                                                                                       Adjustment Details      Repayment4
                                                                                                                                                                                               Adjusted                                                   Remaining                                             Dividend/
                                                              Transaction      Investment                      Investment         Pricing       Adjustment            Adjustment             Investment                                                  Investment                                         Interest Paid
Note     Date          Institution Name                       Type             Description                        Amount       Mechanism              Date               Amount                 Amount      Date                    Type                 Description                 Amount                   to Treasury
                                                                                                                                                                                                                                   Partial        Debt Obligation w/
                                                                                                                                                                                                            11/20/2009                                                         $140,000,000
                                                                                                                                                                                                                               repayment             Additional Note

                       GM Supplier Receivables LLC                             Debt Obligation w/                                                 7/8/2009      ($1,000,000,000)        $2,500,000,000                             Partial        Debt Obligation w/                                          $9,087,808
1        4/9/2009                                             Purchase                                    $3,500,000,000                N/A                                                                 2/11/2010                                                          $100,000,000
                       Wilmigton, DE                                           Additional Note                                                                                                                                 repayment             Additional Note
                                                                                                                                                                                                            3/4/2010         Repayment5                Additional Note          $50,000,000
                                                                                                                                                                                          $290,000,000      4/5/2010             Payment6                       None            $56,541,893

                       Chrysler Receivables SPV LLC                            Debt Obligation w/         $1,500,000,000                N/A       7/8/2009        ($500,000,000)        $1,000,000,000      3/9/2010         Repayment5                Additional Note         $123,076,735                   $5,787,176
2        4/9/2009                                             Purchase
                       Wilmigton, DE                                           Additional Note                                                                                            $123,076,735      4/7/2010             Payment7                       None            $44,533,054
Initial Total          $5,000,000,000                                                                                                         Adjusted Total      $413,076,735                                                                   Total Repayments            $413,076,735
                                                                                                                   Total Proceeds from Additional Notes           $101,074,947
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
1
 	The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
   made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
 	The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
   of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
 	 Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
 	 Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
 	All outstanding principal drawn under the credit agreement was repaid.
6
 	Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all
   of which have been repaid.
7
 	Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
   which have been repaid.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, response to SIGTARP data call, 4/5/2012; Treasury, Dividends and Interest Report, 4/10/2012.




Table D.6
 TIP TRANSACTION DETAIL, AS OF 3/31/2012
                                                                                                                                                                                   Treasury Investment
                                                                                                                                                                                   Remaining After Capital
                        Seller                                                                                                                Capital Repayment Details            Repayment                                       Final Disposition                               Market and Warrant Data
                                                                                                                                                       Capital         Capital      Remaining      Remaining             Final             Final                 Final                                        Dividends/
                        Institution         Transaction     Investment                                       Investment         Pricing             Repayment       Repayment         Capital         Capital      Disposition       Disposition           Disposition    Stock         Outstanding      Interest Paid to
Note Date               Name                Type            Description                                         Amount       Mechanism                 Amount            Date2        Amount       Description         Date3         Description            Proceeds      Price      Warrant Shares             Treasury
                                                            Trust Preferred Securities w/
    1   12/31/2008      Citigroup Inc.      Purchase                                                   $20,000,000,000                 Par    $20,000,000,000      12/23/2009               $—         Warrants    1/25/2011 A           Warrants       $190,386,428 $36.87                              $1,568,888,889
                                                            Warrants
                        Bank of America
        1/16/2009                           Purchase        Preferred Stock w/ Warrants                $20,000,000,000                 Par    $20,000,000,000        12/9/2009              $—         Warrants     3/3/2010 A           Warrants    $1,255,639,099       $9.68                          $1,435,555,556
                        Corporation
                                                                                                                              Total Capital
                                                            Total Investment                          $40,000,000,000                         $40,000,000,000
                                                                                                                               Repayment
                                                                                                         Total Treasury TIP Investment
                                                                                                                                 Amount                      $—                                                                                      Total Warrant Proceeds        $1,446,025,527




Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
1
 	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
 	 Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3
 	For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial
   institution.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call, 4/5/2012; Bloomberg LP, accessed 4/2/2012.
                                                                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                                                                            265
                                                                                                                                                                                                                                                                                                                                          266
Table D.7
AGP TRANSACTION DETAIL, AS OF 3/31/2012
                             Initial Investment                                                                   Premium                           Exchange/Transfer/Other Details                                                            Payment or Disposition                    Market and Warrant Data

                                                                                                                                                                                                                                                          Remaining              Remaining Outstanding                       Dividends/
                       Institution       Transaction                           Guarantee                                                                                                                                Payment              Payment      Premium                 Premium Warrant               Stock     Interest Paid
Note     Date          Name              Type           Description                 Limit Description                Amount           Date              Type     Description             Amount            Date            Type               Amount      Description              Amount Shares                Price       to Treasury
                                                                                                                                                  Exchange                                                                  Partial
                                                                                                                                                                          Trust
                                                                                                                                                   preferred                                                          cancellation                        Trust Preferred
                                                                                                                                                                    Preferred
                                                                                                                                 6/9/2009     stock for trust                     $4,034,000,000 12/23/2009               for early   ($1,800,000,000)    Securities w/      2,234,000,000
                                                                                                                                                                 Securities w/
                                                                                                                                                   preferred                                                           termination                        Warrants
                                                                                        Preferred                                                                   Warrants
1,2,3,                 Citigroup Inc.,                  Master                                                                                    securities                                                         of guarantee
         1/16/09                         Guarantee                       $5,000,000,000 Stock w/            $4,034,000,000                                                                                                                                                                                    $36.87     $442,964,764
4,5                    New York, NY                     Agreement                                                                                  Exchange                                          9/30/2010        Disposition      $2,246,000,000     Warrants                       $—
                                                                                        Warrants                                                                          Trust
                                                                                                                                              trust preferred
                                                                                                                                                                    Preferred
                                                                                                                                9/29/2010       securities for                    $2,246,000,000                          Warrant
                                                                                                                                                                 Securities w/                       1/25/2011                            $67,197,045     None                           $—
                                                                                                                                              trust preferred                                                             Auction
                                                                                                                                                                    Warrants
                                                                                                                                                   securities
                                                        Termination
3        12/23/09      Citigroup Inc.    Termination                   ($5,000,000,000)
                                                        Agreement
                                                        Total           $—                                                                                                                                        Total Proceeds $2,313,197,045
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
1
 	 In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred
    Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
                                                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I April 25, 2012




3
 	On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP
    Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity
    Guarantee Program.
4
 	On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup
    Inc. paid the outstanding accrued and unpaid dividends.
5
 	 On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Divendends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call, 4/5/2012; Bloomberg LP, accessed 4/2/2012.




Table D.8
 TALF TRANSACTION DETAIL, AS OF 3/31/2012
                          Seller

                                                         Transaction                                                                             Pricing                 Adjusted                            Adjusted
 Note       Date          Institution                    Type                Investment Description                    Investment Amount         Mechanism               Investment Date           Investment Amount

 1-2        3/3/09        TALF LLC, Willmington, DE      Purchase            Debt Obligation w/ Additional Note             $20,000,000,000      N/A                     7/19/2010                    $4,300,000,000

                                                                             Total                                          $4,300,000,000

 Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
 1
  	The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The
    loan will be incrementally funded.
 2
  	On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to
    $4,300,000,000.

 Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012.
Table D.9
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 3/31/2012
                          Seller                Purchase Details                                                        Exchange/Transfer Details
                                                                                                                                                                                                                                                                                                 Dividends/Interest
                          Name of               Transaction    Investment        Investment             Pricing                                                                                                                        Pricing                          Outstanding Warrant                 Paid to
Note     Date             Institution           Type           Description       Amount                 Mechanism       Date                        Transaction Type      Investment Description                        Amount      Mechanism           Stock Price                  Shares               Treasury
                                                               Preferred Stock
                                                                                                                                                                          Preferred Stock w/
1        11/25/2008       AIG, New York, NY     Purchase       w/ Warrants       $40,000,000,000        Par             4/17/2009                   Exchange                                              1    $40,000,000,000               Par             $31.17                 2,686,938                   —
                                                                                                                                                                          Warrants (Series E)
                                                               (Series D)
                                                                                                                        See table below for
                                                                                                                        exchange/transfer
                                                               Preferred Stock
                                                                                                                        details in connection
2, 3     4/17/2009        AIG, New York, NY     Purchase       w/ Warrants       $29,835,000,000        Par                                                                                                                                                  $31.17                       150         641,275,676
                                                                                                                        with the recapitalization
                                                               (Series F)
                                                                                                                        conducted on
                                                                                                                        1/14/2011.
                                                               Initial Total     $69,835,000,000
                                                                                                                                                    Final Disposition
                                                                                                                                                                                            Transaction                                Pricing
                                                                                                                                                    Date                  Investment        Type               Proceeds             Mechanism
                                                                                                                                                                          Warrants
                                                                                                                                                                          (Series E)
                                                                                                                                                                          Warrants
                                                                                                                                                                          (Series F)


                                                                                                                              Treasury Holdings Post-
                                            Recapitalization                                                                      Recapitalization                                                                         Final Disposition
                                                                                                                                                                                                                                                                           Remaining Recap
                          Investment            Transaction                      Pricing                                                                                                        Transaction                                                Pricing       Investment Amount,
Note     Date             Description           Type                             Mechanism              Investment Description                          Amount / Shares   Date                        Type                           Proceeds8          Mechanism        Shares, or Equity %
                                                Exchange                         Par                    Preferred Stock (Series G)                       $2,000,000,000   5/27/2011             Cancellation                                   —                 N/A                      — 10
                                                                                                                                                                          2/14/2011                Payment                       $185,726,192                    Par
                                                                                                                                                                          3/8/2011                 Payment                     $5,511,067,614                    Par
                                                                                                                                                                          3/15/2011                Payment                         $55,833,333                   Par
                                                                                                                                                                          8/17/2011                Payment                         $97,008,351                   Par
                                                                                                                                                                          8/18/2011                Payment                     $2,153,520,000                    Par
                                                                                                        AIA Preferred Units                             $16,916,603,568                                                                                                                     —
                                                                                                                                                                          9/2/2011                 Payment                         $55,885,302                   Par
                          Preferred Stock
4,7,8    1/14/2011                              Exchange                         N/A                                                                                      11/1/2011                Payment                       $971,506,765                    Par
                          (Series F)
                                                                                                                                                                          3/8/2012                 Payment                     $5,576,121,382                    Par
                                                                                                                                                                          3/15/2012                Payment                     $1,521,632,096                    Par
                                                                                                                                                                          3/22/2012                Payment                     $1,493,250,339                    Par
                                                                                                                                                                          2/14/2011                Payment                     $2,009,932,072                    Par
                                                                                                        ALICO Junior Preferred Interests                 $3,375,328,432   3/8/2011                 Payment                     $1,383,888,037                    Par                        —
                                                                                                                                                                          3/15/2012                Payment                         $44,941,843                   Par
                                                Exchange                                                                                                    167,623,733                                                                                                       1,455,037,962 9
                                                                                                                                                                                                     Partial
                          Preferred Stock                                                                                                                                 5/24/2011                                            $5,800,000,000                    N/A
5        1/14/2011                              Exchange                         N/A                                                                                                             Disposition
                          (Series E)                                                                                                                                                                                                                                                      77%
                                                                                                                                                            924,546,133
                                                                                                        Common Stock
                          Common Stock                                                                                                                                                               Partial                                                                 1,248,141,410 11
6        1/14/2011                              Transfer                                                                                                                  3/8/2012                                             $6,000,000,008                    N/A
                          (non-TARP)                                                                                                                        562,868,096                          Disposition
                                                                                                                                                                                                                                                                                          70%
                                                                                                                                                                                                      Total                 $32,860,313,335
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from the Treasury’s 4/2/2012 Transactions Report, and Treasury’s 4/10/2012 Dividends and Interest Report.
1
 	On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an
    additional obligation to Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
 	 The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
 	 This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 05/27/2011.
4	On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the
    transferred SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility
    under which AIG has the right to draw up to $2,000,000,000.
5
 	 On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
                                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I April 25, 2012




6
 	On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant
    to this recapitalization transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
 	 The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
 	 Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
 	 On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for an aggregate amount equal to $5,800,000,000, pursuant to an underwriting agreement executed on 05/24/2011.
10
  	 On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11
  	 On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for an aggregate amount equal to $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.

Sources: Treasury, Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012; Bloomberg LP, accessed 4/9/2012.
                                                                                                                                                                                                                                                                                                                      267
Table D.10                                                                                                                                                                                                                                                                                                                        268
UCSB TRANSACTION DETAIL, AS OF 3/31/2012
                                                  Purchase Details1                                                                                                     Settlement Details                                                                                    Final Disposition
                                                                                                                                                                                                                 Senior                      Life-to-date
Purchase                                                                                               Purchase Face             Pricing      TBA or      Settlement           Investment       TBA or          Security                        Principal     Current Face          Disposition
Date           Investment Description                      Institution Name       CUSIP                     Amount3           Mechanism        PMF3       Date                 Amount 2, 3       PMF3         Proceeds4      Trade Date      Received 1, 8      Amount 6, 8         Amount 5, 6     Interest Paid to Treasury
3/19/2010      Floating Rate SBA 7a security due 2025      Coastal Securities     83164KYN7                $4,070,000              107.75        —        3/24/2010            $4,377,249         —               $2,184     6/21/2011          $902,633        $3,151,186          $3,457,746                       $169,441
3/19/2010      Floating Rate SBA 7a security due 2022      Coastal Securities     83165ADC5                $7,617,617                  109       —        3/24/2010            $8,279,156         —               $4,130     10/19/2011       $1,685,710        $5,891,602          $6,462,972                       $449,518
3/19/2010      Floating Rate SBA 7a security due 2022      Coastal Securities     83165ADE1                $8,030,000             108.875        —        3/24/2010            $8,716,265         —               $4,348     6/21/2011        $2,022,652        $5,964,013          $6,555,383                       $371,355
4/8/2010       Floating Rate SBA 7a security due 2034      Coastal Securities     83165AD84               $23,500,000             110.502        —        5/28/2010          $26,041,643          —              $12,983     6/7/2011         $1,149,633       $22,350,367         $25,039,989                     $1,089,741
4/8/2010       Floating Rate SBA 7a security due 2016      Coastal Securities     83164KZH9                $8,900,014               107.5        —        4/30/2010            $9,598,523         —               $4,783     6/7/2011         $2,357,796        $6,542,218          $7,045,774                       $414,561
5/11/2010      Floating Rate SBA 7a security due 2020      Coastal Securities     83165AEE0               $10,751,382             106.806        —        6/30/2010          $11,511,052          —               $5,741     6/7/2011           $932,112        $9,819,270         $10,550,917                       $348,599
5/11/2010      Floating Rate SBA 7a security due 2035      Coastal Securities     83164K2Q5               $12,898,996              109.42        —        6/30/2010          $14,151,229          —               $7,057     6/7/2011           $328,604       $12,570,392         $13,886,504                       $479,508
5/11/2010      Floating Rate SBA 7a security due 2033      Coastal Securities     83165AED2                $8,744,333             110.798        —        6/30/2010            $9,717,173         —               $4,844     6/7/2011           $261,145        $8,483,188          $9,482,247                       $368,608
5/25/2010      Floating Rate SBA 7a security due 2029      Coastal Securities     83164K3B7                $8,417,817             110.125        —        7/30/2010            $9,294,363         —               $4,635     6/7/2011           $246,658        $8,171,159          $8,985,818                       $287,624
5/25/2010      Floating Rate SBA 7a security due 2033      Coastal Securities     83165AEK6               $17,119,972             109.553        —        7/30/2010          $18,801,712          —               $9,377     9/20/2011        $2,089,260       $15,030,712         $16,658,561                       $657,863
6/17/2010      Floating Rate SBA 7a security due 2020      Coastal Securities     83165AEQ3               $34,441,059             110.785        —        8/30/2010          $38,273,995          —              $19,077     6/21/2011        $1,784,934       $32,656,125         $36,072,056                     $1,286,450
6/17/2010      Floating Rate SBA 7a security due 2034      Coastal Securities     83165AEP5               $28,209,085             112.028        —        8/30/2010          $31,693,810          —              $15,801     9/20/2011        $2,278,652       $25,930,433         $29,142,474                     $1,254,222
7/14/2010      Floating Rate SBA 7a security due 2020      Coastal Securities     83164K3Y7                $6,004,156             106.625        —        9/30/2010            $6,416,804         —               $3,200     6/21/2011          $348,107        $5,656,049          $6,051,772                       $146,030
7/14/2010      Floating Rate SBA 7a security due 2025      Shay Financial         83164K4J9                $6,860,835             108.505        —        9/30/2010            $7,462,726         —               $3,722     10/19/2011         $339,960        $6,520,875          $7,105,304                       $255,370
                                                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I April 25, 2012




7/14/2010      Floating Rate SBA 7a security due 2034      Shay Financial         83165AE42               $13,183,361              111.86        —        9/30/2010          $14,789,302          —               $7,373     6/21/2011          $478,520       $12,704,841         $14,182,379                       $423,725
7/29/2010      Floating Rate SBA 7a security due 2017      Coastal Securities     83164K4E0                $2,598,386             108.438        —        9/30/2010            $2,826,678         —               $1,408     1/24/2012          $694,797        $1,903,407          $2,052,702                       $140,130
7/29/2010      Floating Rate SBA 7a security due 2034      Shay Financial         83164K4M2                $9,719,455              106.75        —        10/29/2010         $10,394,984          —               $5,187     6/21/2011          $188,009        $9,531,446         $10,223,264                       $181,124
8/17/2010      Floating Rate SBA 7a security due 2020      Shay Financial         83165AEZ3                $8,279,048             110.198        —        9/30/2010            $9,150,989         —               $4,561     9/20/2011        $1,853,831        $6,425,217          $7,078,089                       $335,082
8/17/2010      Floating Rate SBA 7a security due 2019      Coastal Securities     83165AFB5                $5,000,000             110.088        —        10/29/2010           $5,520,652         —               $2,752     10/19/2011         $419,457        $4,580,543          $5,029,356                       $213,319
8/17/2010      Floating Rate SBA 7a security due 2020      Coastal Securities     83165AE91               $10,000,000             110.821        —        10/29/2010         $11,115,031          —               $5,541     10/19/2011         $969,461        $9,030,539          $9,994,806                       $433,852
8/31/2010      Floating Rate SBA 7a security due 2020      Shay Financial         83165AEW0                $9,272,482             110.515        —        9/29/2010          $10,277,319          —               $5,123     9/20/2011          $868,636        $8,403,846          $9,230,008                       $386,326
8/31/2010      Floating Rate SBA 7a security due 2024      Shay Financial         83165AFA7               $10,350,000             112.476        —        10/29/2010         $11,672,766          —               $5,820     10/19/2011         $250,445       $10,099,555         $11,314,651                       $425,545
8/31/2010      Floating Rate SBA 7a security due 2020      Coastal Securities     83164K5H2                $6,900,000             105.875        —        11/30/2010           $7,319,688         —               $3,652     1/24/2012          $663,200        $6,236,800          $6,556,341                       $209,956
9/14/2010      Floating Rate SBA 7a security due 2020      Shay Financial         83165AFC3                $8,902,230             111.584        —        10/29/2010           $9,962,039         —               $4,966     1/24/2012        $1,398,549        $7,503,681          $8,269,277                       $447,356
9/14/2010      Floating Rate SBA 7a security due 2021      Shay Financial         83165AFK5                $8,050,000             110.759        —        11/30/2010           $8,940,780         —               $4,458     1/24/2012          $996,133        $7,053,867          $7,703,610                       $354,302
9/14/2010      Floating Rate SBA 7a security due 2029      Coastal Securities     83164K5F6                $5,750,000               106.5        —        11/30/2010           $6,134,172         —               $3,061     1/24/2012          $276,276        $5,473,724          $5,764,858                       $156,481
9/14/2010      Floating Rate SBA 7a security due 2026      Coastal Securities     83164K5L3                $5,741,753               110.5        —        11/30/2010           $6,361,173         —               $3,172     1/24/2012        $1,433,872        $4,307,881          $4,693,918                       $239,527
9/28/2010      Floating Rate SBA 7a security due 2035      Coastal Securities     83164K5M1                $3,450,000             110.875        —        11/30/2010           $3,834,428         —               $1,912     10/19/2011           $82,832       $3,367,168          $3,698,411                       $111,165
9/28/2010      Floating Rate SBA 7a security due 2034      Coastal Securities     83165AFT6               $11,482,421             113.838        —        12/30/2010         $13,109,070          —               $6,535     1/24/2012          $889,646       $10,592,775         $11,818,944                       $512,131
9/28/2010      Floating Rate SBA 7a security due 2034      Shay Financial         83165AFM1               $13,402,491               113.9        —        11/30/2010         $15,308,612          —               $7,632     10/19/2011         $438,754       $12,963,737         $14,433,039                       $516,624
9/28/2010      Floating Rate SBA 7a security due 2035      Shay Financial         83165AFQ2               $14,950,000             114.006        —        12/30/2010         $17,092,069          —               $8,521     1/24/2012          $387,839       $14,562,161         $16,383,544                       $681,819
                                                                                                                                                                                                  Total
                                                                                                                                                                                                 Senior
                                                                                                                                                                                               Security
                                                           Total Purchase Face Amount                  $332,596,893       Total Investment Amount*                         $368,145,452       Proceeds        $183,555                         Total Disposition Proceeds       $334,924,711                     $13,347,352
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s 4/2/2012 Transactions Report.
*Subject to adjustment
1
 	 The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2
 	 Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3
 	If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is
   listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable
   month’s factor (on or about the 11th business day of each month).
4
 	In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the
   product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the
   Master Purchase Agreement.
5
 	Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6
 	If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the
   11th business day of each month).
7
 	 Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
8
 	 The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

Sources: Treasury, Transactions Report, 4/2/2012, Treasury, Dividends and Interest Report, 4/10/2012.
Table D.11
PPIP TRANSACTION DETAIL, AS OF 3/31/2012
                                                                                                                                                              Final Investment                                    Investment After
                                                    Seller                                                Adjusted Investment3    Final Investment Amount7        Amount7         Capital Repayment Details      Capital Repayment                  Distribution or Disposition
                                                                                                                                                                                                                                                                                            Interest/
                                                                                                                                                                                                                                                                                        Distributions
                                                    Transaction Investment          Investment   Pricing                                                                         Repayment       Repayment                                                                                    Paid to
Note Date         Institution      City       State Type        Description            Amount Mechanism Date             Amount Date                 Amount                           Date          Amount         Amount     Description Date            Description       Proceeds        Treasury
                                                                 Debt Obliga-
                  UST/TCW Senior                                                                                                                                                                                           Debt Obligation
                                                                 tion w/
2,4,5 9/30/2009   Mortgage Securi- Wilmington DE      Purchase                  $2,222,222,222      Par 1/4/2010   $200,000,000                $200,000,000      $200,000,000     1/11/2010     $34,000,000   $166,000,000 w/ Contingent                  N/A
                                                                 Contingent
                  ties Fund, L.P.                                                                                                                                                                                               Proceeds
                                                                 Proceeds
                                                                                                                                                                                                                                           1/29/2010 Distribution           $502,302
                                                                                                                                                                                                                                Contingent
                                                                                                                                                                                  1/12/2010    $166,000,000              —
                                                                                                                                                                                                                                 Proceeds 2/24/2010 Final Distri-             $1,223       $342,176
                                                                                                                                                                                                                                                     bution
                  UST/TCW Senior
                                                                 Membership
1,4,5 9/30/2009   Mortgage Securi- Wilmington DE      Purchase                  $1,111,111,111      Par 1/4/2010   $156,250,000                $156,250,000      $156,250,000                                                                 1/29/2010 Distribution      $20,091,872
                                                                 Interest                                                                                                                                                      Membership
                  ties Fund, L.P.                                                                                                                                                 1/15/2010    $156,250,000              —
                                                                                                                                                                                                                                  Interest
                                                                                                                                                                                                                                                          Final Distri-
                                                                                                                                                                                                                                              2/24/2010                      $48,922
                                                                                                                                                                                                                                                          bution
                  Invesco Legacy
                                                                 Membership                                                                                                                                                    Membership
1,6   9/30/2009   Securities Master Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,244,437,500 7/16/2010     $856,000,000      $580,960,000     2/18/2010      $2,444,347   $578,515,653
                                                                 Interest                                                                                                                                                        Interest10
                  Fund, L.P.
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  4/15/2010      $3,533,199   $574,982,454
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  9/15/2010     $30,011,187   $544,971,267
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                 11/15/2010     $66,463,982   $478,507,285
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                 12/14/2010     $15,844,536   $462,662,749
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  1/14/2011     $13,677,727   $448,985,023
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  2/14/2011     $48,523,845   $400,461,178
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  3/14/2011     $68,765,544   $331,695,634
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  4/14/2011     $77,704,254   $253,991,380
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  5/20/2011     $28,883,733   $225,107,647
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  6/14/2011      $9,129,709   $215,977,938
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  7/15/2011     $31,061,747   $184,916,191
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  8/12/2011     $10,381,214   $174,534,977
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                 10/17/2011      $6,230,731   $168,304,246
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                 12/14/2011      $1,183,959   $167,120,288
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  1/17/2012      $1,096,185   $166,024,103
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  2/14/2012      $1,601,688   $164,422,415
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  3/14/2012      $3,035,546   $161,386,869
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  3/29/2012    $161,386,869            $—                   3/29/2012 Distribution5       $56,390,209
                                                                                                                                                                                                                                 Interest10
                                                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                                                        269
PPIP TRANSACTION DETAIL, AS OF 3/31/2012                                          (Continued)                                                                                                                                                                                                          270
                                                                                                                                                              Final Investment                                     Investment After
                                                    Seller                                                Adjusted Investment3    Final Investment Amount7        Amount7          Capital Repayment Details      Capital Repayment                Distribution or Disposition
                                                                                                                                                                                                                                                                                          Interest/
                                                                                                                                                                                                                                                                                      Distributions
                                                    Transaction Investment          Investment   Pricing                                                                         Repayment       Repayment                                                                                  Paid to
Note Date         Institution       City      State Type        Description            Amount Mechanism Date             Amount Date                 Amount                           Date          Amount          Amount      Description Date        Description       Proceeds        Treasury
                                                                 Debt Obliga-
                  Invesco Legacy                                                                                                                                                                                           Debt Obligation
                                                                 tion w/
2,6,8 9/30/2009   Securities Master Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 9/26/2011   $1,161,920,000    $1,161,920,000     2/18/2010      $4,888,718 $1,157,031,282 w/ Contingent                                               $99,336,742
                                                                 Contingent
                  Fund, L.P.                                                                                                                                                                                                    Proceeds
                                                                 Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  4/15/2010      $7,066,434 $1,149,964,848     w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  9/15/2010     $60,022,674 $1,089,942,174     w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                 11/15/2010    $132,928,628    $957,013,546    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                 12/14/2010     $31,689,230    $925,324,316    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  1/14/2010     $27,355,590    $897,968,726    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I April 25, 2012




                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  2/14/2011     $92,300,138    $805,668,588    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  3/14/2011    $128,027,536    $677,641,052    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  4/14/2011    $155,409,286    $522,231,766    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  5/20/2011     $75,085,485    $447,146,281    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  6/14/2011     $18,259,513    $428,886,768    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  7/15/2011     $62,979,809    $365,906,960    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  8/12/2011     $20,762,532    $345,144,428    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                 10/17/2011     $37,384,574    $307,759,854    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                 12/14/2011      $7,103,787    $300,656,067    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  1/17/2012      $6,577,144    $294,078,924    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  2/14/2012      $9,610,173    $284,468,750    w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                  Contingent
                                                                                                                                                                                  3/14/2012    $284,468,750             $—                   3/29/2012 Distribution5    $3,434,460
                                                                                                                                                                                                                                   Proceeds
                  Wellington Man-                                Debt Obliga-
                  agement Legacy                                 tion w/
2,6   10/1/2009                     Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,524,075,000 7/16/2010   $2,298,974,000
                  Securities PPIF                                Contingent
                  Master Fund, LP                                Proceeds
                                                                                                                                                                                                                                                                                     $127,823,927
                  Wellington Man-
                  agement Legacy                                 Membership
1,6   10/1/2009                     Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,262,037,500 7/16/2010   $1,149,487,000
                  Securities PPIF                                Interest
                  Master Fund, LP
                                                                                                                                                                                                                                                                             Continued on next page.
PPIP TRANSACTION DETAIL, AS OF 3/31/2012                                           (Continued)
                                                                                                                                                               Final Investment                                    Investment After
                                                     Seller                                                Adjusted Investment3    Final Investment Amount7        Amount7         Capital Repayment Details      Capital Repayment                Distribution or Disposition
                                                                                                                                                                                                                                                                                          Interest/
                                                                                                                                                                                                                                                                                      Distributions
                                                     Transaction Investment          Investment   Pricing                                                                         Repayment      Repayment                                                                                  Paid to
Note Date          Institution       City      State Type        Description            Amount Mechanism Date             Amount Date                 Amount                           Date         Amount          Amount      Description Date        Description       Proceeds        Treasury
                   AllianceBernstein                              Debt Obliga-
                                                                                                                                                                                                                           Debt Obligation
                   Legacy Securi-                                 tion w/
2,6   10/2/2009                      Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010   $2,300,847,000                      5/16/2011     $30,244,575 $2,270,602,425 w/ Contingent
                   ties Master Fund,                              Contingent
                                                                                                                                                                                                                                Proceeds
                   L.P.                                           Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  6/14/2011         $88,087 $2,270,514,339     w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                   AllianceBernstein
                   Legacy Securi-                                 Membership                                                                                                                                                    Membership                                           $202,149,314
1,6   10/2/2009                      Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,244,437,500 7/16/2010   $1,150,423,500                      1/15/2010         $44,043 $1,150,379,457
                   ties Master Fund,                              Interest                                                                                                                                                        Interest10
                   L.P.
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                  2/14/2011        $712,284 $1,149,667,172
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                  3/14/2011      $6,716,327 $1,142,950,845
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                  4/14/2011      $7,118,388 $1,135,832,457
                                                                                                                                                                                                                                  Interest10
                                                                  Debt Obliga-
                   Blackrock PPIF,                                tion w/
2,6   10/2/2009                      Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010   $1,389,960,000
                   L.P.                                           Contingent
                                                                  Proceeds                                                                                                                                                                                                             $29,973,991

                   Blackrock PPIF,                                Membership
1,6   10/2/2009                      Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,244,437,500 7/16/2010     $694,980,000
                   L.P.                                           Interest
                 AG GECC PPIF                                                                                                                                                                                                 Debt Obligation
2,6   10/30/2009 Master Fund,        Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,542,675,000 7/16/2010   $2,486,550,000                      2/14/2012    $174,200,000 $2,312,350,000     w/ Contingent
                 L.P.                                                                                                                                                                                                              Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                  3/14/2012    $198,925,000 $2,113,425,000     w/ Contingent
                                                                                                                                                                                                                                   Proceeds                                          $190,049,309
                 AG GECC PPIF
                                                                                                                                                                                                                                Membership
1,6   10/30/2009 Master Fund,        Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,271,337,500 7/16/2010   $1,243,275,000                      2/14/2012     $87,099,565 $1,156,175,436
                                                                                                                                                                                                                                  Interest10
                 L.P.
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                  3/14/2012     $99,462,003 $1,056,713,433
                                                                                                                                                                                                                                  Interest10
                   RLJ Western                                    Debt Obliga-
                                                                                                                                                                                                                              Debt Obligation
                   Asset Public/                                  tion w/
2,6   11/4/2009                      Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010   $1,241,156,516                      5/13/2011     $13,531,530 $1,227,624,986     w/ Contingent
                   Private Master                                 Contingent
                                                                                                                                                                                                                                   Proceeds
                   Fund, L.P.                                     Proceeds
                   RLJ Western
                                                                                                                                                                                                                                                                                     $131,763,128
                   Asset Public/                                  Membership                                                                                                                                                    Membership
1,6   11/4/2009                      Wilmington DE     Purchase                  $1,111,111,111      Par 3/22/2010 $1,244,437,500 7/16/2010     $620,578,258                      3/14/2011      $1,202,957    $619,375,301
                   Private Master                                 Interest                                                                                                                                                        Interest10
                   Fund, L.P.
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                  4/14/2011      $3,521,835    $615,853,465
                                                                                                                                                                                                                                  Interest10
                 Marathon Legacy
                                                                  Debt Obliga-
                 Securities Public-
                                                                  tion w/
2,6   11/25/2009 Private Invest-    Wilmington DE      Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010     $949,100,000
                                                                  Contingent
                 ment Partner-
                                                                  Proceeds
                 ship, L.P.
                                                                                                                                                                                                                                                                                       $31,303,596
                 Marathon Legacy
                 Securities Public-
                                                                  Membership
1,6   11/25/2009 Private Invest-    Wilmington DE      Purchase                  $1,111,111,111      Par 3/22/2010 $1,244,437,500 7/16/2010     $474,550,000
                                                                  Interest
                 ment Partner-
                 ship, L.P.
                                                                  Debt Obliga-
                                                                                                                                                                                                                              Debt Obligation
                   Oaktree PPIP                                   tion w/
2,6   12/18/2009                     Wilmington DE     Purchase                  $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010   $2,321,568,200                      7/15/2011     $79,000,000 $2,242,568,200     w/ Contingent
                   Fund, L.P.                                     Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                  Proceeds
                                                                                                                                                                                                                              Debt Obligation
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I April 25, 2012




                                                                                                                                                                                  3/14/2012     $78,775,901 $2,163,792,299     w/ Contingent
                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                                       271
                                                                                                                                                                                                                                                                                                                                                   272
PPIP TRANSACTION DETAIL, AS OF 3/31/2012                                                       (Continued)
                                                                                                                                                                                             Final Investment                                             Investment After
                                                          Seller                                                               Adjusted Investment3          Final Investment Amount7            Amount7             Capital Repayment Details           Capital Repayment                  Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                      Interest/
                                                                                                                                                                                                                                                                                                                                  Distributions
                                                            Transaction Investment              Investment   Pricing                                                                                              Repayment           Repayment                                                                                         Paid to
Note Date            Institution         City         State Type        Description                Amount Mechanism Date                         Amount Date                       Amount                              Date              Amount            Amount       Description Date          Description        Proceeds         Treasury
                     Oaktree PPIP                                          Membership                                                                                                                                                                                     Membership
1,6   12/18/2009                         Wilmington DE       Purchase                      $1,111,111,111              Par 3/22/2010 $1,244,437,500 7/16/2010              $1,160,784,100                         7/15/2011          $39,499,803 $1,121,284,298
                     Fund, L.P.                                            Interest                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                                                                                                                   $20,291,863
                                                                                                                                                                                                                                                                          Membership
                                                                                                                                                                                                                  3/14/2012          $39,387,753 $1,081,896,544
                                                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                      Total
                                                                                                                                                                                                                    Capital                                                                        Total
                                         Initial Investment Amount                       $30,000,000,000                    Final Investment Amount                     $21,856,403,574                          Repayment $2,958,660,051                                                          Proceeds      $80,468,989
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes were taken verbatim from Treasury’s revised 4/2/2012 Transactions Report.
1
 	 The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
 	 The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
 	Adjusted to show Treasury’s maximum obligations to a fund.
4
 	 On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
 	 Profit after capital repayments will be paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in respect of their membership interests.
6
 	Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for the
   $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
 	Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8
 	 On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
9
 	 Cumulative capital drawn at end of the Investment Period.
10
  	The amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.

Sources: Treasury, revised Transactions Report, 4/2/2012; Treasury, Dividends and Interest Report, 4/10/2012; Treasury, response to SIGTARP data call, 4/5/2012.
                                                                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I April 25, 2012




      Table D.12
        HAMP TRANSACTION DETAIL, AS OF 3/31/2012
                          Servicer Modifying Borrowers’ Loans                                                                                                                        Adjustment Details                                                                            TARP Incentive Payments
                                                                                             Cap of Investment
                                                                                           Payments on Behalf
                                                                                           of Borrowers and to                                                                                                                                                                       Lenders/                                Total TARP
                                                       Transaction      Investment        Servicers & Lenders/      Pricing                   Adjustment       Cap Adjustment                                                                                Borrower’s              Investors          Servicers              Incentive
        Date            Name of Institution            Type             Description            Investors (Cap)1     Mechanism       Note            Date              Amount         Adjusted Cap      Reason for Adjustment                                 Incentives             Incentives         Incentives             Payments
                                                                                                                                               6/12/2009         $284,590,000         660,590,000      Updated portfolio data from servicer
                                                                                                                                                                                                       Updated portfolio data from servicer &
                                                                                                                                               9/30/2009         $121,910,000         782,500,000
                                                                                                                                                                                                       HPDP initial cap
                                                                                                                                                                                                       Updated portfolio data from servicer &
                                                                                                                                             12/30/2009          $131,340,000         913,840,000
                                                                                                                                                                                                       HAFA initial cap
                                                                                                                                               3/26/2010        ($355,530,000)        558,310,000      Updated portfolio data from servicer
                                                                                                                                               7/14/2010         $128,690,000         687,000,000      Updated portfolio data from servicer
                                                                                                                                                                                                       Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                                               9/30/2010            $4,000,000        691,000,000
                                                                                                                                                                                                       cap
                                                                                                                                               9/30/2010           $59,807,784        750,807,784      Updated portfolio data from servicer
                                                                                                                                             11/16/2010              ($700,000)       750,107,784      Transfer of cap due to servicing transfer
                                                                                                                                             12/15/2010            $64,400,000        814,507,784      Updated portfolio data from servicer
                                                                                                                                                1/6/2011                  ($639)      814,507,145      Updated portfolio data from servicer
                                                                                                                                               1/13/2011           ($2,300,000)       812,207,145      Transfer of cap due to servicing transfer
                                                                        Financial
                        Select Portfolio Servicing,                     Instrument for                                                         2/16/2011              $100,000        812,307,145      Transfer of cap due to servicing transfer
        4/13/2009                                      Purchase                                    $376,000,000     N/A                                                                                                                                    $30,677,223           $66,532,295         $54,597,167          $151,806,685
                        Salt Lake City, UT                              Home Loan
                                                                        Modifications                                                          3/16/2011            $3,600,000        815,907,145      Transfer of cap due to servicing transfer
                                                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                                               3/30/2011                  ($735)      815,906,410
                                                                                                                                                                                                       reallocation
                                                                                                                                               4/13/2011             ($100,000)       815,806,410      Transfer of cap due to servicing transfer
                                                                                                                                               5/13/2011              $400,000        816,206,410      Transfer of cap due to servicing transfer
                                                                                                                                               6/16/2011             ($100,000)       816,106,410      Transfer of cap due to servicing transfer
                                                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                                               6/29/2011                ($6,805)      816,099,605
                                                                                                                                                                                                       reallocation
                                                                                                                                               8/16/2011             ($100,000)       815,999,605      Transfer of cap due to servicing transfer
                                                                                                                                               9/15/2011             ($200,000)       815,799,605      Transfer of cap due to servicing transfer
                                                                                                                                             10/14/2011              ($100,000)       815,699,605      Transfer of cap due to servicing transfer
                                                                                                                                             11/16/2011              ($100,000)       815,599,605      Transfer of cap due to servicing transfer
                                                                                                                                               1/13/2012              $200,000        815,799,605      Transfer of cap due to servicing transfer
                                                                                                                                               3/15/2012           $24,800,000        840,599,605      Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                           (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                  Adjustment Details                                         TARP Incentive Payments
                                                                        Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                    Lenders/                         Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s       Investors      Servicers           Incentive
Date          Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives      Incentives     Incentives          Payments
                                                                                                                 6/12/2009   ($991,580,000)    1,079,420,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                 9/30/2009   $1,010,180,000    2,089,600,000
                                                                                                                                                               HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009   ($105,410,000)    1,984,190,000
                                                                                                                                                               HAFA initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                 3/26/2010   ($199,300,000)    1,784,890,000
                                                                                                                                                               2MP initial cap
                                                                                                                                                               Transfer of cap to Service One, Inc. due
                                                                                                                 4/19/2010       ($230,000)    1,784,660,000
                                                                                                                                                               to servicing transfer
                                                                                                                                                               Transfer of cap to Specialized Loan
                                                                                                                 5/14/2010      ($3,000,000)   1,781,660,000
                                                                                                                                                               Servicing, LLC due to servicing transfer
                                                                                                                                                               Transfer of cap to multiple servicers due
                                                                                                                 6/16/2010     ($12,280,000)   1,769,380,000
                                                                                                                                                               to servicing transfer
                                                                                                                 7/14/2010   ($757,680,000)    1,011,700,000   Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap to multiple servicers due
                                                                                                                 7/16/2010      ($7,110,000)   1,004,590,000
                                                                                                                                                               to servicing transfer
                                                                                                                                                               Transfer of cap to multiple servicers due
                                                                                                                 8/13/2010      ($6,300,000)    998,290,000
                                                                                                                                                               to servicing transfer
                                                                                                                                                               Transfer of cap to multiple servicers due
                                                                                                                 9/15/2010      ($8,300,000)    989,990,000
                                                                                                                                                               to servicing transfer
                                                                                                                                                               Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                 9/30/2010      $32,400,000    1,022,390,000
                                                                                                                                                               cap
                                                                                                                 9/30/2010    $101,287,484     1,123,677,484   Updated portfolio data from servicer
                                                    Financial
                                                                                                                10/15/2010      ($1,400,000)   1,122,277,484   Transfer of cap due to servicing transfer
              CitiMortgage, Inc.,                   Instrument for
4/13/2009                             Purchase                            $2,071,000,000     N/A                                                                                                           $32,894,213   $100,688,359    $66,686,647       $200,269,218
              O’Fallon, MO                          Home Loan                                                   11/16/2010      ($3,200,000)   1,119,077,484   Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                  1/6/2011            ($981)   1,119,076,503   Updated portfolio data from servicer
                                                                                                                 1/13/2011     ($10,500,000)   1,108,576,503   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011      ($4,600,000)   1,103,976,503   Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011     ($30,500,000)   1,073,476,503   Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011          ($1,031)   1,073,475,472
                                                                                                                                                               reallocation
                                                                                                                 4/13/2011         $100,000    1,073,575,472   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011      ($7,200,000)   1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011       ($400,000)    1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($9,131)   1,065,966,341
                                                                                                                                                               reallocation
                                                                                                                 7/14/2011     ($14,500,000)   1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011      ($1,600,000)   1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011         $700,000    1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011      $15,200,000    1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011      ($2,900,000)   1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011      ($5,000,000)   1,057,866,341   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012       ($900,000)    1,056,966,341   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012      ($1,100,000)   1,055,866,341   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012      ($1,700,000)   1,054,166,341   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                             273
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                           (continued)                                                                                                                                                                                  274
Servicer Modifying Borrowers’ Loans                                                                                                                                                   Adjustment Details                                           TARP Incentive Payments
                                                                        Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                      Lenders/                          Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s       Investors       Servicers           Incentive
Date          Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                         Incentives      Incentives      Incentives          Payments
                                                                                                                 6/17/2009    ($462,990,000)    2,410,010,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 9/30/2009       $65,070,000    2,475,080,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009    $1,213,310,000    3,688,390,000
                                                                                                                                                                HAFA initial cap
                                                                                                                                                                Transfer of cap (from Wachovia) due
                                                                                                                 2/17/2010    $2,050,236,344    5,738,626,344
                                                                                                                                                                to merger
                                                                                                                                                                Transfer of cap (from Wachovia) due
                                                                                                                 3/12/2010           $54,767    5,738,681,110
                                                                                                                                                                to merger
                                                                                                                 3/19/2010     $668,108,890     6,406,790,000   Initial 2MP cap
                                                                                                                 3/26/2010     $683,130,000     7,089,920,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010   ($2,038,220,000)   5,051,700,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010    ($287,348,828)    4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                                Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                 9/30/2010     $344,000,000     5,108,351,172
                                                                                                                                                                and initial RD-HAMP
                                                                                                                                                                Transfer of cap (from Wachovia) due
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I April 25, 2012




                                                                                                                 12/3/2010        $8,413,225    5,116,764,397
                                                                                                                                                                to merger
                                                                                                                12/15/2010       $22,200,000    5,138,964,397   Updated portfolio data from servicer
                                                    Financial                                                     1/6/2011           ($6,312)   5,138,958,085   Updated portfolio data from servicer
              Wells Fargo Bank, NA,                 Instrument for
4/13/2009                             Purchase                            $2,873,000,000     N/A                 1/13/2011        ($100,000)    5,138,858,085   Transfer of cap due to servicing transfer    $73,037,619   $182,256,994    $141,967,112       $397,261,725
              Des Moines, IA                        Home Loan
                                                    Modifications
                                                                                                                 3/16/2011        ($100,000)    5,138,758,085   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 3/30/2011           ($7,171)   5,138,750,914
                                                                                                                                                                reallocation
                                                                                                                 4/13/2011       ($9,800,000)   5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011          $100,000    5,129,050,914   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011        ($600,000)    5,128,450,914   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($63,856)   5,128,387,058
                                                                                                                                                                reallocation
                                                                                                                 7/14/2011       ($2,300,000)   5,126,087,058   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011       ($1,100,000)   5,124,987,058   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011        $1,400,000    5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011          $200,000    5,126,587,058   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        ($200,000)    5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011        ($200,000)    5,126,187,058   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012        ($300,000)    5,125,887,058   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        ($200,000)    5,125,687,058   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       ($1,000,000)   5,124,687,058   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                           (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                   Adjustment Details                                         TARP Incentive Payments
                                                                        Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                     Lenders/                         Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                         Incentives     Incentives     Incentives          Payments
                                                                                                                 6/12/2009     $384,650,000     1,017,650,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 9/30/2009    $2,537,240,000    3,554,890,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                12/30/2009   ($1,679,520,000)   1,875,370,000
                                                                                                                                                                HAFA initial cap
                                                                                                                 3/26/2010     $190,180,000     2,065,550,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from Wilshire Credit
                                                                                                                 5/14/2010        $1,880,000    2,067,430,000
                                                                                                                                                                Corporation due to servicing transfer
                                                                                                                 7/14/2010    ($881,530,000)    1,185,900,000   Updated portfolio data from servicer
                                                                                                                 8/13/2010       ($3,700,000)   1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                                Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                 9/30/2010     $119,200,000     1,301,400,000
                                                                                                                                                                and initial 2MP cap
                                                                                                                 9/30/2010     $216,998,139     1,518,398,139   Updated portfolio data from servicer
                                                                                                                12/15/2010        ($500,000)    1,517,898,139   Updated portfolio data from servicer
                                                    Financial                                                     1/6/2011           ($1,734)   1,517,896,405   Updated portfolio data from servicer
              GMAC Mortgage, Inc.,                  Instrument for
4/13/2009                             Purchase                              $633,000,000     N/A                 3/16/2011        ($100,000)    1,517,796,405   Transfer of cap due to servicing transfer    $24,152,076   $70,635,978    $49,607,851       $144,395,905
              Ft. Washington, PA                    Home Loan
                                                    Modifications                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011           ($2,024)   1,517,794,381
                                                                                                                                                                reallocation
                                                                                                                 4/13/2011        ($800,000)    1,516,994,381   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011     ($17,900,000)    1,499,094,381   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($18,457)   1,499,075,924
                                                                                                                                                                reallocation
                                                                                                                 7/14/2011        ($200,000)    1,498,875,924   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011        $3,400,000    1,502,275,924   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011          $200,000    1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011        ($800,000)    1,501,675,924   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        ($200,000)    1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011        $2,600,000    1,504,075,924   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012       ($1,600,000)   1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012        ($400,000)    1,502,075,924   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                              275
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                              (continued)                                                                                                                                                                                 276
Servicer Modifying Borrowers’ Loans                                                                                                                                                      Adjustment Details                                          TARP Incentive Payments
                                                                           Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                      Lenders/                         Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                          Incentives     Incentives     Incentives          Payments
                                                                                                                    6/17/2009     $225,040,000      632,040,000    Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009     $254,380,000      886,420,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009     $355,710,000     1,242,130,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010     ($57,720,000)    1,184,410,000   Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap to Ocwen Financial
                                                                                                                    6/16/2010    ($156,050,000)    1,028,360,000
                                                                                                                                                                   Corporation, Inc. due to servicing transfer
                                                                                                                    7/14/2010    ($513,660,000)     514,700,000    Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap due to multiple servicing
                                                                                                                    7/16/2010     ($22,980,000)     491,720,000
                                                                                                                                                                   transfers
                                                                                                                    9/15/2010        $1,800,000     493,520,000    Transfer of cap due to servicing transfer
                                                                                                                                                                   Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                    9/30/2010        $9,800,000     503,320,000
                                                                                                                                                                   cap
                                                                                                                    9/30/2010     $116,222,668      619,542,668    Updated portfolio data from servicer
                                                       Financial
                                                                                                                   10/15/2010          $100,000     619,642,668    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I April 25, 2012




              Saxon Mortgage Services,                 Instrument for
4/13/2009                                Purchase                              $407,000,000     N/A                                                                                                              $19,177,302   $39,283,213    $38,964,869         $97,425,384
              Inc., Irving, TX                         Home Loan                                                   12/15/2010        $8,900,000     628,542,668    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                     1/6/2011             ($556)    628,542,112    Updated portfolio data from servicer
                                                                                                                    1/13/2011        $2,300,000     630,842,112    Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011          $700,000     631,542,112    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011             ($654)    631,541,458
                                                                                                                                                                   reallocation
                                                                                                                    4/13/2011        $2,100,000     633,641,458    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011           ($6,144)    633,635,314
                                                                                                                                                                   reallocation
                                                                                                                    7/14/2011          $200,000     633,835,314    Transfer of cap due to servicing transfer
                                                                                                                    8/16/2011        ($100,000)     633,735,314    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011        ($700,000)     633,035,314    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $17,500,000     650,535,314    Transfer of cap due to servicing transfer
                                                                                                                    2/16/2012        ($100,000)     650,435,314    Transfer of cap due to servicing transfer
                                                                                                                    3/15/2012          $100,000     650,535,314    Transfer of cap due to servicing transfer
                                                       Financial
              Chase Home Finance, LLC,                 Instrument for
4/13/2009                                Purchase                            $3,552,000,000     N/A         2       7/31/2009   ($3,552,000,000)              —    Termination of SPA                                   $—             $—             $—                   $—
              Iselin, NJ                               Home Loan
                                                       Modifications
                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                            (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                    Adjustment Details                                        TARP Incentive Payments
                                                                         Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                    Lenders/                         Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                         Incentives     Incentives     Incentives          Payments
                                                                                                                  6/12/2009   ($105,620,000)     553,380,000    Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $102,580,000      655,960,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $277,640,000      933,600,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010      $46,860,000     980,460,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from Saxon Mortgage
                                                                                                                  6/16/2010    $156,050,000     1,136,510,000
                                                                                                                                                                Services, Inc. due to servicing transfer
                                                                                                                  7/14/2010   ($191,610,000)     944,900,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from Saxon Mortgage
                                                                                                                  7/16/2010      $23,710,000     968,610,000
                                                                                                                                                                Services, Inc. due to servicing transfer
                                                     Financial                                                    9/15/2010        $100,000      968,710,000    Initial FHA-HAMP cap
              Ocwen Financial
                                                     Instrument for
4/16/2009     Corporation, Inc.,       Purchase                              $659,000,000     N/A                 9/30/2010       $3,742,740     972,452,740    Updated portfolio data from servicer         $30,143,382   $85,817,298    $60,800,515       $176,761,195
                                                     Home Loan
              West Palm Beach, FL
                                                     Modifications                                               10/15/2010    $170,800,000     1,143,252,740   Transfer of cap due to servicing transfer
                                                                                                                   1/6/2011          ($1,020)   1,143,251,720   Updated portfolio data from servicer
                                                                                                                  2/16/2011        $900,000     1,144,151,720   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($1,114)   1,144,150,606
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011        ($10,044)    1,144,140,562
                                                                                                                                                                reallocation
                                                                                                                 10/14/2011       ($100,000)    1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012    $194,800,000     1,338,840,562   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012        $400,000     1,339,240,562   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012        $100,000     1,339,340,562   Transfer of cap due to servicing transfer
                                                                                                                  6/12/2009       $5,540,000     804,440,000    Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $162,680,000      967,120,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $665,510,000     1,632,630,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  1/26/2010    $800,390,000     2,433,020,000   Initial 2MP cap
                                                                                                                  3/26/2010   ($829,370,000)    1,603,650,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($366,750,000)    1,236,900,000   Updated portfolio data from servicer
4/17/2009                                            Financial                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap,
as amended    Bank of America, N.A.,                 Instrument for                                               9/30/2010      $95,300,000    1,332,200,000
                                       Purchase                              $798,900,000     N/A                                                               and initial RD-HAMP                           $4,267,062   $17,852,012     $8,874,439         $30,993,513
on            Simi Valley, CA                        Home Loan
1/26/2010                                            Modifications                                                9/30/2010    $222,941,084     1,555,141,084   Updated portfolio data from servicer
                                                                                                                   1/6/2011          ($2,199)   1,555,138,885   Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($2,548)   1,555,136,337
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011        ($23,337)    1,555,113,000
                                                                                                                                                                reallocation
                                                                                                                  8/16/2011       ($300,000)    1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011   ($120,700,000)    1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       ($900,000)    1,433,213,000   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                              277
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                            (continued)                                                                                                                                                                                 278
Servicer Modifying Borrowers’ Loans                                                                                                                                                    Adjustment Details                                          TARP Incentive Payments
                                                                         Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                      Lenders/                         Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s       Investors      Servicers           Incentive
Date          Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                         Incentives      Incentives     Incentives          Payments
                                                                                                                  6/12/2009    $3,318,840,000    5,182,840,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    ($717,420,000)    4,465,420,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $2,290,780,000    6,756,200,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  1/26/2010     $450,100,000     7,206,300,000   Initial 2MP cap
                                                                                                                  3/26/2010     $905,010,000     8,111,310,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Wilshire Credit
                                                                                                                  4/19/2010       $10,280,000    8,121,590,000
                                                                                                                                                                 Corporation due to servicing transfer
                                                                                                                                                                 Transfer of cap from Wilshire Credit
                                                                                                                  6/16/2010     $286,510,000     8,408,100,000
                                                                                                                                                                 Corporation due to servicing transfer
                                                                                                                  7/14/2010   ($1,787,300,000)   6,620,800,000   Updated portfolio data from servicer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010     $105,500,000     6,726,300,000
                                                                                                                                                                 and initial RD-HAMP
                                                                                                                  9/30/2010    ($614,527,362)    6,111,772,638   Updated portfolio data from servicer
                                                                                                                 12/15/2010     $236,000,000     6,347,772,638   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I April 25, 2012




                                                                                                                   1/6/2011           ($8,012)   6,347,764,626   Updated portfolio data from servicer
                                                                                                                  2/16/2011        $1,800,000    6,349,564,626   Transfer of cap due to servicing transfer
4/17/2009                                            Financial
              Countrywide Home Loans                                                                              3/16/2011          $100,000    6,349,664,626   Transfer of cap due to servicing transfer
as amended                                           Instrument for
              Servicing LP,            Purchase                            $1,864,000,000     N/A                                                                                                             $88,572,729   $229,374,765    $73,093,915       $391,041,408
on                                                   Home Loan                                                                                                   Updated due to quarterly assessment and
              Simi Valley, CA                                                                                     3/30/2011           ($9,190)   6,349,655,436
1/26/2010                                            Modifications                                                                                               reallocation
                                                                                                                  4/13/2011          $200,000    6,349,855,436   Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011          $300,000    6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011       ($1,000,000)   6,349,155,436   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($82,347)   6,349,073,089
                                                                                                                                                                 reallocation
                                                                                                                  7/14/2011        ($200,000)    6,348,873,089   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011       ($3,400,000)   6,345,473,089   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011       ($1,400,000)   6,344,073,089   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011     $120,600,000     6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                                                                                 Transfer of cap from Home Loan Services,
                                                                                                                                                                 Inc. and Wilshire Credit Corporation due
                                                                                                                 10/19/2011     $317,956,289     6,782,629,378
                                                                                                                                                                 to merger.


                                                                                                                 11/16/2011          $800,000    6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011     ($17,600,000)    6,765,829,378   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012       ($2,100,000)   6,763,729,378   Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012     ($23,900,000)    6,739,829,378   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                   TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                        6/12/2009    $128,300,000     447,300,000    Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                        9/30/2009      $46,730,000    494,030,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009    $145,820,000     639,850,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010     ($17,440,000)   622,410,000    Updated portfolio data from servicer
                                                                                                                        7/14/2010     ($73,010,000)   549,400,000    Updated portfolio data from servicer
                                                                                                                        9/30/2010       $6,700,000    556,100,000    Initial FHA-2LP cap

                                                           Financial                                                    9/30/2010     ($77,126,410)   478,973,590    Updated portfolio data from servicer
              Home Loan Services, Inc.,                    Instrument for
4/20/2009                                    Purchase                              $319,000,000     N/A         13     12/15/2010   ($314,900,000)    164,073,590    Updated portfolio data from servicer         $169,858    $2,440,768   $3,698,607         $6,309,233
              Pittsburgh, PA                               Home Loan
                                                           Modifications                                                 1/6/2011            ($233)   164,073,357    Updated portfolio data from servicer
                                                                                                                        2/16/2011      ($1,900,000)   162,173,357    Transfer of cap due to servicing transfer
                                                                                                                        3/16/2011       ($400,000)    161,773,357    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011            ($278)   161,773,079
                                                                                                                                                                     reallocation
                                                                                                                        5/13/2011       ($400,000)    161,373,079    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011          ($2,625)   161,370,454
                                                                                                                                                                     reallocation
                                                                                                                       10/19/2011   ($155,061,221)       6,309,233   Termination of SPA
                                                                                                                        6/12/2009      $87,130,000    453,130,000    Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                        9/30/2009   ($249,670,000)    203,460,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009    $119,700,000     323,160,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010      $52,270,000    375,430,000    Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap to Countrywide Home
                                                                                                                        4/19/2010     ($10,280,000)   365,150,000
                                                                                                                                                                     Loans due to servicing transfer
                                                                                                                                                                     Transfer of cap to GMAC Mortgage, Inc.
                                                                                                                        5/14/2010      ($1,880,000)   363,270,000
                                                                                                                                                                     due to servicing transfer

                                                           Financial                                                                                                 Transfer of cap to Countrywide Home
                                                                                                                        6/16/2010   ($286,510,000)     76,760,000
              Wilshire Credit Corporation,                 Instrument for                                                                                            Loans due to servicing transfer
4/20/2009                                    Purchase                              $366,000,000     N/A         13                                                                                                     $—      $490,394    $1,167,000         $1,657,394
              Beaverton, OR                                Home Loan
                                                                                                                        7/14/2010      $19,540,000     96,300,000    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                                                                     Transfer of cap to Green Tree Servicing
                                                                                                                        7/16/2010       ($210,000)     96,090,000
                                                                                                                                                                     LLC due to servicing transfer
                                                                                                                        8/13/2010       ($100,000)     95,990,000    Transfer of cap due to servicing transfer
                                                                                                                        9/30/2010      $68,565,782    164,555,782    Updated portfolio data from servicer
                                                                                                                         1/6/2011            ($247)   164,555,535    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011            ($294)   164,555,241
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011          ($2,779)   164,552,462
                                                                                                                                                                     reallocation
                                                                                                                       10/19/2011   ($162,895,068)       1,657,394   Termination of SPA
                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                             279
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                               (continued)                                                                                                                                                                          280
Servicer Modifying Borrowers’ Loans                                                                                                                                                     Adjustment Details                                     TARP Incentive Payments
                                                                            Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                 Lenders/                       Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s      Investors    Servicers           Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives     Incentives   Incentives          Payments
                                                                                                                     6/17/2009     ($64,990,000)    91,010,000    Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                     9/30/2009    $130,780,000     221,790,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009   ($116,750,000)    105,040,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                     3/26/2010      $13,080,000    118,120,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010     ($24,220,000)    93,900,000    Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                     7/16/2010         $210,000     94,110,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                     8/13/2010       $2,200,000     96,310,000    Transfer of cap due to servicing transfer
                                                                                                                     9/10/2010      $34,600,000    130,910,000    Initial 2MP cap
                                                                                                                     9/30/2010       $5,600,000    136,510,000    Initial FHA-2LP cap and FHA-HAMP
                                                                                                                     9/30/2010      $10,185,090    146,695,090    Updated portfolio data from servicer
                                                        Financial
              Green Tree Servicing LLC,                 Instrument for                                              10/15/2010         $400,000    147,095,090    Transfer of cap due to servicing transfer
4/24/2009                                 Purchase                              $156,000,000     N/A                                                                                                           $699,475     $2,094,285    $2,031,805         $4,825,565
              Saint Paul, MN                            Home Loan
                                                        Modifications                                                 1/6/2011            ($213)   147,094,877    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I April 25, 2012




                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($250)   147,094,627
                                                                                                                                                                  reallocation
                                                                                                                     5/13/2011       $1,200,000    148,294,627    Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011         $100,000    148,394,627    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($2,302)   148,392,325
                                                                                                                                                                  reallocation
                                                                                                                     7/14/2011       $1,900,000    150,292,325    Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011         $200,000    150,492,325    Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011         $200,000    150,692,325    Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011         $400,000    151,092,325    Transfer of cap due to servicing transfer
                                                                                                                     2/16/2012         $900,000    151,992,325    Transfer of cap due to servicing transfer
                                                                                                                     3/15/2012         $100,000    152,092,325    Transfer of cap due to servicing transfer
                                                                                                                     6/17/2009     ($63,980,000)   131,020,000    Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                     9/30/2009      $90,990,000    222,010,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009      $57,980,000    279,990,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                     3/26/2010      $74,520,000    354,510,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010     ($75,610,000)   278,900,000    Updated portfolio data from servicer
                                                                                                                     8/13/2010       $1,100,000    280,000,000    Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010       $3,763,685    283,763,685    Updated portfolio data from servicer
                                                        Financial
              Carrington Mortgage                                                                                   12/15/2010         $300,000    284,063,685    Updated portfolio data from servicer
                                                        Instrument for
4/27/2009     Services, LLC,              Purchase                              $195,000,000     N/A                                                                                                          $4,028,229   $12,814,197    $9,150,672        $25,993,098
                                                        Home Loan                                                     1/6/2011            ($325)   284,063,360    Updated portfolio data from servicer
              Santa Ana, CA
                                                        Modifications
                                                                                                                     1/13/2011       $2,400,000    286,463,360    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($384)   286,462,976
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($3,592)   286,459,384
                                                                                                                                                                  reallocation
                                                                                                                     8/16/2011       $1,800,000    288,259,384    Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011         $100,000    288,359,384    Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       $1,000,000    289,359,384    Transfer of cap due to servicing transfer
                                                                                                                     2/16/2012       $1,100,000    290,459,384    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                        TARP Incentive Payments
                                                                             Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                   Lenders/                         Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                         Incentives     Incentives     Incentives          Payments
                                                                                                                      6/17/2009   ($338,450,000)    459,550,000    Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                      9/30/2009     ($11,860,000)   447,690,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     12/30/2009      $21,330,000    469,020,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                      3/26/2010       $9,150,000    478,170,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010     ($76,870,000)   401,300,000    Updated portfolio data from servicer

                                                         Financial                                                     9/1/2010         $400,000    401,700,000    Initial FHA-HAMP cap
              Aurora Loan Services, LLC,                 Instrument for
5/1/2009                                   Purchase                              $798,000,000     N/A                 9/30/2010      ($8,454,269)   393,245,731    Updated portfolio data from servicer         $12,651,625   $33,177,013    $24,534,321         $70,362,959
              Littleton, CO                              Home Loan
                                                         Modifications                                                 1/6/2011            ($342)   393,245,389    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      3/30/2011            ($374)   393,245,015
                                                                                                                                                                   reallocation
                                                                                                                      5/13/2011      $18,000,000    411,245,015    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011          ($3,273)   411,241,742
                                                                                                                                                                   reallocation
                                                                                                                     10/14/2011       ($200,000)    411,041,742    Transfer of cap due to servicing transfer
                                                                                                                      3/15/2012         $100,000    411,141,742    Transfer of cap due to servicing transfer
                                                                                                                      6/12/2009      $16,140,000    117,140,000    Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                      9/30/2009    $134,560,000     251,700,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     12/30/2009      $80,250,000    331,950,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                      3/26/2010      $67,250,000    399,200,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010     ($85,900,000)   313,300,000    Updated portfolio data from servicer
                                                                                                                      8/13/2010         $100,000    313,400,000    Transfer of cap due to servicing transfer
                                                                                                                                                                   Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                      9/30/2010       $2,900,000    316,300,000
                                                                                                                                                                   initial RD-HAMP, and initial 2MP cap
                                                                                                                      9/30/2010      $33,801,486    350,101,486    Updated portfolio data from servicer
                                                         Financial
              Nationstar Mortgage LLC,                   Instrument for                                              11/16/2010         $700,000    350,801,486    Transfer of cap due to servicing transfer
5/28/2009                                  Purchase                              $101,000,000     N/A                                                                                                            $8,696,952   $21,041,185    $17,337,214         $47,075,352
              Lewisville, TX                             Home Loan
                                                         Modifications                                               12/15/2010       $1,700,000    352,501,486    Updated portfolio data from servicer
                                                                                                                       1/6/2011            ($363)   352,501,123    Updated portfolio data from servicer
                                                                                                                      2/16/2011         $900,000    353,401,123    Transfer of cap due to servicing transfer
                                                                                                                      3/16/2011      $29,800,000    383,201,123    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      3/30/2011            ($428)   383,200,695
                                                                                                                                                                   reallocation
                                                                                                                      5/26/2011      $20,077,503    403,278,198    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011          ($4,248)   403,273,950
                                                                                                                                                                   reallocation
                                                                                                                     11/16/2011         $100,000    403,373,950    Transfer of cap due to servicing transfer
                                                                                                                      3/15/2012       ($100,000)    403,273,950    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                                 281
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (continued)                                                                                                                                                                         282
Servicer Modifying Borrowers’ Loans                                                                                                                                                         Adjustment Details                                    TARP Incentive Payments
                                                                                Cap of Investment
                                                                              Payments on Behalf
                                                                              of Borrowers and to                                                                                                                                Lenders/                       Total TARP
                                              Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution             Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                        Incentives   Incentives   Incentives          Payments
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                         9/30/2009      ($1,860,000)    17,540,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009      $27,920,000     45,460,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                         3/26/2010      ($1,390,000)    44,070,000    Updated portfolio data from servicer
                                                                                                                         7/14/2010     ($13,870,000)    30,200,000    Updated portfolio data from servicer
                                                                                                                                                                      Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                         9/30/2010         $400,000     30,600,000
                                                                                                                                                                      and initial 2MP cap
                                                            Financial
              Residential Credit Solutions,                 Instrument for                                               9/30/2010         $586,954     31,186,954    Updated portfolio data from servicer
6/12/2009                                     Purchase                               $19,400,000     N/A                                                                                                            $488,495    $1,466,432   $1,178,056         $3,132,983
              Forth Worth, TX                               Home Loan
                                                            Modifications                                                 1/6/2011             ($34)    31,186,920    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         3/30/2011             ($37)    31,186,883
                                                                                                                                                                      reallocation
                                                                                                                         4/13/2011         $100,000     31,286,883    Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011            ($329)    31,286,554
                                                                                                                                                                      reallocation
                                                                                                                         9/15/2011      ($1,900,000)    29,386,554    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I April 25, 2012




                                                                                                                        11/16/2011       $2,800,000     32,186,554    Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                         9/30/2009      $13,070,000     29,590,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009    $145,510,000     175,100,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                         3/26/2010   ($116,950,000)     58,150,000    Updated portfolio data from servicer
                                                            Financial
              CCO Mortgage, Glen                            Instrument for                                               7/14/2010     ($23,350,000)    34,800,000    Updated portfolio data from servicer
6/17/2009                                     Purchase                               $16,520,000     N/A                                                                                                            $969,134    $2,517,024   $1,956,729         $5,442,887
              Allen, VA                                     Home Loan                                                    9/30/2010       $7,846,346     42,646,346    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                          1/6/2011             ($46)    42,646,300    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         3/30/2011             ($55)    42,646,245
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011            ($452)    42,645,793
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                         9/30/2009     ($11,300,000)    45,700,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009     ($42,210,000)      3,490,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                         3/26/2010      $65,640,000     69,130,000    Updated portfolio data from servicer
                                                                                                                          4/9/2010     ($14,470,000)    54,660,000    Updated portfolio data from servicer
                                                            Financial
              RG Mortgage Corporation,                      Instrument for                                               7/14/2010      ($8,860,000)    45,800,000    Updated portfolio data from servicer
6/17/2009                                     Purchase                               $57,000,000     N/A                                                                                                            $164,853     $227,582     $401,334            $793,769
              San Juan, PR                                  Home Loan                                                    9/30/2010      ($4,459,154)    41,340,846    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                        12/15/2010      ($4,300,000)    37,040,846    Updated portfolio data from servicer
                                                                                                                          1/6/2011             ($51)    37,040,795    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         3/30/2011             ($65)    37,040,730
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011            ($616)    37,040,114
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated portfolio data from servicer &
                                                            Financial                                                   12/30/2009       $2,020,000       2,790,000
                                                                                                                                                                      HAFA initial cap
              First Federal Savings and                     Instrument for
6/19/2009                                     Purchase                                  $770,000     N/A                                                                                                                 $—           $—           $—                   $—
              Loan, Port Angeles, WA                        Home Loan                                                    3/26/2010      $11,370,000     14,160,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                         5/26/2010     ($14,160,000)             —    Termination of SPA
                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                              (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                    Adjustment Details                                   TARP Incentive Payments
                                                                           Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                    9/30/2009         $330,000        870,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   12/30/2009      $16,490,000     17,360,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                    3/26/2010     ($14,260,000)      3,100,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010      ($1,800,000)      1,300,000   Updated portfolio data from servicer
                                                       Financial
              Wescom Central Credit                    Instrument for                                               7/30/2010       $1,500,000       2,800,000   Updated portfolio data from servicer
6/19/2009                                Purchase                                  $540,000     N/A         12                                                                                                 $93,546    $374,719     $210,613             $678,877
              Union, Anaheim, CA                       Home Loan
                                                       Modifications                                                9/30/2010       $1,551,668       4,351,668   Updated portfolio data from servicer
                                                                                                                     1/6/2011              ($2)      4,351,666   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($2)      4,351,664
                                                                                                                                                                 reallocation
                                                                                                                    5/13/2011      ($1,800,000)      2,551,664   Transfer of cap due to servicing transfer
                                                                                                                     6/3/2011      ($1,872,787)       678,877    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                    9/30/2009         ($10,000)        20,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   12/30/2009         $590,000        610,000
                                                       Financial                                                                                                 HAFA initial cap
              Citizens First Wholesale
                                                       Instrument for
6/26/2009     Mortgage Company,          Purchase                                    $30,000    N/A                 3/26/2010       ($580,000)         30,000    Updated portfolio data from servicer              $—           $—           $—                   $—
                                                       Home Loan
              The Villages, FL
                                                       Modifications                                                7/14/2010          $70,000        100,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                    2/17/2011       ($145,056)              —    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $2,180,000       2,250,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                    3/26/2010       ($720,000)       1,530,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($430,000)       1,100,000   Updated portfolio data from servicer
                                                       Financial
              Technology Credit Union,                 Instrument for                                               9/30/2010          $60,445       1,160,445   Updated portfolio data from servicer
6/26/2009                                Purchase                                    $70,000    N/A                                                                                                            $21,250     $84,563      $39,417             $145,229
              San Jose, CA                             Home Loan
                                                       Modifications                                                 1/6/2011                        1,160,444   Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                    3/30/2011                        1,160,443
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($12)      1,160,431
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                         283
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                             (continued)                                                                                                                                                                           284
Servicer Modifying Borrowers’ Loans                                                                                                                                                     Adjustment Details                                    TARP Incentive Payments
                                                                          Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                  Lenders/                       Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                        Incentives   Incentives   Incentives          Payments
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   9/30/2009     $315,170,000      610,150,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $90,280,000     700,430,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                   3/26/2010     ($18,690,000)     681,740,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010    ($272,640,000)     409,100,000    Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                   9/30/2010       $80,600,000     489,700,000
                                                                                                                                                                  and initial 2MP cap
                                                                                                                   9/30/2010       $71,230,004     560,930,004    Updated portfolio data from servicer
                                                                                                                    1/6/2011             ($828)    560,929,176    Updated portfolio data from servicer
                                                                                                                   2/16/2011          $200,000     561,129,176    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011        ($100,000)     561,029,176    Transfer of cap due to servicing transfer
                                                      Financial
              National City Bank,                     Instrument for                                                                                              Updated due to quarterly assessment and
6/26/2009                               Purchase                              $294,980,000     N/A                 3/30/2011             ($981)    561,028,195                                                 $1,033,164   $3,571,359   $2,404,027         $7,008,549
              Miamisburg, OH                          Home Loan                                                                                                   reallocation
                                                      Modifications
                                                                                                                   4/13/2011       ($2,300,000)    558,728,195    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I April 25, 2012




                                                                                                                   5/13/2011        ($200,000)     558,528,195    Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011        ($200,000)     558,328,195    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011           ($9,197)    558,318,998
                                                                                                                                                                  reallocation
                                                                                                                   8/16/2011               $—      558,318,998    Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011          $300,000     558,618,998    Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011        ($300,000)     558,318,998    Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012          $200,000     558,518,998    Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012        ($100,000)     558,418,998    Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012          $200,000     558,618,998    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   9/30/2009     $723,880,000     1,357,890,000
                                                                                                                                                                  HPDP initial cap

                                                      Financial                                                                                                   Updated portfolio data from servicer &
                                                                                                                  12/30/2009     $692,640,000     2,050,530,000
              Wachovia Mortgage, FSB,                 Instrument for                                                                                              HAFA initial cap
7/1/2009                                Purchase                              $634,010,000     N/A         3                                                                                                         $—       $76,890     $162,000            $238,890
              Des Moines, IA                          Home Loan                                                                                                   Transfer of cap (to Wells Fargo Bank) due
                                                      Modifications                                                2/17/2010   ($2,050,236,344)        293,656
                                                                                                                                                                  to merger
                                                                                                                                                                  Transfer of cap (to Wells Fargo Bank) due
                                                                                                                   3/12/2010          ($54,767)        238,890
                                                                                                                                                                  to merger
                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                   TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                        9/30/2009      $23,850,000     68,110,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009      $43,590,000    111,700,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010      $34,540,000    146,240,000    Updated portfolio data from servicer
                                                                                                                         5/7/2010       $1,010,000    147,250,000    Initial 2MP cap
                                                                                                                        7/14/2010     ($34,250,000)   113,000,000    Updated portfolio data from servicer
                                                                                                                        9/30/2010         $600,000    113,600,000    Initial FHA-2LP cap
                                                                                                                        9/30/2010     ($15,252,303)    98,347,697    Updated portfolio data from servicer

                                                           Financial                                                     1/6/2011             ($70)    98,347,627    Updated portfolio data from servicer
              Bayview Loan Servicing,                      Instrument for
7/1/2009                                     Purchase                               $44,260,000     N/A                                                              Updated due to quarterly assessment and     $3,288,962   $7,440,767   $6,206,271        $16,936,000
              LLC, Coral Gables, FL                        Home Loan                                                    3/30/2011             ($86)    98,347,541
                                                                                                                                                                     reallocation
                                                           Modifications
                                                                                                                        4/13/2011         $400,000     98,747,541    Transfer of cap due to servicing transfer
                                                                                                                        5/13/2011         $100,000     98,847,541    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011            ($771)    98,846,770
                                                                                                                                                                     reallocation
                                                                                                                        9/15/2011         $600,000     99,446,770    Transfer of cap due to servicing transfer
                                                                                                                       10/14/2011     ($18,900,000)    80,546,770    Transfer of cap due to servicing transfer
                                                                                                                        1/13/2012         $900,000     81,446,770    Transfer of cap due to servicing transfer
                                                                                                                        2/16/2012       $2,400,000     83,846,770    Transfer of cap due to servicing transfer
                                                                                                                        3/15/2012       ($100,000)     83,746,770    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                        9/30/2009         $150,000        250,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009         $130,000        380,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010          $50,000        430,000    Updated portfolio data from servicer
                                                           Financial
              Lake National Bank,                          Instrument for                                               7/14/2010         ($30,000)       400,000    Updated portfolio data from servicer
7/10/2009                                    Purchase                                  $100,000     N/A                                                                                                             $2,000       $3,320       $3,000              $8,320
              Mentor, OH                                   Home Loan                                                    9/30/2010          $35,167        435,167    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                         1/6/2011              ($1)       435,166    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($1)       435,165
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($6)       435,159
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                        9/30/2009         ($10,000)       860,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009         $250,000       1,110,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010         ($10,000)      1,100,000   Updated portfolio data from servicer
                                                           Financial
              IBM Southeast Employees’                                                                                  7/14/2010       ($400,000)        700,000    Updated portfolio data from servicer
                                                           Instrument for
7/10/2009     Federal Credit Union, Delray   Purchase                                  $870,000     N/A                                                                                                             $6,917      $20,518      $14,000             $41,435
                                                           Home Loan                                                    9/30/2010         $170,334        870,334    Updated portfolio data from servicer
              Beach, FL
                                                           Modifications
                                                                                                                         1/6/2011                         870,333    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011                         870,332
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011             ($12)       870,320
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                             285
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (continued)                                                                                                                                                                         286
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                    TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                                Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                        Incentives   Incentives   Incentives          Payments
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                       9/30/2009      $18,530,000     42,010,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      12/30/2009      $24,510,000     66,520,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                       3/26/2010      $18,360,000     84,880,000    Updated portfolio data from servicer

                                                          Financial                                                    7/14/2010     ($22,580,000)    62,300,000    Updated portfolio data from servicer
              MorEquity, Inc.,                            Instrument for
7/17/2009                                   Purchase                               $23,480,000     N/A         11      9/30/2010      ($8,194,261)    54,105,739    Updated portfolio data from servicer          $345,841    $2,305,003   $1,977,321         $4,628,165
              Evansville, IN                              Home Loan
                                                          Modifications                                                 1/6/2011             ($37)    54,105,702    Updated portfolio data from servicer
                                                                                                                       3/16/2011     ($29,400,000)    24,705,702    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011             ($34)    24,705,668
                                                                                                                                                                    reallocation
                                                                                                                                                                    Termination of SPA
                                                                                                                       5/26/2011     ($20,077,503)      4,628,165
                                                                                                                                                                    (remaining cap equals distribution amount)
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                       9/30/2009     ($36,240,000)    18,230,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I April 25, 2012




                                                                                                                      12/30/2009      $19,280,000     37,510,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                       3/26/2010       $2,470,000     39,980,000    Updated portfolio data from servicer
                                                                                                                       7/14/2010     ($17,180,000)    22,800,000    Updated portfolio data from servicer

                                                          Financial                                                    9/30/2010      $35,500,000     58,300,000    Initial FHA-2LP cap and initial 2MP cap
              PNC Bank, National                          Instrument for
7/17/2009                                   Purchase                               $54,470,000     N/A                 9/30/2010      $23,076,191     81,376,191    Updated portfolio data from servicer           $12,833     $171,728     $184,500            $369,062
              Association, Pittsburgh, PA                 Home Loan
                                                          Modifications                                                 1/6/2011            ($123)    81,376,068    Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011            ($147)    81,375,921
                                                                                                                                                                    reallocation
                                                                                                                       5/13/2011       ($100,000)     81,275,921    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011          ($1,382)    81,274,539
                                                                                                                                                                    reallocation
                                                                                                                      10/14/2011       ($300,000)     80,974,539    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                       9/30/2009         ($90,000)        80,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      12/30/2009          $50,000        130,000
                                                          Financial                                                                                                 HAFA initial cap
              Farmers State Bank,                         Instrument for
7/17/2009                                   Purchase                                  $170,000     N/A                 3/26/2010         $100,000        230,000    Updated portfolio data from servicer               $—           $—           $—                   $—
              West Salem, OH                              Home Loan
                                                          Modifications                                                7/14/2010       ($130,000)        100,000    Updated portfolio data from servicer
                                                                                                                       9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                       5/20/2011       ($145,056)              —    Termination of SPA
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                       9/30/2009         $890,000       2,300,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      12/30/2009       $1,260,000       3,560,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                       3/26/2010         ($20,000)      3,540,000   Updated portfolio data from servicer

                                                          Financial                                                    7/14/2010       ($240,000)       3,300,000   Updated portfolio data from servicer
                                                          Instrument for
7/17/2009     ShoreBank, Chicago, IL        Purchase                                 $1,410,000    N/A                 9/30/2010         $471,446       3,771,446   Updated portfolio data from servicer           $49,915     $153,906     $143,165            $346,986
                                                          Home Loan
                                                          Modifications                                                 1/6/2011              ($3)      3,771,443   Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($4)      3,771,439
                                                                                                                                                                    reallocation
                                                                                                                       4/13/2011      ($1,100,000)      2,671,439   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($38)      2,671,401
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                   Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                        TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                                   Lenders/                         Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives          Payments
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009     ($53,670,000)   1,218,820,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009    $250,450,000     1,469,270,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                       3/26/2010    $124,820,000     1,594,090,000   Updated portfolio data from servicer
                                                                                                                       7/14/2010   ($289,990,000)    1,304,100,000   Updated portfolio data from servicer
                                                                                                                       9/30/2010       $1,690,508    1,305,790,508   Updated portfolio data from servicer
                                                                                                                      10/15/2010         $300,000    1,306,090,508   Transfer of cap due to servicing transfer

                                                          Financial                                                   11/16/2010       ($100,000)    1,305,990,508   Transfer of cap due to servicing transfer
              American Home Mortgage                      Instrument for
7/22/2009                                   Purchase                            $1,272,490,000     N/A                  1/6/2011          ($1,173)   1,305,989,335   Updated portfolio data from servicer        $27,775,627   $88,516,948    $63,451,613       $179,744,189
              Servicing, Inc, Coppell, TX                 Home Loan
                                                          Modifications                                                2/16/2011       ($500,000)    1,305,489,335   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011          ($1,400)   1,305,487,935
                                                                                                                                                                     reallocation
                                                                                                                       4/13/2011       $3,100,000    1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011         ($12,883)   1,308,575,052
                                                                                                                                                                     reallocation
                                                                                                                       9/15/2011      ($1,000,000)   1,307,575,052   Transfer of cap due to servicing transfer
                                                                                                                      10/14/2011       ($100,000)    1,307,475,052   Transfer of cap due to servicing transfer
                                                                                                                      11/16/2011      ($1,100,000)   1,306,375,052   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009       $1,780,000       5,990,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009       $2,840,000       8,830,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                       3/26/2010       $2,800,000      11,630,000    Updated portfolio data from servicer
                                                          Financial
              Mortgage Center, LLC,                       Instrument for                                               7/14/2010      ($5,730,000)      5,900,000    Updated portfolio data from servicer
7/22/2009                                   Purchase                                 $4,210,000    N/A                                                                                                              $60,930      $124,814       $141,426             $327,170
              Southfield, MI                              Home Loan                                                    9/30/2010       $2,658,280       8,558,280    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                        1/6/2011             ($12)      8,558,268    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011             ($14)      8,558,254
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011            ($129)      8,558,125
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009       ($490,000)         370,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009       $6,750,000       7,120,000
                                                                                                                                                                     HAFA initial cap

                                                          Financial                                                    3/26/2010      ($6,340,000)        780,000    Updated portfolio data from servicer
              Mission Federal Credit                      Instrument for
7/22/2009                                   Purchase                                  $860,000     N/A                 7/14/2010       ($180,000)         600,000    Updated portfolio data from servicer           $23,833       $73,885        $52,917             $150,635
              Union, San Diego, CA                        Home Loan
                                                          Modifications                                                9/30/2010         $125,278         725,278    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($1)        725,277
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011              ($4)        725,273
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009      ($1,530,000)      4,930,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009         $680,000       5,610,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                       3/26/2010       $2,460,000       8,070,000    Updated portfolio data from servicer
                                                          Financial
                                                          Instrument for                                               7/14/2010      ($2,470,000)      5,600,000    Updated portfolio data from servicer
7/29/2009     First Bank, St. Louis, MO     Purchase                                 $6,460,000    N/A                                                                                                             $374,674      $990,056       $823,631           $2,188,361
                                                          Home Loan                                                    9/30/2010       $2,523,114       8,123,114    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I April 25, 2012




                                                          Modifications
                                                                                                                        1/6/2011              ($2)      8,123,112    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($2)      8,123,110
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($15)      8,123,095
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  287
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                              (continued)                                                                                                                                                                                  288
Servicer Modifying Borrowers’ Loans                                                                                                                                                      Adjustment Details                                           TARP Incentive Payments
                                                                           Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                       Lenders/                         Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s       Investors      Servicers           Incentive
Date          Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                          Incentives      Incentives     Incentives          Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009          ($60,000)      1,030,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009        $1,260,000       2,290,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010        $2,070,000       4,360,000    Updated portfolio data from servicer
                                                       Financial
              Purdue Employees Federal                                                                              7/14/2010       ($3,960,000)        400,000    Updated portfolio data from servicer
                                                       Instrument for
7/29/2009     Credit Union,              Purchase                                 $1,090,000    N/A                                                                                                                   $1,000           $596         $2,000              $3,596
                                                       Home Loan                                                    9/30/2010          $180,222         580,222    Updated portfolio data from servicer
              West Lafayette, IN
                                                       Modifications
                                                                                                                     1/6/2011               ($1)        580,221    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($1)        580,220
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011               ($8)        580,212
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009     ($37,700,000)      47,320,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $26,160,000      73,480,000
                                                       Financial                                                                                                   HAFA initial cap
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I April 25, 2012




              Wachovia Bank, N.A.,                     Instrument for
7/29/2009                                Purchase                               $85,020,000     N/A                 3/26/2010        $9,820,000      83,300,000    Updated portfolio data from servicer                  $—             $—             $—                   $—
              Charlotte, NC                            Home Loan
                                                       Modifications                                                7/14/2010     ($46,200,000)      37,100,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010     ($28,686,775)       8,413,225    Updated portfolio data from servicer
                                                                                                                    12/3/2010       ($8,413,225)              —    Termination of SPA
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009     ($14,850,000)    2,684,870,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009    $1,178,180,000    3,863,050,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    3/26/2010    $1,006,580,000    4,869,630,000
                                                                                                                                                                   2MP initial cap
                                                                                                                    7/14/2010   ($1,934,230,000)   2,935,400,000   Updated portfolio data from servicer
                                                                                                                                                                   Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                    9/30/2010       $72,400,000    3,007,800,000
                                                                                                                                                                   and initial RD-HAMP
                                                                                                                    9/30/2010     $215,625,536     3,223,425,536   Updated portfolio data from servicer
                                                                                                                     1/6/2011           ($3,636)   3,223,421,900   Updated portfolio data from servicer
                                                                                                                    3/16/2011        ($100,000)    3,223,321,900   Transfer of cap due to servicing transfer
                                                       Financial                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011           ($3,999)   3,223,317,901
              J.P. Morgan Chase Bank,                  Instrument for                                                                                              reallocation
7/31/2009                                Purchase                            $2,699,720,000     N/A                                                                                                             $107,158,243   $203,699,722    $92,030,286       $402,888,251
              NA, Lewisville, TX                       Home Loan
                                                       Modifications                                                4/13/2011        ($200,000)    3,223,117,901   Transfer of cap due to servicing transfer
                                                                                                                    5/13/2011     $122,700,000     3,345,817,901   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011          ($34,606)   3,345,783,295
                                                                                                                                                                   reallocation
                                                                                                                    7/14/2011          $600,000    3,346,383,295   Transfer of cap due to servicing transfer
                                                                                                                    8/16/2011        ($400,000)    3,345,983,295   Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011        ($100,000)    3,345,883,295   Transfer of cap due to servicing transfer
                                                                                                                   10/14/2011          $200,000    3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                                   10/19/2011     $519,211,309     3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011       ($2,800,000)   3,862,494,604   Transfer of cap due to servicing transfer
                                                                                                                    1/13/2012        ($100,000)    3,862,394,604   Transfer of cap due to servicing transfer
                                                                                                                    2/16/2012        ($100,000)    3,862,294,604   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                         Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                       TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                                  Lenders/                         Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives     Incentives     Incentives          Payments
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009         ($10,000)    707,370,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009    $502,430,000     1,209,800,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       3/26/2010   ($134,560,000)    1,075,240,000
                                                                                                                                                                     2MP initial cap
                                                                                                                       7/14/2010   ($392,140,000)     683,100,000    Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap to Saxon Mortgage
                                                                                                                       7/16/2010       ($630,000)     682,470,000
                                                                                                                                                                     Services, Inc.
                                                                                                                                                                     Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                       9/30/2010      $13,100,000     695,570,000
                                                                                                                                                                     cap

                                                          Financial                                                    9/30/2010      ($8,006,457)    687,563,543    Updated portfolio data from servicer
              EMC Mortgage                                Instrument for                                              10/15/2010       ($100,000)     687,463,543    Transfer of cap due to servicing transfer
7/31/2009                                   Purchase                              $707,380,000     N/A         14                                                                                                $7,569,459   $11,592,937    $16,279,383         $35,441,779
              Corporation, Lewisville, TX                 Home Loan
                                                          Modifications                                               12/15/2010      ($4,400,000)    683,063,543    Updated portfolio data from servicer
                                                                                                                        1/6/2011            ($802)    683,062,741    Updated portfolio data from servicer
                                                                                                                       2/16/2011       ($900,000)     682,162,741    Transfer of cap due to servicing transfer
                                                                                                                       3/16/2011      ($4,000,000)    678,162,741    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011            ($925)    678,161,816
                                                                                                                                                                     reallocation
                                                                                                                       5/13/2011   ($122,900,000)     555,261,816    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011          ($8,728)    555,253,088
                                                                                                                                                                     reallocation
                                                                                                                       7/14/2011       ($600,000)     554,653,088    Transfer of cap due to servicing transfer
                                                                                                                      10/19/2011   ($519,211,309)      35,441,779    Termination of SPA
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009        $180,000          600,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009       ($350,000)         250,000
                                                                                                                                                                     HAFA initial cap
                                                          Financial
                                                          Instrument for                                               3/26/2010          $20,000         270,000    Updated portfolio data from servicer
8/5/2009      Lake City Bank, Warsaw, IN    Purchase                                  $420,000     N/A                                                                                                              $3,176         $3,001         $8,673             $14,850
                                                          Home Loan
                                                          Modifications                                                7/14/2010         ($70,000)        200,000    Updated portfolio data from servicer
                                                                                                                       9/30/2010          $90,111         290,111    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011              ($3)        290,108
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       9/30/2009        $290,000          430,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      12/30/2009        $210,000          640,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                       3/26/2010        $170,000          810,000    Updated portfolio data from servicer
                                                                                                                       7/14/2010         ($10,000)        800,000    Updated portfolio data from servicer
                                                          Financial
              Oakland Municipal Credit                    Instrument for                                               9/30/2010         ($74,722)        725,278    Updated portfolio data from servicer
8/5/2009                                    Purchase                                  $140,000     N/A         12                                                                                                      $—          $3,568         $6,500             $10,068
              Union, Oakland, CA                          Home Loan                                                     1/6/2011                          725,277    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       3/30/2011                          725,276
                                                                                                                                                                     reallocation
                                                                                                                       4/13/2011       ($200,000)         525,276    Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011              ($7)        525,269
                                                                                                                                                                     reallocation
                                                                                                                       7/22/2011       ($515,201)          10,068    Termination of SPA
                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                                 289
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                               (continued)                                                                                                                                                                              290
Servicer Modifying Borrowers’ Loans                                                                                                                                                      Adjustment Details                                        TARP Incentive Payments
                                                                            Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                   Lenders/                         Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives          Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009   ($121,190,000)     552,810,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009     ($36,290,000)    516,520,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010    $199,320,000      715,840,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010   ($189,040,000)     526,800,000    Updated portfolio data from servicer

                                                        Financial                                                    9/30/2010      $38,626,728     565,426,728    Updated portfolio data from servicer
              HomEq Servicing,                          Instrument for
8/5/2009                                  Purchase                              $674,000,000     N/A                10/15/2010   ($170,800,000)     394,626,728    Transfer of cap due to servicing transfer          $—      $3,036,319     $5,272,500          $8,308,819
              North Highlands, CA                       Home Loan
                                                        Modifications                                               12/15/2010     ($22,200,000)    372,426,728    Updated portfolio data from servicer
                                                                                                                      1/6/2011            ($549)    372,426,179    Updated portfolio data from servicer
                                                                                                                     2/16/2011       ($900,000)     371,526,179    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($653)    371,525,526
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($6,168)    371,519,358
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I April 25, 2012




                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009    $313,050,000     1,087,950,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $275,370,000     1,363,320,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010    $278,910,000     1,642,230,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010   ($474,730,000)    1,167,500,000   Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap to due to servicing
                                                                                                                     8/13/2010       ($700,000)    1,166,800,000
                                                                                                                                                                   transfer
                                                                                                                                                                   Transfer of cap to due to servicing
                                                                                                                     9/15/2010      ($1,000,000)   1,165,800,000
                                                                                                                                                                   transfer
                                                                                                                     9/30/2010   ($115,017,236)    1,050,782,764   Updated portfolio data from servicer
                                                                                                                    10/15/2010       ($800,000)    1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010         $800,000    1,050,782,764   Updated portfolio data from servicer
                                                                                                                      1/6/2011          ($1,286)   1,050,781,478   Updated portfolio data from servicer
                                                        Financial
              Litton Loan Servicing LP,                 Instrument for                                               3/16/2011       $8,800,000    1,059,581,478   Transfer of cap due to servicing transfer
8/12/2009                                 Purchase                              $774,900,000     N/A                                                                                                           $13,441,220   $35,353,126    $27,530,414         $76,324,760
              Houston, TX                               Home Loan
                                                                                                                                                                   Updated due to quarterly assessment and
                                                        Modifications                                                3/30/2011          ($1,470)   1,059,580,008
                                                                                                                                                                   reallocation
                                                                                                                     4/13/2011      ($3,300,000)   1,056,280,008   Transfer of cap due to servicing transfer
                                                                                                                     5/13/2011       ($300,000)    1,055,980,008   Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011       ($700,000)    1,055,280,008   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011         ($13,097)   1,055,266,911
                                                                                                                                                                   reallocation
                                                                                                                     7/14/2011       ($200,000)    1,055,066,911   Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011      ($2,900,000)   1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011       ($300,000)    1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       ($500,000)    1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                                    12/15/2011      ($2,600,000)   1,048,766,911   Transfer of cap due to servicing transfer
                                                                                                                     1/13/2012   ($194,800,000)     853,966,911    Transfer of cap due to servicing transfer
                                                                                                                     2/16/2012       ($400,000)     853,566,911    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                             (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                   Adjustment Details                                   TARP Incentive Payments
                                                                          Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                   9/30/2009      ($1,200,000)      5,010,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  12/30/2009      $30,800,000     35,810,000
                                                                                                                                                                HAFA initial cap
                                                                                                                   3/26/2010      $23,200,000     59,010,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc.
                                                                                                                   6/16/2010       $2,710,000     61,720,000
                                                                                                                                                                due to servicing transfer
                                                                                                                   7/14/2010     ($18,020,000)    43,700,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc.
                                                                                                                   7/16/2010       $6,680,000     50,380,000
                                                                                                                                                                due to servicing transfer
                                                                                                                                                                Transfer of cap to due to servicing
                                                                                                                   8/13/2010       $2,600,000     52,980,000
                                                                                                                                                                transfer
                                                                                                                                                                Transfer of cap to due to servicing
                                                                                                                   9/15/2010       ($100,000)     52,880,000
                                                                                                                                                                transfer
                                                                                                                   9/30/2010         $200,000     53,080,000    Initial FHA-HAMP cap and 2MP initial cap
                                                                                                                   9/30/2010      ($1,423,197)    51,656,803    Updated portfolio data from servicer
                                                                                                                  11/16/2010       $1,400,000     53,056,803    Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010       ($100,000)     52,956,803    Updated portfolio data from servicer
                                                      Financial
              PennyMac Loan Services,                 Instrument for                                                1/6/2011             ($72)    52,956,731    Updated portfolio data from servicer
8/12/2009                               Purchase                                 $6,210,000    N/A                                                                                                          $2,167,261   $2,870,995   $2,901,033         $7,939,289
              LLC, Calasbasa, CA                      Home Loan
                                                      Modifications                                                1/13/2011       $4,100,000     57,056,731    Transfer of cap due to servicing transfer
                                                                                                                   2/16/2011       ($100,000)     56,956,731    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011       $4,000,000     60,956,731    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($94)    60,956,637
                                                                                                                                                                reallocation
                                                                                                                   4/13/2011       ($100,000)     60,856,637    Transfer of cap due to servicing transfer
                                                                                                                   5/13/2011       $5,800,000     66,656,637    Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011         $600,000     67,256,637    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($812)    67,255,825
                                                                                                                                                                reallocation
                                                                                                                   7/14/2011       $2,500,000     69,755,825    Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011       $2,800,000     72,555,825    Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011         $300,000     72,855,825    Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011         $900,000     73,755,825    Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011         $800,000     74,555,825    Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012         $200,000     74,755,825    Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012       $1,900,000     76,655,825    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                        291
                                                                                                                                                                                                                                                                            292
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                           (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                   Adjustment Details                                       TARP Incentive Payments
                                                                        Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                   Lenders/                         Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives          Payments
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                 9/30/2009     ($25,510,000)      4,220,000
                                                                                                                                                               HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009         $520,000       4,740,000
                                                                                                                                                               HAFA initial cap
                                                                                                                 3/26/2010       $4,330,000       9,070,000    Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap from CitiMortgage, Inc.
                                                                                                                 4/19/2010         $230,000       9,300,000
                                                                                                                                                               due to servicing transfer
                                                                                                                 5/19/2010         $850,000      10,150,000    Initial 2MP cap
                                                                                                                 7/14/2010       ($850,000)       9,300,000    Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap to due to servicing
                                                                                                                 9/15/2010         $100,000       9,400,000
                                                                                                                                                               transfer
                                                                                                                 9/30/2010         $100,000       9,500,000    Initial FHA-HAMP cap
                                                                                                                 9/30/2010      $16,755,064      26,255,064    Updated portfolio data from servicer
                                                                                                                10/15/2010         $100,000      26,355,064    Transfer of cap due to servicing transfer
                                                                                                                12/15/2010         $100,000      26,455,064    Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($40)     26,455,024    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I April 25, 2012




                                                    Financial                                                    1/13/2011         $300,000      26,755,024    Transfer of cap due to servicing transfer
              Servis One, Inc.,                     Instrument for
8/12/2009                             Purchase                               $29,730,000     N/A                 2/16/2011         $100,000      26,855,024    Transfer of cap due to servicing transfer      $62,557      $229,134       $146,307             $437,997
              Titusville, PA                        Home Loan
                                                    Modifications                                                3/16/2011       $2,200,000      29,055,024    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011             ($52)     29,054,972
                                                                                                                                                               reallocation
                                                                                                                 4/13/2011       $1,500,000      30,554,972    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011       $1,000,000      31,554,972    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011         $100,000      31,654,972    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011            ($534)     31,654,438
                                                                                                                                                               reallocation
                                                                                                                 8/16/2011         $700,000      32,354,438    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011       ($600,000)      31,754,438    Transfer of cap due to servicing transfer
                                                                                                                10/14/2011       $4,000,000      35,754,438    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         $600,000      36,354,438    Transfer of cap due to servicing transfer
                                                                                                                12/15/2011         $200,000      36,554,438    Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012         $100,000      36,654,438    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012       $1,300,000      37,954,438    Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       $1,100,000      39,054,438    Transfer of cap due to servicing transfer
                                                                                                                 10/2/2009    $145,800,000      814,240,000    HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009   $1,355,930,000    2,170,170,000
                                                                                                                                                               HAFA initial cap
                                                                                                                 3/26/2010    $121,180,000     2,291,350,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010   ($408,850,000)    1,882,500,000   Updated portfolio data from servicer
                                                    Financial
              OneWest Bank,                         Instrument for                                               9/30/2010       $5,500,000    1,888,000,000   2MP initial cap
8/28/2009                             Purchase                              $668,440,000     N/A                                                                                                           $21,530,177   $74,553,636    $41,713,918       $137,797,731
              Pasadena, CA                          Home Loan
                                                    Modifications                                                9/30/2010     ($51,741,163)   1,836,258,837   Updated portfolio data from servicer
                                                                                                                  1/6/2011          ($2,282)   1,836,256,555   Updated portfolio data from servicer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011          ($2,674)   1,836,253,881
                                                                                                                                                               reallocation
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011         ($24,616)   1,836,229,265
                                                                                                                                                               reallocation
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                               (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                     Adjustment Details                                   TARP Incentive Payments
                                                                            Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                     10/2/2009          $70,000        370,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009       $2,680,000       3,050,000
                                                                                                                                                                  HAFA initial cap
                                                        Financial
              Stanford Federal Credit                   Instrument for                                               3/26/2010        $350,000        3,400,000   Updated portfolio data from servicer
8/28/2009                                 Purchase                                  $300,000     N/A                                                                                                                $—           $—           $—                   $—
              Union, Palo Alto, CA                      Home Loan
                                                        Modifications                                                7/14/2010      ($1,900,000)      1,500,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010      ($1,209,889)       290,111    Updated portfolio data from servicer
                                                                                                                     3/23/2010       ($290,111)              —    Termination of SPA
                                                                                                                     10/2/2009        $130,000         700,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009       ($310,000)        390,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                     3/26/2010       $2,110,000       2,500,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       $8,300,000     10,800,000    Updated portfolio data from servicer
                                                        Financial                                                    9/30/2010       $5,301,172     16,101,172    Updated portfolio data from servicer
              RoundPoint Mortgage
                                                        Instrument for
8/28/2009     Servicing Corporation,      Purchase                                  $570,000     N/A                  1/6/2011             ($22)    16,101,150    Updated portfolio data from servicer          $66,039    $205,120     $166,496             $437,655
                                                        Home Loan
              Charlotte, NC
                                                        Modifications
                                                                                                                     3/16/2011       ($400,000)     15,701,150    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($25)    15,701,125
                                                                                                                                                                  reallocation
                                                                                                                     4/13/2011              $—      15,701,125    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($232)    15,700,893
                                                                                                                                                                  reallocation
                                                                                                                     10/2/2009        $130,000         690,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009       $1,040,000       1,730,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                     3/26/2010      ($1,680,000)        50,000    Updated portfolio data from servicer
                                                        Financial
                                                        Instrument for                                               5/12/2010       $1,260,000       1,310,000   Updated portfolio data from servicer
9/2/2009      Horicon Bank, Horicon, WI   Purchase                                  $560,000     N/A                                                                                                             $3,348       $9,122       $6,570             $19,040
                                                        Home Loan                                                    7/14/2010      ($1,110,000)       200,000    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                     9/30/2010        $100,000         300,000    Initial RD-HAMP
                                                                                                                     9/30/2010          ($9,889)       290,111    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($3)       290,108
                                                                                                                                                                  reallocation
                                                                                                                     10/2/2009       $1,310,000       7,310,000   HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    12/30/2009      ($3,390,000)      3,920,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                     3/26/2010        $410,000        4,330,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($730,000)       3,600,000   Updated portfolio data from servicer
                                                                                                                     9/15/2010       $4,700,000       8,300,000   Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010        $117,764        8,417,764   Updated portfolio data from servicer
                                                                                                                    11/16/2010        $800,000        9,217,764   Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010       $2,700,000     11,917,764    Updated portfolio data from servicer
                                                        Financial
9/2/2009 as   Vantium Capital, Inc.dba
                                                        Instrument for                                                1/6/2011             ($17)    11,917,747    Updated portfolio data from servicer
amended on    Acqura Loan Services,       Purchase                                 $6,000,000    N/A         10                                                                                                $141,740    $295,997     $236,295             $674,033
                                                        Home Loan
8/27/2010     Plano, TX                                                                                              1/13/2011        $700,000      12,617,747    Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                     2/16/2011       $1,800,000     14,417,747    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($19)    14,417,728
                                                                                                                                                                  reallocation
                                                                                                                     4/13/2011        $300,000      14,717,728    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($189)    14,717,539
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I April 25, 2012




                                                                                                                     8/16/2011        $300,000      15,017,539    Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011        $100,000      15,117,539    Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011        $100,000      15,217,539    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                          293
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (continued)                                                                                                                                                                          294
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                      TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                               Lenders/                         Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                             Borrower’s      Investors      Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                     Incentives     Incentives     Incentives          Payments
                                                                                                                        10/2/2009         $280,000       1,530,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009       ($750,000)        780,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010         $120,000        900,000    Updated portfolio data from servicer
                                                           Financial                                                    7/14/2010       ($300,000)        600,000    Updated portfolio data from servicer
              Central Florida Educators
                                                           Instrument for
9/9/2009      Federal Credit Union,          Purchase                                 $1,250,000    N/A                 9/30/2010         $270,334        870,334    Updated portfolio data from servicer        $37,070       $67,952        $87,113             $192,135
                                                           Home Loan
              Lake Mary, FL
                                                           Modifications
                                                                                                                         1/6/2011              ($1)       870,333    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($1)       870,332
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($5)       870,327
                                                                                                                                                                     reallocation
                                                                                                                        10/2/2009      $24,920,000    139,140,000    HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009      $49,410,000    188,550,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010      $41,830,000    230,380,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I April 25, 2012




                                                           Financial                                                    7/14/2010     ($85,780,000)   144,600,000    Updated portfolio data from servicer
              U.S. Bank National                           Instrument for
9/9/2009                                     Purchase                              $114,220,000     N/A                 9/30/2010      $36,574,444    181,174,444    Updated portfolio data from servicer      $4,908,474   $14,122,381    $11,574,279         $30,605,135
              Association, Owensboro, KY                   Home Loan
                                                           Modifications
                                                                                                                         1/6/2011            ($160)   181,174,284    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011            ($172)   181,174,112
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011          ($1,431)   181,172,681
                                                                                                                                                                     reallocation
                                                                                                                        10/2/2009         $950,000       5,300,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009       $5,700,000     11,000,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010         $740,000     11,740,000    Updated portfolio data from servicer
                                                           Financial                                                    7/14/2010      ($1,440,000)    10,300,000    Updated portfolio data from servicer
              CUC Mortgage Corporation,                    Instrument for
9/9/2009                                     Purchase                                 $4,350,000    N/A                 9/30/2010      ($6,673,610)      3,626,390   Updated portfolio data from servicer        $25,046       $66,530        $59,122             $150,698
              Albany, NY                                   Home Loan
                                                           Modifications
                                                                                                                         1/6/2011              ($5)      3,626,385   Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($6)      3,626,379
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011             ($52)      3,626,327
                                                                                                                                                                     reallocation
                                                                                                                        10/2/2009         $460,000       2,530,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009       $2,730,000       5,260,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010      $13,280,000     18,540,000    Updated portfolio data from servicer
                                                           Financial                                                    7/14/2010     ($13,540,000)      5,000,000   Updated portfolio data from servicer
              ORNL Federal Credit Union,                   Instrument for
9/11/2009                                    Purchase                                 $2,070,000    N/A                 9/30/2010       $1,817,613       6,817,613   Updated portfolio data from servicer         $3,000         $4,342         $9,600             $16,942
              Oak Ridge, TN                                Home Loan
                                                           Modifications
                                                                                                                         1/6/2011             ($10)      6,817,603   Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011             ($12)      6,817,591
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011            ($115)      6,817,476
                                                                                                                                                                     reallocation
                                                                                                                        10/2/2009          $60,000        310,000    HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009         ($80,000)       230,000
                                                                                                                                                                     HAFA initial cap
                                                           Financial
              Allstate Mortgage Loans &                    Instrument for                                               3/26/2010         $280,000        510,000    Updated portfolio data from servicer
9/11/2009                                    Purchase                                  $250,000     N/A                                                                                                           $3,329         $6,860         $6,329             $16,519
              Investments, Inc., Ocala, FL                 Home Loan                                                    7/14/2010       ($410,000)        100,000    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                        9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($1)       145,055
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                   TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                        10/2/2009          $70,000        350,000    HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009         $620,000        970,000
                                                                                                                                                                     HAFA initial cap
                                                           Financial                                                    3/26/2010         $100,000       1,070,000   Updated portfolio data from servicer
              Metropolitan National Bank,                  Instrument for
9/11/2009                                    Purchase                                  $280,000     N/A                                                                                                                $—           $—           $—                   $—
              Littlerock, AR                               Home Loan                                                    7/14/2010       ($670,000)        400,000    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                        9/30/2010          $35,167        435,167    Updated portfolio data from servicer
                                                                                                                         1/6/2011              ($1)       435,166    Updated portfolio data from servicer
                                                                                                                        1/26/2011       ($435,166)              —    Termination of SPA
                                                                                                                        10/2/2009       $6,010,000     33,520,000    HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009     ($19,750,000)    13,770,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010      ($4,780,000)      8,990,000   Updated portfolio data from servicer
                                                                                                                        7/14/2010      ($2,390,000)      6,600,000   Updated portfolio data from servicer
                                                           Financial                                                    9/30/2010       $2,973,670       9,573,670   Updated portfolio data from servicer
              Franklin Credit Management                   Instrument for
9/11/2009                                    Purchase                               $27,510,000     N/A                  1/6/2011              ($3)      9,573,667   Updated portfolio data from servicer         $200,792    $450,464     $543,010           $1,194,266
              Corporation, Jersey City, NJ                 Home Loan
                                                           Modifications
                                                                                                                        2/16/2011      ($1,800,000)      7,773,667   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($6)      7,773,661
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011             ($61)      7,773,600
                                                                                                                                                                     reallocation
                                                                                                                       10/14/2011       ($100,000)       7,673,600   Transfer of cap due to servicing transfer
                                                                                                                        10/2/2009          $90,000        500,000    HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009       $1,460,000       1,960,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010         $160,000       2,120,000   Updated portfolio data from servicer
                                                                                                                        7/14/2010       ($120,000)       2,000,000   Updated portfolio data from servicer
                                                           Financial
              Bay Federal Credit Union,                    Instrument for                                               9/30/2010      ($1,419,778)       580,222    Updated portfolio data from servicer
9/16/2009                                    Purchase                                  $410,000     N/A                                                                                                                $—           $—           $—                   $—
              Capitola, CA                                 Home Loan
                                                           Modifications                                                 1/6/2011              ($1)       580,221    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($1)       580,220
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($8)       580,212
                                                                                                                                                                     reallocation
                                                                                                                        1/25/2012       ($580,212)              —    Termination of SPA
                                                                                                                        10/2/2009         $960,000       5,350,000   HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009      ($3,090,000)      2,260,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010         $230,000       2,490,000   Updated portfolio data from servicer
                                                                                                                        7/14/2010       $5,310,000       7,800,000   Updated portfolio data from servicer
                                                                                                                        9/30/2010         $323,114       8,123,114   Updated portfolio data from servicer
                                                                                                                         1/6/2011             ($12)      8,123,102   Updated portfolio data from servicer
                                                           Financial
              AMS Servicing, LLC,                          Instrument for                                               3/16/2011         $600,000       8,723,102   Transfer of cap due to servicing transfer
9/23/2009                                    Purchase                                 $4,390,000    N/A                                                                                                                $—           $—           $—                   $—
              Buffalo, NY                                  Home Loan
                                                           Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                        3/30/2011             ($16)      8,723,086
                                                                                                                                                                     reallocation
                                                                                                                        4/13/2011         $200,000       8,923,086   Transfer of cap due to servicing transfer
                                                                                                                        5/13/2011         $100,000       9,023,086   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011            ($153)      9,022,933
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I April 25, 2012




                                                                                                                        9/15/2011         $100,000       9,122,933   Transfer of cap due to servicing transfer
                                                                                                                       11/16/2011         $100,000       9,222,933   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             295
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (continued)                                                                                                                                                                      296
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                  TARP Incentive Payments
                                                                                Cap of Investment
                                                                              Payments on Behalf
                                                                              of Borrowers and to                                                                                                                             Lenders/                       Total TARP
                                              Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                             Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution             Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                     Incentives   Incentives   Incentives          Payments
                                                                                                                         10/2/2009          $90,000        480,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009        $940,000        1,420,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                         3/26/2010       ($980,000)        440,000    Updated portfolio data from servicer
                                                            Financial                                                    7/14/2010       ($140,000)        300,000    Updated portfolio data from servicer
              Schools Financial Credit                      Instrument for
9/23/2009                                     Purchase                                  $390,000     N/A                 9/30/2010       $1,150,556       1,450,556   Updated portfolio data from servicer         $9,750     $32,617      $22,500              $64,867
              Union, Sacramento, CA                         Home Loan
                                                            Modifications
                                                                                                                          1/6/2011              ($2)      1,450,554   Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         3/30/2011              ($2)      1,450,552
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011             ($22)      1,450,530
                                                                                                                                                                      reallocation
                                                                                                                         10/2/2009          $60,000        290,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009         ($10,000)       280,000
                                                                                                                                                                      HAFA initial cap
                                                            Financial
              Glass City Federal Credit                     Instrument for                                               3/26/2010        $130,000         410,000    Updated portfolio data from servicer
9/23/2009                                     Purchase                                  $230,000     N/A                                                                                                           $3,000       $2,155       $5,000             $10,155
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I April 25, 2012




              Union, Maumee, OH                             Home Loan                                                    7/14/2010       ($110,000)        300,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                         9/30/2010          ($9,889)       290,111    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011              ($3)       290,108
                                                                                                                                                                      reallocation
                                                                                                                         10/2/2009          $10,000         40,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009        $120,000         160,000
                                                                                                                                                                      HAFA initial cap
                                                            Financial
              Central Jersey Federal Credit                 Instrument for                                               3/26/2010          $10,000        170,000    Updated portfolio data from servicer
9/23/2009                                     Purchase                                    $30,000    N/A                                                                                                              $—           $—           $—                   $—
              Union, Woodbridge, VA                         Home Loan
                                                            Modifications                                                7/14/2010         ($70,000)       100,000    Updated portfolio data from servicer
                                                                                                                         9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                        10/29/2010       ($145,056)              —    Termination of SPA
                                                                                                                         10/2/2009          $60,000        300,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009        $350,000         650,000
                                                                                                                                                                      HAFA initial cap

                                                            Financial                                                    3/26/2010       $1,360,000       2,010,000   Updated portfolio data from servicer
              Yadkin Valley Bank,                           Instrument for
9/23/2009                                     Purchase                                  $240,000     N/A                 7/14/2010      ($1,810,000)       200,000    Updated portfolio data from servicer        $10,634     $11,130      $27,884              $49,648
              Elkin, NC                                     Home Loan
                                                            Modifications                                                9/30/2010        $235,167         435,167    Updated portfolio data from servicer
                                                                                                                          1/6/2011              ($1)       435,166    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011              ($4)       435,162
                                                                                                                                                                      reallocation
                                                                                                                         10/2/2009        $100,000         540,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                        12/30/2009          $20,000        560,000
                                                                                                                                                                      HAFA initial cap
                                                            Financial
                                                            Instrument for                                               3/26/2010       ($290,000)        270,000    Updated portfolio data from servicer
9/25/2009     SEFCU, Albany, NY               Purchase                                  $440,000     N/A                                                                                                              $—           $—           $—                   $—
                                                            Home Loan                                                    7/14/2010         ($70,000)       200,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                         9/30/2010         ($54,944)       145,056    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011              ($1)       145,055
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                   TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009       $1,030,000       1,600,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                        3/26/2010       ($880,000)        720,000    Updated portfolio data from servicer
                                                                                                                        7/14/2010       ($320,000)        400,000    Updated portfolio data from servicer
                                                           Financial
              Great Lakes Credit Union,                    Instrument for                                               9/30/2010         $180,222        580,222    Updated portfolio data from servicer
10/14/2009                                   Purchase                                  $570,000     N/A                                                                                                             $4,917       $6,422       $5,500             $16,839
              North Chicago, IL                            Home Loan
                                                           Modifications                                                 1/6/2011              ($1)       580,221    Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($1)       580,220
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($8)       580,212
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                       12/30/2009      ($2,900,000)      1,960,000
                                                                                                                                                                     HAFA initial cap
                                                           Financial                                                    3/26/2010      ($1,600,000)       360,000    Updated portfolio data from servicer
              Mortgage Clearing                            Instrument for
10/14/2009                                   Purchase                                 $4,860,000    N/A                                                                                                                $—           $—           $—                   $—
              Corporation, Tulsa, OK                       Home Loan                                                    7/14/2010       ($260,000)        100,000    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                        9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                         3/9/2011       ($145,056)              —    Termination of SPA
                                                                                                                        1/22/2010          $20,000        430,000    Updated HPDP cap & HAFA initial cap
                                                                                                                        3/26/2010         $400,000        830,000    Updated portfolio data from servicer
                                                                                                                        7/14/2010       ($430,000)        400,000    Updated portfolio data from servicer
                                                           Financial
              United Bank Mortgage                                                                                      9/30/2010         $180,222        580,222    Updated portfolio data from servicer
                                                           Instrument for
10/21/2009    Corporation,                   Purchase                                  $410,000     N/A                                                                                                            $18,535      $38,030      $38,407             $94,973
                                                           Home Loan                                                     1/6/2011              ($1)       580,221    Updated portfolio data from servicer
              Grand Rapids, MI
                                                           Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($1)       580,220
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($5)       580,215
                                                                                                                                                                     reallocation
                                                                                                                        1/22/2010       $4,370,000     98,030,000    Updated HPDP cap & HAFA initial cap
                                                                                                                        3/26/2010      $23,880,000    121,910,000    Updated portfolio data from servicer
                                                                                                                        7/14/2010     ($16,610,000)   105,300,000    Updated portfolio data from servicer
                                                                                                                        9/30/2010       $1,751,033    107,051,033    Updated portfolio data from servicer
                                                           Financial
                                                                                                                         1/6/2011             ($77)   107,050,956    Updated portfolio data from servicer
                                                           Instrument for
10/23/2009    Bank United, Miami Lakes, FL   Purchase                               $93,660,000     N/A                                                                                                          $2,776,100   $9,038,525   $6,210,813        $18,025,438
                                                           Home Loan                                                    3/16/2011      ($9,900,000)    97,150,956    Transfer of cap due to servicing transfer
                                                           Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011             ($88)    97,150,868
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011            ($773)    97,150,095
                                                                                                                                                                     reallocation
                                                                                                                        3/15/2012      ($1,400,000)    95,750,095    Transfer of cap due to servicing transfer
                                                                                                                        1/22/2010          $40,000        800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                        3/26/2010       ($760,000)         40,000    Updated portfolio data from servicer
                                                                                                                        5/12/2010       $2,630,000       2,670,000   Updated portfolio data from servicer

                                                           Financial                                                    7/14/2010       ($770,000)       1,900,000   Updated portfolio data from servicer
              IC Federal Credit Union,                     Instrument for                                               9/30/2010         $565,945       2,465,945   Updated portfolio data from servicer
10/23/2009                                   Purchase                                  $760,000     N/A                                                                                                             $7,000      $16,686      $18,000             $41,686
              Fitchburg, MA                                Home Loan
                                                           Modifications                                                 1/6/2011              ($4)      2,465,941   Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        3/30/2011              ($4)      2,465,937
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                        6/29/2011             ($40)      2,465,897
                                                                                                                                                                     reallocation
                                                           Financial
              Harleysville National
                                                           Instrument for
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I April 25, 2012




10/28/2009    Bank & Trust Company,          Purchase                                 $1,070,000    N/A                 4/21/2010      ($1,070,000)             —    Termination of SPA                                $—           $—           $—                   $—
                                                           Home Loan
              Harleysville, PA
                                                           Modifications
                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             297
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                               (continued)                                                                                                                                                                        298
Servicer Modifying Borrowers’ Loans                                                                                                                                                     Adjustment Details                                   TARP Incentive Payments
                                                                            Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                        Financial
              Members Mortgage                          Instrument for
10/28/2009                                Purchase                                  $510,000     N/A                4/21/2010        ($510,000)              —    Termination of SPA                                $—           $—           $—                   $—
              Company, Inc, Woburn, MA                  Home Loan
                                                        Modifications
                                                                                                                    1/22/2010           $10,000         80,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010           $10,000         90,000    Updated portfolio data from servicer
                                                        Financial
              DuPage Credit Union,                      Instrument for                                              7/14/2010           $10,000        100,000    Updated portfolio data from servicer
10/30/2009                                Purchase                                    $70,000    N/A                                                                                                             $2,514     $14,602        $6,214             $23,330
              Naperville, IL                            Home Loan
                                                        Modifications                                               9/30/2010           $45,056        145,056    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011               ($1)       145,055
                                                                                                                                                                  reallocation
                                                                                                                    1/22/2010           $40,000        740,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010           $50,000        790,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010        $1,310,000       2,100,000   Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010           $75,834       2,175,834   Updated portfolio data from servicer
              Los Alamos National Bank,                 Instrument for
11/6/2009                                 Purchase                                  $700,000     N/A                                                                                                             $5,538     $10,477      $18,993              $35,008
              Los Alamos, NM                            Home Loan                                                    1/6/2011               ($3)      2,175,831   Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I April 25, 2012




                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($4)      2,175,827
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($35)      2,175,792
                                                                                                                                                                  reallocation
                                                                                                                    1/22/2010         $890,000      19,850,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $3,840,000     23,690,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($2,890,000)    20,800,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010        $9,661,676     30,461,676    Updated portfolio data from servicer
                                                                                                                     1/6/2011              ($46)    30,461,630    Updated portfolio data from servicer
                                                                                                                    1/13/2011        $1,600,000     32,061,630    Transfer of cap due to servicing transfer
                                                                                                                    2/16/2011        $1,400,000     33,461,630    Transfer of cap due to servicing transfer

                                                        Financial                                                                                                 Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($58)    33,461,572
              Quantum Servicing                         Instrument for                                                                                            reallocation
11/18/2009                                Purchase                               $18,960,000     N/A                                                                                                           $106,301    $237,437     $150,260             $493,998
              Corporation, Tampa, FL                    Home Loan                                                   4/13/2011         $100,000      33,561,572    Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                    5/13/2011         $100,000      33,661,572    Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011         $800,000      34,461,572    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($559)    34,461,013
                                                                                                                                                                  reallocation
                                                                                                                    7/14/2011         $300,000      34,761,013    Transfer of cap due to servicing transfer
                                                                                                                    8/16/2011         $200,000      34,961,013    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011         $100,000      35,061,013    Transfer of cap due to servicing transfer
                                                                                                                    1/13/2012         $100,000      35,161,013    Transfer of cap due to servicing transfer
                                                                                                                    1/22/2010           $80,000       1,750,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010         $330,000        2,080,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($1,080,000)      1,000,000   Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010         $160,445        1,160,445   Updated portfolio data from servicer
              Hillsdale County National                 Instrument for
11/18/2009                                Purchase                                 $1,670,000    N/A                                                                                                            $13,943     $17,524      $33,529              $64,997
              Bank, Hillsdale, MI                       Home Loan                                                    1/6/2011               ($1)      1,160,444   Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($2)      1,160,442
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($16)      1,160,426
                                                                                                                                                                  reallocation
                                                                                                                    1/22/2010               $—          20,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010          ($10,000)        10,000    Updated portfolio data from servicer
                                                        Financial
              QLending, Inc.,                           Instrument for                                              7/14/2010           $90,000        100,000    Updated portfolio data from servicer
11/18/2009                                Purchase                                    $20,000    N/A                                                                                                                $—           $—           $—                   $—
              Coral Gables, FL                          Home Loan
                                                        Modifications                                               9/30/2010           $45,056        145,056    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011               ($1)       145,055
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                      Adjustment Details                                   TARP Incentive Payments
                                                                             Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                     1/22/2010          $950,000     21,310,000    Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010      ($17,880,000)      3,430,000   Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc.
                                                                                                                     6/16/2010        $1,030,000       4,460,000
                                                                                                                                                                   due to servicing transfer
                                                                                                                     7/14/2010       ($1,160,000)      3,300,000   Updated portfolio data from servicer
                                                                                                                     8/13/2010          $800,000       4,100,000   Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010          $200,000       4,300,000   Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                                     9/30/2010        $1,357,168       5,657,168   Updated portfolio data from servicer
                                                                                                                      1/6/2011               ($1)      5,657,167   Updated portfolio data from servicer
                                                         Financial                                                   3/16/2011        $5,700,000     11,357,167    Transfer of cap due to servicing transfer
              Marix Servicing, LLC,                      Instrument for
11/25/2009                                 Purchase                               $20,360,000     N/A                                                              Updated due to quarterly assessment and      $335,424    $916,641     $783,854           $2,035,918
              Phoenix, AZ                                Home Loan                                                   3/30/2011               ($6)    11,357,161
                                                         Modifications                                                                                             reallocation
                                                                                                                     4/13/2011        $7,300,000     18,657,161    Transfer of cap due to servicing transfer
                                                                                                                     5/13/2011          $300,000     18,957,161    Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011          $900,000     19,857,161    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($154)    19,857,007
                                                                                                                                                                   reallocation
                                                                                                                     7/14/2011          $100,000     19,957,007    Transfer of cap due to servicing transfer
                                                                                                                     8/16/2011          $300,000     20,257,007    Transfer of cap due to servicing transfer
                                                                                                                     1/13/2012       ($1,500,000)    18,757,007    Transfer of cap due to servicing transfer
                                                                                                                     2/16/2012       ($2,100,000)    16,657,007    Transfer of cap due to servicing transfer
                                                         Financial
              Home Financing Center,                     Instrument for
11/25/2009                                 Purchase                                  $230,000     N/A                4/21/2010        ($230,000)              —    Termination of SPA                                $—           $—           $—                   $—
              Inc, Coral Gables, FL                      Home Loan
                                                         Modifications
                                                                                                                     1/22/2010           $50,000       1,330,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010        $1,020,000       2,350,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010        ($950,000)       1,400,000   Updated portfolio data from servicer
                                                                                                                     9/30/2010           $50,556       1,450,556   Updated portfolio data from servicer
                                                         Financial
                                                                                                                      1/6/2011               ($2)      1,450,554   Updated portfolio data from servicer
              First Keystone Bank,                       Instrument for
11/25/2009                                 Purchase                                 $1,280,000    N/A         12                                                                                                  $2,776       $3,423       $8,718             $14,917
              Media, PA                                  Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                               3/30/2011               ($2)      1,450,552
                                                                                                                                                                   reallocation
                                                                                                                     6/16/2011        ($100,000)       1,350,552   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($21)      1,350,531
                                                                                                                                                                   reallocation
                                                                                                                     7/22/2011       ($1,335,614)        14,917    Termination of SPA
                                                                                                                     1/22/2010           $10,000        390,000    Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010          $520,000        910,000    Updated portfolio data from servicer
                                                         Financial
              Community Bank & Trust                     Instrument for                                              7/14/2010        ($810,000)        100,000    Updated portfolio data from servicer
12/4/2009                                  Purchase                                  $380,000     N/A                                                                                                                $—           $—           $—                   $—
              Company, Clarks Summit, PA                 Home Loan
                                                         Modifications                                               9/30/2010           $45,056        145,056    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011               ($1)       145,055
                                                                                                                                                                   reallocation
                                                                                                                     1/22/2010          $440,000       9,870,000   Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010       $14,480,000     24,350,000    Updated portfolio data from servicer
                                                         Financial                                                   5/26/2010      ($24,200,000)       150,000    Updated portfolio data from servicer
              Idaho Housing and Finance                  Instrument for
12/4/2009                                  Purchase                                 $9,430,000    N/A                7/14/2010          $150,000        300,000    Updated portfolio data from servicer          $10,247     $11,182      $17,330              $38,759
              Association, Boise, ID                     Home Loan
                                                         Modifications
                                                                                                                     9/30/2010           ($9,889)       290,111    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I April 25, 2012




                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011               ($3)       290,108
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           299
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (continued)                                                                                                                                                                        300
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                  TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                       1/22/2010          $10,000        370,000    Updated HPDP cap & HAFA initial cap
                                                                                                                       3/26/2010        $850,000        1,220,000   Updated portfolio data from servicer

                                                          Financial                                                    7/14/2010       ($120,000)       1,100,000   Updated portfolio data from servicer
              Spirit of Alaska Federal                    Instrument for
12/9/2009                                   Purchase                                  $360,000     N/A                 9/30/2010        $100,000        1,200,000   Initial FHA-HAMP cap                              $—           $—           $—                   $—
              Credit Union, Fairbanks, AK                 Home Loan
                                                          Modifications                                                9/30/2010        $105,500        1,305,500   Updated portfolio data from servicer
                                                                                                                        1/6/2011              ($2)      1,305,498   Updated portfolio data from servicer
                                                                                                                       2/17/2011      ($1,305,498)             —    Termination of SPA
                                                                                                                       1/22/2010          $70,000       1,660,000   Updated HPDP cap & HAFA initial cap
                                                                                                                       3/26/2010       ($290,000)       1,370,000   Updated portfolio data from servicer
                                                                                                                       7/14/2010       ($570,000)        800,000    Updated portfolio data from servicer

                                                          Financial                                                    9/30/2010          $70,334        870,334    Updated portfolio data from servicer
              American Eagle Federal
                                                          Instrument for                                                1/6/2011              ($1)       870,333    Updated portfolio data from servicer
12/9/2009     Credit Union,                 Purchase                                 $1,590,000    N/A                                                                                                                $—           $—           $—                   $—
                                                          Home Loan
              East Hartford, CT
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($1)       870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I April 25, 2012




                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($13)       870,319
                                                                                                                                                                    reallocation
                                                                                                                       1/25/2012       ($870,319)              —    Termination of SPA
                                                                                                                       1/22/2010          $90,000       1,970,000   Updated HPDP cap & HAFA initial cap
                                                                                                                       3/26/2010       $1,110,000       3,080,000   Updated portfolio data from servicer
                                                                                                                       7/14/2010      ($1,180,000)      1,900,000   Updated portfolio data from servicer
                                                          Financial
                                                                                                                       9/30/2010        $275,834        2,175,834   Updated portfolio data from servicer
              Silver State Schools Credit                 Instrument for
12/9/2009                                   Purchase                                 $1,880,000    N/A                                                                                                            $25,356    $120,572      $54,189             $200,117
              Union, Las Vegas, NV                        Home Loan                                                     1/6/2011              ($2)      2,175,832   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($3)      2,175,829
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($26)      2,175,803
                                                                                                                                                                    reallocation
                                                                                                                       1/22/2010        $140,000        3,080,000   Updated HPDP cap & HAFA initial cap
                                                                                                                       3/26/2010       $6,300,000       9,380,000   Updated portfolio data from servicer
                                                                                                                       7/14/2010      ($1,980,000)      7,400,000   Updated portfolio data from servicer
                                                          Financial
                                                                                                                       9/30/2010      ($6,384,611)      1,015,389   Updated portfolio data from servicer
              Fidelity Homestead Savings                  Instrument for
12/9/2009                                   Purchase                                 $2,940,000    N/A                                                                                                                $—           $—           $—                   $—
              Bank, New Orleans, LA                       Home Loan                                                     1/6/2011              ($1)      1,015,388   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($2)      1,015,386
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($16)      1,015,370
                                                                                                                                                                    reallocation
                                                                                                                       1/22/2010          $10,000        240,000    Updated HPDP cap & HAFA initial cap

                                                          Financial                                                    3/26/2010        $440,000         680,000    Updated portfolio data from servicer
              Bay Gulf Credit Union,                      Instrument for
12/9/2009                                   Purchase                                  $230,000     N/A                 7/14/2010         ($80,000)       600,000    Updated portfolio data from servicer              $—           $—           $—                   $—
              Tampa, FL                                   Home Loan
                                                          Modifications                                                9/30/2010         ($19,778)       580,222    Updated portfolio data from servicer
                                                                                                                      10/15/2010       ($580,222)              —    Termination of SPA
                                                                                                                       1/22/2010        $290,000        6,450,000   Updated HPDP cap & HAFA initial cap
                                                                                                                       3/26/2010          $40,000       6,490,000   Updated portfolio data from servicer
                                                                                                                       7/14/2010      ($2,890,000)      3,600,000   Updated portfolio data from servicer
                                                          Financial
                                                                                                                       9/30/2010        $606,612        4,206,612   Updated portfolio data from servicer
              The Golden 1 Credit Union,                  Instrument for
12/9/2009                                   Purchase                                 $6,160,000    N/A                                                                                                            $75,821    $357,369     $232,455             $665,645
              Sacramento, CA                              Home Loan                                                     1/6/2011              ($4)      4,206,608   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       3/30/2011              ($4)      4,206,604
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($35)      4,206,569
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                   TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                      1/22/2010         $100,000        2,350,000   Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010        ($740,000)       1,610,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010        ($710,000)        900,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010         $550,556        1,450,556   Updated portfolio data from servicer
              Sterling Savings Bank,                      Instrument for
12/9/2009                                   Purchase                                 $2,250,000    N/A                                                                                                            $41,379    $114,177     $113,310             $268,866
              Spokane, WA                                 Home Loan                                                    1/6/2011               ($1)      1,450,555   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($1)      1,450,554
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($11)      1,450,543
                                                                                                                                                                    reallocation
                                                                                                                      1/22/2010           $20,000        330,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010         $820,000        1,150,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010        ($350,000)        800,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010           $70,334        870,334    Updated portfolio data from servicer
              HomeStar Bank & Financial                   Instrument for
12/11/2009                                  Purchase                                  $310,000     N/A                                                                                                             $1,917       $5,289       $5,833             $13,039
              Services, Manteno, IL                       Home Loan                                                    1/6/2011               ($1)       870,333    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($1)       870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($13)       870,319
                                                                                                                                                                    reallocation

                                                          Financial                                                   1/22/2010           $20,000        390,000    Updated HPDP cap & HAFA initial cap
              Glenview State Bank,                        Instrument for
12/11/2009                                  Purchase                                  $370,000     N/A                3/26/2010        $1,250,000       1,640,000   Updated portfolio data from servicer              $—           $—           $—                   $—
              Glenview, IL                                Home Loan
                                                          Modifications                                               5/26/2010       ($1,640,000)             —    Termination of SPA
                                                                                                                      1/22/2010           $30,000        630,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010         $400,000        1,030,000   Updated portfolio data from servicer
                                                          Financial
              Verity Credit Union,                        Instrument for                                              7/14/2010        ($330,000)        700,000    Updated portfolio data from servicer
12/11/2009                                  Purchase                                  $600,000     N/A                                                                                                                $—           $—           $—                   $—
              Seattle, WA                                 Home Loan                                                   9/30/2010           $25,278        725,278    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                       1/6/2011               ($1)       725,277    Updated portfolio data from servicer
                                                                                                                      2/17/2011        ($725,277)              —    Termination of SPA
                                                                                                                      1/22/2010           $30,000        660,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010         $800,000        1,460,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010        ($360,000)       1,100,000   Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010           $60,445       1,160,445   Updated portfolio data from servicer
              Hartford Savings Bank,                      Instrument for
12/11/2009                                  Purchase                                  $630,000     N/A                                                                                                                $—           $—           $—                   $—
              Hartford, WI                                Home Loan                                                    1/6/2011               ($2)      1,160,443   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($2)      1,160,441
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($18)      1,160,423
                                                                                                                                                                    reallocation
                                                          Financial                                                   4/21/2010        ($150,000)              —    Termination of SPA
              The Bryn Mawr Trust Co.,                    Instrument for
12/11/2009                                  Purchase                                  $150,000     N/A         9                                                                                                   $4,718       $6,575       $4,718             $16,010
              Bryn Mawr, PA                               Home Loan                                                   6/16/2011         $100,000         100,000    Transfer of cap due to servicing transfer
                                                          Modifications
                                                                                                                      1/22/2010           $30,000        650,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010        ($580,000)         70,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010        $1,430,000       1,500,000   Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010           $95,612       1,595,612   Updated portfolio data from servicer
              Citizens 1st National Bank,                 Instrument for
12/16/2009                                  Purchase                                  $620,000     N/A                                                                                                             $7,250     $20,338      $18,317              $45,905
              Spring Valley, IL                           Home Loan                                                    1/6/2011               ($2)      1,595,610   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($3)      1,595,607
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I April 25, 2012




                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($24)      1,595,583
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            301
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (continued)                                                                                                                                                                        302
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                   TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                      1/22/2010           $10,000        180,000    Updated HPDP cap & HAFA initial cap

                                                          Financial                                                   3/26/2010           $30,000        210,000    Updated portfolio data from servicer
              Golden Plains Credit Union,                 Instrument for
12/16/2009                                  Purchase                                  $170,000     N/A                7/14/2010          ($10,000)       200,000    Updated portfolio data from servicer              $—           $—           $—                   $—
              Garden City, KS                             Home Loan
                                                          Modifications                                               9/30/2010           $90,111        290,111    Updated portfolio data from servicer
                                                                                                                      2/17/2011        ($290,111)              —    Termination of SPA
                                                          Financial                                                   1/22/2010         $160,000        3,620,000   Updated HPDP cap & HAFA initial cap
              First Federal Savings
                                                          Instrument for
12/16/2009    and Loan Association of       Purchase                                 $3,460,000    N/A                                                                                                                $—           $—           $—                   $—
                                                          Home Loan                                                   4/21/2010       ($3,620,000)             —    Termination of SPA
              Lakewood, Lakewood, OH
                                                          Modifications
                                                                                                                      1/22/2010           $20,000        460,000    Updated HPDP cap & HAFA initial cap
                                                          Financial
              Sound Community Bank,                       Instrument for                                              3/26/2010        $1,430,000       1,890,000   Updated portfolio data from servicer
12/16/2009                                  Purchase                                  $440,000     N/A                                                                                                                $—           $—           $—                   $—
              Seattle, WA                                 Home Loan                                                   7/14/2010        ($390,000)       1,500,000   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                       9/8/2010       ($1,500,000)             —    Termination of SPA
                                                                                                                      1/22/2010           $30,000        730,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010        $1,740,000       2,470,000   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I April 25, 2012




                                                                                                                      7/14/2010       ($1,870,000)       600,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010         $850,556        1,450,556   Updated portfolio data from servicer
              Horizon Bank, NA,                           Instrument for
12/16/2009                                  Purchase                                  $700,000     N/A                                                                                                                $—           $—           $—                   $—
              Michigan City, IN                           Home Loan                                                    1/6/2011               ($2)      1,450,554   Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($2)      1,450,552
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($23)      1,450,529
                                                                                                                                                                    reallocation
                                                                                                                      1/22/2010           $40,000        800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010         $140,000         940,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010        ($140,000)        800,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                      9/30/2010           $70,334        870,334    Updated portfolio data from servicer
              Park View Federal Savings                   Instrument for
12/16/2009                                  Purchase                                  $760,000     N/A                                                                                                             $7,000     $22,089      $15,000              $44,089
              Bank, Solon, OH                             Home Loan                                                    1/6/2011               ($1)       870,333    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($1)       870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($12)       870,320
                                                                                                                                                                    reallocation
                                                                                                                      1/22/2010         $200,000        4,430,000   Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010       ($1,470,000)      2,960,000   Updated portfolio data from servicer
                                                                                                                      7/14/2010       ($1,560,000)      1,400,000   Updated portfolio data from servicer
                                                          Financial                                                   9/30/2010        $5,852,780       7,252,780   Updated portfolio data from servicer
                                                          Instrument for
12/23/2009    Iberiabank, Sarasota, FL      Purchase                                 $4,230,000    N/A         12      1/6/2011              ($11)      7,252,769   Updated portfolio data from servicer              $—      $10,502      $15,000              $25,502
                                                          Home Loan
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011              ($13)      7,252,756
                                                                                                                                                                    reallocation
                                                                                                                      4/13/2011        ($300,000)       6,952,756   Transfer of cap due to servicing transfer
                                                                                                                       6/3/2011       ($6,927,254)        25,502    Termination of SPA
                                                                                                                      1/22/2010           $20,000        360,000    Updated HPDP cap & HAFA initial cap
                                                                                                                      3/26/2010        ($320,000)         40,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010         $760,000         800,000    Updated portfolio data from servicer

                                                          Financial                                                   9/30/2010          ($74,722)       725,278    Updated portfolio data from servicer
              Grafton Suburban Credit                     Instrument for                                               1/6/2011               ($1)       725,277    Updated portfolio data from servicer
12/23/2009                                  Purchase                                  $340,000     N/A                                                                                                                $—           $—           $—                   $—
              Union, North Garden, MA                     Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                      3/30/2011               ($1)       725,276
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($11)       725,265
                                                                                                                                                                    reallocation
                                                                                                                      1/25/2012        ($725,265)              —    Termination of SPA
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                  (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                  TARP Incentive Payments
                                                                               Cap of Investment
                                                                             Payments on Behalf
                                                                             of Borrowers and to                                                                                                                             Lenders/                       Total TARP
                                             Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                             Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                     Incentives   Incentives   Incentives          Payments
                                                                                                                       1/22/2010               $—          60,000    Updated HPDP cap & HAFA initial cap

                                                           Financial                                                   3/26/2010          $90,000         150,000    Updated portfolio data from servicer
              Eaton National Bank & Trust                  Instrument for
12/23/2009                                   Purchase                                    $60,000    N/A                7/14/2010          $50,000         200,000    Updated portfolio data from servicer            $—           $—           $—                   $—
              Company, Eaton, OH                           Home Loan
                                                           Modifications                                               9/30/2010         ($54,944)        145,056    Updated portfolio data from servicer
                                                                                                                       5/20/2011        ($145,056)              —    Termination of SPA
                                                                                                                       1/22/2010               $—         110,000    Updated HPDP cap & HAFA initial cap

                                                           Financial                                                   3/26/2010         ($20,000)         90,000    Updated portfolio data from servicer
              Tempe Schools Credit                         Instrument for
12/23/2009                                   Purchase                                  $110,000     N/A                7/14/2010          $10,000         100,000    Updated portfolio data from servicer            $—           $—           $—                   $—
              Union, Tempe, AZ                             Home Loan
                                                           Modifications                                               9/30/2010          $45,056         145,056    Updated portfolio data from servicer
                                                                                                                       12/8/2010        ($145,056)              —    Termination of SPA
                                                                                                                       3/26/2010         $480,000         740,000    Updated portfolio data from servicer
                                                                                                                       7/14/2010        ($140,000)        600,000    Updated portfolio data from servicer

                                                           Financial                                                   9/30/2010         ($19,778)        580,222    Updated portfolio data from servicer
              Fresno County Federal                        Instrument for                                               1/6/2011               ($1)       580,221    Updated portfolio data from servicer
1/13/2010                                    Purchase                                  $260,000     N/A                                                                                                           $3,833     $11,137        $7,917             $22,887
              Credit Union, Fresno, CA                     Home Loan
                                                           Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       3/30/2011               ($1)       580,220
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                       6/29/2011               ($8)       580,212
                                                                                                                                                                     reallocation
                                                                                                                       3/26/2010         $610,000         850,000    Updated portfolio data from servicer

                                                           Financial                                                   7/14/2010          $50,000         900,000    Updated portfolio data from servicer
                                                           Instrument for
1/13/2010     Roebling Bank, Roebling, NJ    Purchase                                  $240,000     N/A                9/30/2010         ($29,666)        870,334    Updated portfolio data from servicer            $—           $—           $—                   $—
                                                           Home Loan
                                                           Modifications                                                1/6/2011               ($1)       870,333    Updated portfolio data from servicer
                                                                                                                       3/23/2011        ($870,333)              —    Termination of SPA
                                                                                                                       3/26/2010         $150,000         290,000    Updated portfolio data from servicer
                                                           Financial
              First National Bank of Grant                 Instrument for                                              7/14/2010          $10,000         300,000    Updated portfolio data from servicer
1/13/2010                                    Purchase                                  $140,000     N/A                                                                                                              $—           $—           $—                   $—
              Park, Grant Park, IL                         Home Loan                                                   9/30/2010           ($9,889)       290,111    Updated portfolio data from servicer
                                                           Modifications
                                                                                                                       1/26/2011        ($290,111)              —    Termination of SPA
                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                           303
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (continued)                                                                                                                                                                        304
Servicer Modifying Borrowers’ Loans                                                                                                                                                         Adjustment Details                                   TARP Incentive Payments
                                                                                Cap of Investment
                                                                              Payments on Behalf
                                                                              of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                              Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution             Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                         3/26/2010     ($51,240,000)    12,910,000    Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap from CitiMortgage, Inc.
                                                                                                                         5/14/2010       $3,000,000     15,910,000
                                                                                                                                                                      due to servicing transfer
                                                                                                                                                                      Transfer of cap from CitiMortgage, Inc.
                                                                                                                         6/16/2010       $4,860,000     20,770,000
                                                                                                                                                                      due to servicing transfer
                                                                                                                         7/14/2010       $3,630,000     24,400,000    Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap from CitiMortgage, Inc.
                                                                                                                         7/16/2010         $330,000     24,730,000
                                                                                                                                                                      due to servicing transfer
                                                                                                                         8/13/2010         $700,000     25,430,000    Transfer of cap due to servicing transfer
                                                                                                                         9/15/2010         $200,000     25,630,000    Transfer of cap due to servicing transfer
                                                                                                                         9/30/2010      ($1,695,826)    23,934,174    Updated portfolio data from servicer
                                                                                                                        11/16/2010         $200,000     24,134,174    Transfer of cap due to servicing transfer
                                                                                                                          1/6/2011             ($32)    24,134,142    Updated portfolio data from servicer
                                                                                                                         1/13/2011       $1,500,000     25,634,142    Transfer of cap due to servicing transfer
                                                            Financial
              Specialized Loan Servicing,                   Instrument for                                               3/16/2011       $7,100,000     32,734,142    Transfer of cap due to servicing transfer
1/13/2010                                     Purchase                               $64,150,000     N/A                                                                                                           $833,543    $2,041,681   $1,547,550         $4,422,774
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I April 25, 2012




              LLC, Highlands Ranch, CO                      Home Loan
                                                            Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                         3/30/2011             ($36)    32,734,106
                                                                                                                                                                      reallocation
                                                                                                                         4/13/2011       $1,000,000     33,734,106    Transfer of cap due to servicing transfer
                                                                                                                         5/13/2011         $100,000     33,834,106    Transfer of cap due to servicing transfer
                                                                                                                         6/16/2011         $300,000     34,134,106    Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011            ($332)    34,133,774
                                                                                                                                                                      reallocation
                                                                                                                         8/16/2011         $100,000     34,233,774    Transfer of cap due to servicing transfer
                                                                                                                         9/15/2011         $300,000     34,533,774    Transfer of cap due to servicing transfer
                                                                                                                        10/14/2011         $300,000     34,833,774    Transfer of cap due to servicing transfer
                                                                                                                        12/15/2011      ($1,700,000)    33,133,774    Transfer of cap due to servicing transfer
                                                                                                                         1/13/2012       $1,600,000     34,733,774    Transfer of cap due to servicing transfer
                                                                                                                         2/16/2012         $100,000     34,833,774    Transfer of cap due to servicing transfer
                                                                                                                         3/15/2012         $100,000     34,933,774    Transfer of cap due to servicing transfer
                                                                                                                         3/26/2010       $8,680,000       9,450,000   Updated portfolio data from servicer
                                                                                                                         7/14/2010      ($8,750,000)       700,000    Updated portfolio data from servicer

                                                            Financial                                                    9/30/2010         $170,334        870,334    Updated portfolio data from servicer
              Greater Nevada Mortgage                       Instrument for                                                1/6/2011              ($1)       870,333    Updated portfolio data from servicer
1/13/2010                                     Purchase                                  $770,000     N/A                                                                                                            $27,411      $68,777      $56,945            $153,133
              Services, Carson City, NV                     Home Loan
                                                            Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                         3/30/2011              ($1)       870,332
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011              ($8)       870,324
                                                                                                                                                                      reallocation
                                                            Financial                                                    3/26/2010      $12,190,000     15,240,000    Updated portfolio data from servicer
              Digital Federal Credit Union,                 Instrument for
1/15/2010                                     Purchase                                 $3,050,000    N/A                                                                                                                $—           $—           $—                   $—
              Marlborough, MA                               Home Loan                                                    5/14/2010     ($15,240,000)             —    Termination of SPA
                                                            Modifications
                                                                                                                         3/26/2010       ($730,000)        230,000    Updated portfolio data from servicer
                                                                                                                         7/14/2010         $370,000        600,000    Updated portfolio data from servicer
                                                                                                                         9/30/2010         $200,000        800,000    Initial FHA-HAMP cap and initial 2MP cap

                                                            Financial                                                    9/30/2010       ($364,833)        435,167    Updated portfolio data from servicer
              iServe Residential Lending,                   Instrument for                                              11/16/2010         $100,000        535,167    Transfer of cap due to servicing transfer
1/29/2010                                     Purchase                                  $960,000     N/A                                                                                                                $—           $—           $—                   $—
              LLC, San Diego, CA                            Home Loan
                                                            Modifications                                                 1/6/2011              ($1)       535,166    Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         3/30/2011              ($1)       535,165
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                         6/29/2011              ($7)       535,158
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                  TARP Incentive Payments
                                                                             Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                      3/26/2010         $160,000        700,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010          $25,278        725,278    Updated portfolio data from servicer
                                                         Financial
                                                                                                                       1/6/2011              ($1)       725,277    Updated portfolio data from servicer
                                                         Instrument for
1/29/2010     United Bank, Griffin, GA     Purchase                                  $540,000     N/A                                                                                                             $1,000         $751       $3,000              $4,751
                                                         Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                                3/30/2011              ($1)       725,276
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($11)       725,265
                                                                                                                                                                   reallocation
                                                         Financial                                                    7/14/2010       $4,440,000       5,500,000   Updated portfolio data from servicer
              Urban Trust Bank,                          Instrument for
3/3/2010                                   Purchase                                 $1,060,000    N/A                                                                                                                $—           $—           $—                   $—
              Lake Mary, FL                              Home Loan                                                    9/24/2010      ($5,500,000)             —    Termination of SPA
                                                         Modifications
                                                                                                                      5/26/2010         $120,000     28,160,000    Initial 2MP cap
                                                                                                                      7/14/2010     ($12,660,000)    15,500,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010         $100,000     15,600,000    Initial FHA-HAMP cap

                                                         Financial                                                    9/30/2010      ($3,125,218)    12,474,782    Updated portfolio data from servicer
              iServe Servicing, Inc.,                    Instrument for                                              11/16/2010         $800,000     13,274,782    Transfer of cap due to servicing transfer
3/5/2010                                   Purchase                               $28,040,000     N/A                                                                                                                $—           $—           $—                   $—
              Irving, TX                                 Home Loan
                                                         Modifications                                                 1/6/2011             ($20)    13,274,762    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($24)    13,274,738
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($221)    13,274,517
                                                                                                                                                                   reallocation
                                                                                                                      7/14/2010     ($44,880,000)    15,900,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010       $1,071,505     16,971,505    Updated portfolio data from servicer
                                                         Financial
                                                                                                                       1/6/2011             ($23)    16,971,482    Updated portfolio data from servicer
              Navy Federal Credit Union,                 Instrument for
3/10/2010                                  Purchase                               $60,780,000     N/A                                                                                                            $92,469    $372,593     $292,469             $757,530
              Vienna, VA                                 Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                                3/30/2011             ($26)    16,971,456
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($238)    16,971,218
                                                                                                                                                                   reallocation
                                                                                                                      7/14/2010         $400,000        700,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010          $25,278        725,278    Updated portfolio data from servicer
                                                         Financial
                                                                                                                       1/6/2011              ($1)       725,277    Updated portfolio data from servicer
              Vist Financial Corp,                       Instrument for
3/10/2010                                  Purchase                                  $300,000     N/A                                                                                                                $—           $—           $—                   $—
              Wyomissing, PA                             Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                                3/30/2011              ($1)       725,276
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($11)       725,265
                                                                                                                                                                   reallocation
                                                                                                                      7/14/2010         $300,000        600,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010         ($19,778)       580,222    Updated portfolio data from servicer

                                                         Financial                                                     1/6/2011              ($1)       580,221    Updated portfolio data from servicer
              Midwest Bank and Trust                     Instrument for                                                                                            Updated due to quarterly assessment and
4/14/2010                                  Purchase                                  $300,000     N/A                 3/30/2011              ($1)       580,220                                                      $—           $—           $—                   $—
              Co., Elmwood Park, IL                      Home Loan                                                                                                 reallocation
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($8)       580,212
                                                                                                                                                                   reallocation
                                                                                                                      7/14/2011       ($580,212)              —    Termination of SPA
                                                                                                                      7/14/2010       ($150,000)       6,400,000   Updated portfolio data from servicer
                                                                                                                      9/15/2010       $1,600,000       8,000,000   Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010      ($4,352,173)      3,647,827   Updated portfolio data from servicer
                                                         Financial
                                                                                                                       1/6/2011              ($5)      3,647,822   Updated portfolio data from servicer
              Wealthbridge Mortgage                      Instrument for
4/14/2010                                  Purchase                                 $6,550,000    N/A                                                                                                                $—           $—           $—                   $—
              Corp, Beaverton, OR                        Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                                3/30/2011              ($6)      3,647,816
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I April 25, 2012




                                                                                                                      4/13/2011      ($3,000,000)       647,816    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($9)       647,807
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           305
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (continued)                                                                                                                                                                        306
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                   TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                       5/26/2010          $30,000         40,000    Updated FHA-HAMP cap
                                                          Financial
              Aurora Financial Group,                     Instrument for                                               9/30/2010        $250,111         290,111    Updated portfolio data from servicer
5/21/2010                                   Purchase                                    $10,000    N/A         4, 8                                                                                               $17,334          $—      $20,239              $37,573
              Inc., Marlton, NJ                           Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       6/29/2011          $59,889        350,000
                                                                                                                                                                    reallocation
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                       6/16/2010       $3,680,000       3,680,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                       8/13/2010       $3,300,000       6,980,000   Transfer of cap due to servicing transfer
                                                                                                                       9/30/2010       $3,043,831     10,023,831    Updated portfolio data from servicer
                                                                                                                      10/15/2010       $1,400,000     11,423,831    Transfer of cap due to servicing transfer
                                                                                                                        1/6/2011             ($17)    11,423,814    Updated portfolio data from servicer
                                                          Financial                                                    3/16/2011       $2,100,000     13,523,814    Transfer of cap due to servicing transfer
              Selene Finance LP,                          Instrument for
6/16/2010                                   Purchase                                        $—     N/A         9                                                    Updated due to quarterly assessment and       $10,500     $27,077      $18,417              $55,994
              Houston, TX                                 Home Loan                                                    3/30/2011             ($24)    13,523,790
                                                          Modifications                                                                                             reallocation
                                                                                                                       4/13/2011       $2,900,000     16,423,790    Transfer of cap due to servicing transfer
                                                                                                                       6/16/2011       ($200,000)     16,223,790    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I April 25, 2012




                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011            ($273)    16,223,517
                                                                                                                                                                    reallocation
                                                                                                                      10/14/2011        $100,000      16,323,517    Transfer of cap due to servicing transfer
                                                                                                                      11/16/2011       $1,100,000     17,423,517    Transfer of cap due to servicing transfer
                                                                                                                       9/30/2010       $1,585,945       2,465,945   Updated portfolio data from servicer

                                                          Financial                                                     1/6/2011              ($4)      2,465,941   Updated portfolio data from servicer
              Suburban Mortgage
                                                          Instrument for                                                                                            Updated due to quarterly assessment and
8/4/2010      Company of New Mexico,        Purchase                                  $880,000     N/A                 3/30/2011              ($4)      2,465,937                                                     $—           $—           $—                   $—
                                                          Home Loan                                                                                                 reallocation
              Albequerque, NM
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($40)      2,465,897
                                                                                                                                                                    reallocation
                                                                                                                       9/30/2010       $1,040,667       1,740,667   Updated portfolio data from servicer
                                                                                                                        1/6/2011              ($2)      1,740,665   Updated portfolio data from servicer
                                                          Financial
                                                                                                                                                                    Updated due to quarterly assessment and
              Bramble Savings Bank,                       Instrument for                                               3/30/2011              ($3)      1,740,662
8/20/2010                                   Purchase                                  $700,000     N/A                                                              reallocation                                      $—           $—           $—                   $—
              Cincinnati, OH                              Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($28)      1,740,634
                                                                                                                                                                    reallocation
                                                                                                                       8/10/2011      ($1,740,634)             —    Termination of SPA
                                                                                                                       9/30/2010       $2,181,334       3,481,334   Updated portfolio data from servicer

                                                          Financial                                                     1/6/2011              ($5)      3,481,329   Updated portfolio data from servicer
              Pathfinder Bank,                            Instrument for                                                                                            Updated due to quarterly assessment and
8/25/2010                                   Purchase                                 $1,300,000    N/A                 3/30/2011              ($6)      3,481,323                                                    $917       $1,785       $1,917              $4,618
              Oswego, NY                                  Home Loan                                                                                                 reallocation
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($58)      3,481,265
                                                                                                                                                                    reallocation
                                                                                                                       9/30/2010       $7,014,337     11,314,337    Updated portfolio data from servicer

                                                          Financial                                                     1/6/2011             ($17)    11,314,320    Updated portfolio data from servicer
              First Financial Bank, N.A.,                 Instrument for                                                                                            Updated due to quarterly assessment and
8/27/2010                                   Purchase                                 $4,300,000    N/A                 3/30/2011             ($20)    11,314,300                                                      $—           $—           $—                   $—
              Terre Haute, ID                             Home Loan                                                                                                 reallocation
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011            ($192)    11,314,108
                                                                                                                                                                    reallocation
                                                                                                                       9/30/2010          $45,056        145,056    Updated portfolio data from servicer
                                                                                                                        1/6/2011          $34,944        180,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                                                                    Updated due to quarterly assessment and
                                                          Instrument for                                               3/30/2011          $40,000        220,000
9/1/2010      RBC Bank (USA), Raleigh, NC   Purchase                                  $100,000     N/A         4, 8                                                 reallocation                                  $22,735          $—      $23,617              $46,353
                                                          Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       6/29/2011          $50,000        270,000
                                                                                                                                                                    reallocation
                                                                                                                       3/15/2012       ($200,000)         70,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                      Adjustment Details                                   TARP Incentive Payments
                                                                             Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                      9/30/2010       $5,168,169       8,268,169   Updated portfolio data from servicer
                                                                                                                       1/6/2011             ($12)      8,268,157   Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($15)      8,268,142
                                                                                                                                                                   reallocation

                                                         Financial                                                    4/13/2011        $400,000        8,668,142   Transfer of cap due to servicing transfer
              Fay Servicing, LLC,                        Instrument for
9/3/2010                                   Purchase                                 $3,100,000    N/A                                                              Updated due to quarterly assessment and      $130,222    $269,522     $132,972             $532,715
              Chicago, IL                                Home Loan                                                    6/29/2011            ($143)      8,667,999
                                                                                                                                                                   reallocation
                                                         Modifications
                                                                                                                      9/15/2011        $700,000        9,367,999   Transfer of cap due to servicing transfer
                                                                                                                     10/14/2011        $100,000        9,467,999   Transfer of cap due to servicing transfer
                                                                                                                     11/16/2011        $200,000        9,667,999   Transfer of cap due to servicing transfer
                                                                                                                     12/15/2011       $1,700,000     11,367,999    Transfer of cap due to servicing transfer
                                                                                                                      9/15/2010       $1,000,000       1,000,000   Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010        $450,556        1,450,556   Updated portfolio data from servicer
                                                                                                                       1/6/2011              ($2)      1,450,554   Updated portfolio data from servicer
                                                                                                                      2/16/2011       $3,000,000       4,450,554   Transfer of cap due to servicing transfer

                                                         Financial                                                    3/16/2011      $10,200,000     14,650,554    Transfer of cap due to servicing transfer
              Vericrest Financial, Inc.,                 Instrument for                                                                                            Updated due to quarterly assessment and
9/15/2010                                  Purchase                                        $—     N/A         9       3/30/2011             ($24)    14,650,530                                                 $171,872    $485,957     $651,442           $1,309,271
              Oklahoma City, OK                          Home Loan                                                                                                 reallocation
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($227)    14,650,303
                                                                                                                                                                   reallocation
                                                                                                                      7/14/2011      $12,000,000     26,650,303    Transfer of cap due to servicing transfer
                                                                                                                     12/15/2011       $4,100,000     30,750,303    Transfer of cap due to servicing transfer
                                                                                                                      1/13/2012        $900,000      31,650,303    Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010        $180,222         580,222    Updated portfolio data from servicer

                                                         Financial                                                     1/6/2011              ($1)       580,221    Updated portfolio data from servicer
              Midwest Community Bank,                    Instrument for                                                                                            Updated due to quarterly assessment and
9/15/2010                                  Purchase                                  $400,000     N/A                 3/30/2011              ($1)       580,220                                                   $1,000         $909       $2,000              $3,909
              Freeport, IL                               Home Loan                                                                                                 reallocation
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($8)       580,212
                                                                                                                                                                   reallocation
                                                         Financial                                                    9/30/2010          $45,056        145,056    Updated portfolio data from servicer
              American Finance House                     Instrument for
9/24/2010                                  Purchase                                  $100,000     N/A                                                                                                                $—           $—           $—                   $—
              LARIBA, Pasadena, CA                       Home Loan                                                     2/2/2011       ($145,056)              —    Termination of SPA
                                                         Modifications

                                                         Financial                                                    9/30/2010        $856,056        2,756,056   Updated portfolio data from servicer
                                                         Instrument for
9/24/2010     Centrue Bank, Ottawa, IL     Purchase                                 $1,900,000    N/A                  1/6/2011              ($4)      2,756,052   Updated portfolio data from servicer              $—           $—           $—                   $—
                                                         Home Loan
                                                         Modifications                                                 3/9/2011      ($2,756,052)             —    Termination of SPA
                                                         Financial                                                    9/30/2010          $45,056        145,056    Updated portfolio data from servicer
              AgFirst Farm Credit Bank,                  Instrument for
9/30/2010                                  Purchase                                  $100,000     N/A                                                                                                                $—           $—           $—                   $—
              Columbia, SC                               Home Loan                                                    3/23/2011       ($145,056)              —    Termination of SPA
                                                         Modifications
                                                         Financial                                                    9/30/2010          $45,056        145,056    Updated portfolio data from servicer
              Amarillo National Bank,                    Instrument for
9/30/2010                                  Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and           $—           $—           $—                   $—
              Amarillo, TX                               Home Loan                                                    6/29/2011                         145,055
                                                         Modifications                                                                                             reallocation

                                                         Financial                                                    9/30/2010          $45,056        145,056    Updated portfolio data from servicer
              American Financial
                                                         Instrument for
9/30/2010     Resources Inc.,              Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and           $—           $—           $—                   $—
                                                         Home Loan                                                    6/29/2011                         145,055
              Parsippany, NJ                                                                                                                                       reallocation
                                                         Modifications
                                                                                                                      9/30/2010        $765,945        2,465,945   Updated portfolio data from servicer

                                                         Financial                                                     1/6/2011              ($3)      2,465,942   Updated portfolio data from servicer
              Banco Popular de Puerto                    Instrument for                                       4,
                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I April 25, 2012




9/30/2010                                  Purchase                                 $1,700,000    N/A                                                              Updated due to quarterly assessment and           $—           $—           $—                   $—
              Rico, San Juan, PR                         Home Loan                                            5, 8    3/30/2011              ($4)      2,465,938
                                                                                                                                                                   reallocation
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($36)      2,465,902
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           307
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                   (continued)                                                                                                                                                                      308
Servicer Modifying Borrowers’ Loans                                                                                                                                                        Adjustment Details                                  TARP Incentive Payments
                                                                                Cap of Investment
                                                                              Payments on Behalf
                                                                              of Borrowers and to                                                                                                                             Lenders/                       Total TARP
                                              Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                             Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution             Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                     Incentives   Incentives   Incentives          Payments
                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              Capital International
                                                            Instrument for
9/30/2010     Financial, Inc.,                Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
                                                            Home Loan                                                   6/29/2011               ($1)       145,055
              Coral Gables, FL                                                                                                                                        reallocation
                                                            Modifications

                                                            Financial                                                   9/30/2010         $360,445        1,160,445   Updated portfolio data from servicer
              Citizens Community Bank,                      Instrument for
9/24/2010                                     Purchase                                  $800,000     N/A                 1/6/2011               ($2)      1,160,443   Updated portfolio data from servicer            $—           $—           $—                   $—
              Freeburg, IL                                  Home Loan
                                                            Modifications                                               3/23/2011       ($1,160,443)             —    Termination of SPA
                                                                                                                        9/30/2010         $901,112        2,901,112   Updated portfolio data from servicer

                                                            Financial                                                    1/6/2011               ($4)      2,901,108   Updated portfolio data from servicer
              Community Credit Union of                     Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                     Purchase                                 $2,000,000    N/A         6      3/30/2011               ($5)      2,901,103                                                   $—           $—           $—                   $—
              Florida, Rockledge, FL                        Home Loan                                                                                                 reallocation
                                                            Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($48)      2,901,055
                                                                                                                                                                      reallocation
                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              CU Mortgage Services,                         Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Inc., New Brighton, MN                        Home Loan                                                   6/29/2011               ($1)       145,055
                                                            Modifications                                                                                             reallocation
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I April 25, 2012




                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              First Federal Bank of                         Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Florida, Lake City, FL                        Home Loan                                                   6/29/2011               ($1)       145,055
                                                            Modifications                                                                                             reallocation

                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              First Mortgage Coporation,                    Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Diamond Bar, CA                               Home Loan                                                   6/29/2011               ($1)       145,055
                                                            Modifications                                                                                             reallocation

                                                            Financial                                                   9/30/2010         $180,222         580,222    Updated portfolio data from servicer
                                                            Instrument for
9/30/2010     First Safety Bank, Cincinnati   Purchase                                  $400,000     N/A                 1/6/2011                          580,221    Updated portfolio data from servicer            $—           $—           $—                   $—
                                                            Home Loan
                                                            Modifications                                               3/23/2011        ($580,221)              —    Termination of SPA
                                                                                                                        9/30/2010         $360,445        1,160,445   Updated portfolio data from servicer

                                                            Financial                                                    1/6/2011               ($2)      1,160,443   Updated portfolio data from servicer
              Flagstar Capital Markets                      Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                     Purchase                                  $800,000     N/A         7, 8   3/30/2011               ($2)      1,160,441                                                   $—           $—           $—                   $—
              Corporation, Troy, MI                         Home Loan                                                                                                 reallocation
                                                            Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($18)      1,160,423
                                                                                                                                                                      reallocation
                                                                                                                        9/30/2010         $765,945        2,465,945   Updated portfolio data from servicer

                                                            Financial                                                    1/6/2011               ($4)      2,465,941   Updated portfolio data from servicer
              Franklin Savings,                             Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                     Purchase                                 $1,700,000    N/A         4      3/30/2011               ($4)      2,465,937                                                   $—          $881       $1,000              $1,881
              Cincinnati, OH                                Home Loan                                                                                                 reallocation
                                                            Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($40)      2,465,897
                                                                                                                                                                      reallocation
                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              Gateway Mortgage Group,                       Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              LLC, Tulsa, OK                                Home Loan                                                   6/29/2011               ($1)       145,055
                                                            Modifications                                                                                             reallocation

                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              GFA Federal Credit Union,                     Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A                                                                                                              $—           $—           $—                   $—
              Gardner, MA                                   Home Loan                                                   3/23/2011        ($145,056)              —    Termination of SPA
                                                            Modifications
                                                            Financial                                                   9/30/2010           $45,056        145,056    Updated portfolio data from servicer
              Guaranty Bank,                                Instrument for
9/30/2010                                     Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and        $917          $—        $1,000              $1,917
              Saint Paul, MN                                Home Loan                                                   6/29/2011               ($1)       145,055
                                                            Modifications                                                                                             reallocation

                                                                                                                        9/30/2010         $135,167         435,167    Updated portfolio data from servicer

                                                            Financial                                                    1/6/2011               ($1)       435,166    Updated portfolio data from servicer
              James B. Nutter &                             Instrument for                                                                                            Updated due to quarterly assessment and
9/24/2010                                     Purchase                                  $300,000     N/A         4, 8   3/30/2011               ($1)       435,165                                                   $750          $—        $1,000              $1,750
              Company, Kansas City, MO                      Home Loan                                                                                                 reallocation
                                                            Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                        6/29/2011               ($6)       435,159
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                     (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                          Adjustment Details                                  TARP Incentive Payments
                                                                                  Cap of Investment
                                                                                Payments on Behalf
                                                                                of Borrowers and to                                                                                                                             Lenders/                       Total TARP
                                                Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                             Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution               Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                     Incentives   Incentives   Incentives          Payments
                                                                                                                          9/30/2010         $450,556        1,450,556   Updated portfolio data from servicer

                                                              Financial                                                    1/6/2011               ($2)      1,450,554   Updated portfolio data from servicer
              Liberty Bank and Trust Co,                      Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                       Purchase                                 $1,000,000    N/A                3/30/2011               ($2)      1,450,552                                                   $—           $—           $—                   $—
              New Orleans, LA                                 Home Loan                                                                                                 reallocation
                                                              Modifications
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                          6/29/2011              ($23)      1,450,529
                                                                                                                                                                        reallocation
                                                                                                                          9/30/2010         $315,389        1,015,389   Updated portfolio data from servicer

                                                              Financial                                                    1/6/2011               ($1)      1,015,388   Updated portfolio data from servicer
                                                              Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010     M&T Bank, Buffalo, NY             Purchase                                  $700,000     N/A         4, 8   3/30/2011               ($1)      1,015,387                                               $24,940          $—       $26,587             $51,527
                                                              Home Loan                                                                                                 reallocation
                                                              Modifications
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                          6/29/2011              ($11)      1,015,376
                                                                                                                                                                        reallocation
                                                                                                                          9/30/2010         $630,778        2,030,778   Updated portfolio data from servicer

                                                              Financial                                                    1/6/2011               ($3)      2,030,775   Updated portfolio data from servicer
              Magna Bank,                                     Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                       Purchase                                 $1,400,000    N/A         5      3/30/2011               ($3)      2,030,772                                                   $—           $—           $—                   $—
              Germantown, TN                                  Home Loan                                                                                                 reallocation
                                                              Modifications
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                          6/29/2011              ($33)      2,030,739
                                                                                                                                                                        reallocation

                                                              Financial                                                   9/30/2010         $225,278         725,278    Updated portfolio data from servicer
              Mainstreet Credit Union,                        Instrument for
9/30/2010                                       Purchase                                  $500,000     N/A                 1/6/2011               ($1)       725,277    Updated portfolio data from servicer            $—           $—           $—                   $—
              Lexena, KS                                      Home Loan
                                                              Modifications                                                3/9/2011        ($725,277)              —    Termination of SPA
                                                              Financial                                                   9/30/2010          $45,056         145,056    Updated portfolio data from servicer
              Marsh Associates, Inc.,                         Instrument for
9/30/2010                                       Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and      $1,289          $—        $1,553              $2,842
              Charlotte, NC                                   Home Loan                                                   6/29/2011               ($1)       145,055
                                                              Modifications                                                                                             reallocation

                                                                                                                          9/30/2010       $49,915,806     93,415,806    Updated portfolio data from servicer

                                                              Financial                                                    1/6/2011            ($125)     93,415,681    Updated portfolio data from servicer
              Midland Mortgage                                Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                       Purchase                               $43,500,000     N/A         4, 5   3/30/2011            ($139)     93,415,542                                              $1,192,956   $117,905     $1,492,992         $2,803,854
              Company, Oklahoma, OK                           Home Loan                                                                                                 reallocation
                                                              Modifications
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                          6/29/2011           ($1,223)    93,414,319
                                                                                                                                                                        reallocation
                                                              Financial                                                   9/30/2010          $45,056         145,056    Updated portfolio data from servicer
              Schmidt Mortgage                                Instrument for
9/30/2010                                       Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Company, Rocky River, OH                        Home Loan                                                   6/29/2011               ($1)       145,055
                                                              Modifications                                                                                             reallocation

                                                              Financial                                                   9/30/2010          $45,056         145,056    Updated portfolio data from servicer
              Stockman Bank of                                Instrument for
9/30/2010                                       Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Montana, Miles City, MT                         Home Loan                                                   6/29/2011               ($1)       145,055
                                                              Modifications                                                                                             reallocation

                                                              Financial                                                   9/30/2010         $270,334         870,334    Updated portfolio data from servicer
              University First Federal Credit                 Instrument for
9/30/2010                                       Purchase                                  $600,000     N/A                 1/6/2011               ($1)       870,333    Updated portfolio data from servicer            $—           $—           $—                   $—
              Union, Salt Lake City, UT                       Home Loan
                                                              Modifications                                               2/17/2011        ($870,333)              —    Termination of SPA
                                                              Financial                                                   9/30/2010          $45,056         145,056    Updated portfolio data from servicer
              Weststar Mortgage, Inc.,                        Instrument for
9/30/2010                                       Purchase                                  $100,000     N/A         4, 8                                                 Updated due to quarterly assessment and         $—           $—           $—                   $—
              Woodbridge, VA                                  Home Loan                                                   6/29/2011               ($1)       145,055
                                                              Modifications                                                                                             reallocation

                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                              309
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                 (continued)                                                                                                                                                                        310
Servicer Modifying Borrowers’ Loans                                                                                                                                                       Adjustment Details                                   TARP Incentive Payments
                                                                              Cap of Investment
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                               Lenders/                       Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                               Borrower’s    Investors    Servicers           Incentive
Date          Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount     Adjusted Cap   Reason for Adjustment                       Incentives   Incentives   Incentives          Payments
                                                                                                                      12/15/2010       $5,000,000       5,000,000   Updated portfolio data from servicer
                                                                                                                        1/6/2011              ($7)      4,999,993   Updated portfolio data from servicer
                                                                                                                       2/16/2011        $500,000        5,499,993   Transfer of cap due to servicing transfer

                                                          Financial                                                    3/16/2011        $100,000        5,599,993   Transfer of cap due to servicing transfer
              Statebridge Company, LLC,                   Instrument for                                                                                            Updated due to quarterly assessment and
12/15/2010                                  Purchase                                        $—     N/A         9       3/30/2011              ($9)      5,599,984                                                     $—           $—           $—                   $—
              Denver, CO                                  Home Loan                                                                                                 reallocation
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                       6/29/2011             ($85)      5,599,899
                                                                                                                                                                    reallocation
                                                                                                                      11/16/2011      ($2,500,000)      3,099,899   Transfer of cap due to servicing transfer
                                                                                                                       3/15/2012        $200,000        3,299,899   Transfer of cap due to servicing transfer
                                                                                                                      12/15/2010       $4,300,000       4,300,000   Updated portfolio data from servicer
                                                          Financial
              Scotiabank de Puerto Rico,                  Instrument for                                                1/6/2011              ($4)      4,299,996   Updated portfolio data from servicer
12/15/2010                                  Purchase                                        $—     N/A         9                                                                                                 $210,340    $310,404     $244,752             $765,496
              San Juan, PR                                Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                       6/29/2011              ($5)      4,299,991
                                                                                                                                                                    reallocation
                                                                                                                       4/13/2011        $200,000         200,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I April 25, 2012




                                                                                                                       5/13/2011        $100,000         300,000    Transfer of cap due to servicing transfer
                                                          Financial
              AmTrust Bank, A Division of
                                                          Instrument for                                               6/16/2011        $300,000         600,000    Transfer of cap due to servicing transfer
4/13/2011     New York Community Bank,      Purchase                                        $—     N/A         9                                                                                                   $6,000     $25,472      $13,400              $44,872
                                                          Home Loan
              Cleveland, OH                                                                                                                                         Updated due to quarterly assessment and
                                                          Modifications                                                6/29/2011              ($9)       599,991
                                                                                                                                                                    reallocation
                                                                                                                       8/16/2011        $200,000         799,991    Transfer of cap due to servicing transfer
                                                          Financial
                                                          Instrument for
4/13/2011     SunTrust Mortgage, Inc.       Purchase                                        $—     N/A         9       4/13/2011        $100,000         100,000    Transfer of cap due to servicing transfer         $—           $—           $—                   $—
                                                          Home Loan
                                                          Modifications
                                                                                                                       4/13/2011       $1,000,000       1,000,000   Transfer of cap due to servicing transfer
                                                          Financial
              Urban Partnership Bank,                     Instrument for                                                                                            Updated due to quarterly assessment and
4/13/2011                                   Purchase                                        $—     N/A         9       6/29/2011        $233,268        1,233,268                                                 $68,008    $147,827      $71,500             $287,335
              Chicago, IL                                 Home Loan                                                                                                 reallocation
                                                          Modifications
                                                                                                                      11/16/2011        $100,000        1,333,268   Transfer of cap due to servicing transfer
                                                          Financial                                                    4/13/2011        $200,000         200,000    Transfer of cap due to servicing transfer
              Western Federal Credit                      Instrument for
4/13/2011                                   Purchase                                        $—     N/A         9                                                    Updated due to quarterly assessment and        $7,417     $20,405      $10,917              $38,739
              Union, Hawthorne, CA                        Home Loan                                                    6/29/2011          $17,687        217,687
                                                          Modifications                                                                                             reallocation

                                                                                                                       5/13/2011        $500,000         500,000    Transfer of cap due to servicing transfer
                                                                                                                       6/16/2011        $100,000         600,000    Transfer of cap due to servicing transfer
                                                          Financial                                                                                                 Updated due to quarterly assessment and
              FCI Lender Services, Inc.,                  Instrument for                                               6/29/2011              ($9)       599,991
5/13/2011                                   Purchase                                        $—     N/A         9                                                    reallocation                                  $11,672     $21,829      $12,781              $46,281
              Anaheim Hills, CA                           Home Loan
                                                          Modifications                                                7/14/2011        $200,000         799,991    Transfer of cap due to servicing transfer
                                                                                                                       9/15/2011        $100,000         899,991    Transfer of cap due to servicing transfer
                                                                                                                      11/16/2011       $2,500,000       3,399,991   Transfer of cap due to servicing transfer

                                                          Financial                                                    7/14/2011        $200,000         200,000    Transfer of cap due to servicing transfer
              Gregory Funding, LLC,                       Instrument for
7/14/2011                                   Purchase                                        $—     N/A         9      11/16/2011        $900,000        1,100,000   Transfer of cap due to servicing transfer     $27,076     $61,342      $28,391             $116,810
              Beaverton, OR                               Home Loan
                                                          Modifications                                                1/13/2012        $100,000        1,200,000   Transfer of cap due to servicing transfer
                                                          Financial
              Bangor Savings Bank,                        Instrument for
9/15/2011                                   Purchase                                        $—     N/A         9       9/15/2011        $100,000         100,000    Transfer of cap due to servicing transfer         $—           $—           $—                   $—
              Bangor, ME                                  Home Loan
                                                          Modifications
                                                          Financial
              PHH Mortgage Corporation,                   Instrument for
9/15/2011                                   Purchase                                        $—     N/A         9       9/15/2011       $1,300,000       1,300,000   Transfer of cap due to servicing transfer         $—           $—           $—                   $—
              Mt. Laurel, NJ                              Home Loan
                                                          Modifications
                                                          Financial
              Rushmore Loan
                                                          Instrument for
12/15/2011    Management Services LLC,      Purchase                                        $—     N/A         9      12/15/2011        $200,000         200,000    Transfer of cap due to servicing transfer      $2,917     $15,716        $3,917             $22,549
                                                          Home Loan
              Irvine, CA
                                                          Modifications
                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/31/2012                                                        (continued)
Servicer Modifying Borrowers’ Loans                                                                                                                                                                               Adjustment Details                                                            TARP Incentive Payments
                                                                                    Cap of Investment
                                                                                  Payments on Behalf
                                                                                  of Borrowers and to                                                                                                                                                                   Lenders/                                Total TARP
                                              Transaction     Investment         Servicers & Lenders/      Pricing                  Adjustment       Cap Adjustment                                                                              Borrower’s             Investors           Servicers             Incentive
Date            Name of Institution           Type            Description             Investors (Cap)1     Mechanism      Note            Date              Amount         Adjusted Cap     Reason for Adjustment                                Incentives            Incentives          Incentives            Payments
                                                              Financial
                Sun West Mortgage                             Instrument for
                                              Purchase                                              $—     N/A            9         1/13/2012               $100,000            100,000     Transfer of cap due to servicing transfer
                Company, Inc, Cerritos, CA                    Home Loan
                                                              Modifications
                                                              Financial
                PrimeWest Mortgage                            Instrument for
                                              Purchase                                              $—     N/A            9         3/15/2012               $100,000            100,000     Transfer of cap due to servicing transfer
                Corporation, Lubbock, TX                      Home Loan
                                                              Modifications
                                                           Total Initial Cap        $23,831,570,000                      Total Cap Adjustment       $6,049,878,662                                                                  Totals   $527,538,888      $1,334,205,806         $842,916,079        $2,704,660,773
                                                                                              Total Cap                                           $29,881,448,662
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes are taken verbatim from Treasury’s 3/27/2012, Transactions Report-Housing Programs.
1
 	The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors.
    The Cap is subject to adjustment based on the total amount allocated to the program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
 	 On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
 	 Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4
 	 Initial cap amount includes FHA-HAMP.
5
 	 Initial cap amount includes RD-HAMP.
6
 	 Initial cap amount includes 2MP.
7
 	 Initial cap amount includes FHA-2LP.
8
 	 Initial cap does not include HAMP.
9
 	 This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
  	 The amendment reflects a change in the legal name of the institution.
11
  	 MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 02/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.  
12
  	 The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.  
13
  	 Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, Inc. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior prior to such merger.  
14
  	 In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.  

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program.

Source: Treasury, Transactions Report-Housing Programs, 3/27/2012.
                                                                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                                                                              311
Table D.13                                                                                                                                                                                                               312
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 3/31/2012
                   Seller
                                                                                                                                                                           Additional
       Trade                                                                                  Transaction                                          Initial Investment     Investment        Investment   Pricing
Note   Date        Name of Institution                                                        Type          Investment Description                            Amount         Amount           Amount 1   Mechanism
       6/23/2010                                                                                            Financial Instrument for HHF Program      $102,800,000                —                      N/A
2      9/23/2010   Nevada Affordable Housing Assistance Corporation, Reno, NV                 Purchase      Financial Instrument for HHF Program                  —      $34,056,581     $194,026,240    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $57,169,659                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $699,600,000                —                      N/A
2      9/23/2010   CalHFA Mortgage Assistance Corporation, Sacramento, CA                     Purchase      Financial Instrument for HHF Program                  —     $476,257,070    $1,975,334,096   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $799,477,026                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $418,000,000                —                      N/A
2      9/23/2010   Florida Housing Finance Corporation, Tallahassee, FL                       Purchase      Financial Instrument for HHF Program                  —     $238,864,755    $1,057,839,136   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $400,974,381                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $125,100,000                —                      N/A
                   Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ     Purchase                                                                                   $267,766,006
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $142,666,006                     N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program      $154,500,000                —                      N/A
2      9/23/2010   Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI   Purchase      Financial Instrument for HHF Program                  —     $128,461,559     $498,605,738    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $215,644,179                     N/A
                                                                                                                                                                                                                         Appendix D I Transaction Detail I April 25, 2012




       8/3/2010                                                                                             Financial Instrument for HHF Program      $159,000,000                —                      N/A
2      9/23/2010   North Carolina Housing Finance Agency, Raleigh, NC                         Purchase      Financial Instrument for HHF Program                  —     $120,874,221     $482,781,786    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $202,907,565                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program      $172,000,000                —                      N/A
2      9/23/2010   Ohio Homeowner Assistance LLC, Columbus, OH                                Purchase      Financial Instrument for HHF Program                  —     $148,728,864     $570,395,099    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $249,666,235                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program       $88,000,000                —                      N/A
2      9/23/2010   Oregon Affordable Housing Assistance Corporation, Salem, OR                Purchase      Financial Instrument for HHF Program                  —      $49,294,215     $220,042,786    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $82,748,571                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program       $43,000,000                —                      N/A
2      9/23/2010   Rhode Island Housing and Mortgage Finance Corporation, Providence, RI      Purchase      Financial Instrument for HHF Program                  —      $13,570,770      $79,351,573    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $22,780,803                     N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program      $138,000,000                —                      N/A
2      9/23/2010   SC Housing Corp, Columbia, SC                                              Purchase      Financial Instrument for HHF Program                  —      $58,772,347     $295,431,547    N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $98,659,200                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $60,672,471                —                      N/A
                   Alabama Housing Finance Authority, Montgomery, AL                          Purchase                                                                                   $162,521,345
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $101,848,874                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $55,588,050                —                      N/A
                   Kentucky Housing Corporation, Frankfort, KY                                Purchase                                                                                   $148,901,875
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $93,313,825                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $38,036,950                —                      N/A
                   Mississippi Home Corporation, Jackson, MS                                  Purchase                                                                                   $101,888,323
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —      $63,851,373                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $126,650,987                —                      N/A
                   GHFA Affordable Housing, Inc., Atlanta, GA                                 Purchase                                                                                   $339,255,819
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $212,604,832                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program       $82,762,859                —                      N/A
                   Indiana Housing and Community Development Authority, Indianapolis, IN      Purchase                                                                                   $221,694,139
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $138,931,280                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $166,352,726                —                      N/A
                   Illinois Housing Development Authority, Chicago, IL                        Purchase                                                                                   $445,603,557
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $279,250,831                     N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program      $112,200,637                —                      N/A
                   New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                Purchase                                                                                   $300,548,144
3      9/29/2010                                                                                            Financial Instrument for HHF Program                  —     $188,347,507                     N/A
                                                                                                                                                                                                Continued on next page
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 3/31/2012                                                                                                (continued)
                       Seller
                                                                                                                                                                                                        Additional
        Trade                                                                                           Transaction                                                    Initial Investment              Investment             Investment     Pricing
Note    Date           Name of Institution                                                              Type              Investment Description                                  Amount                  Amount                Amount 1     Mechanism
        9/23/2010                                                                                                         Financial Instrument for HHF Program               $7,726,678                          —                           N/A
                       District of Columbia Housing Finance Agency, Washington, DC                      Purchase                                                                                                             $20,697,198
3       9/29/2010                                                                                                         Financial Instrument for HHF Program                         —              $12,970,520                            N/A
        9/23/2010                                                                                                         Financial Instrument for HHF Program              $81,128,260                          —                           N/A
                       Tennessee Housing Development Agency, Nashville, TN                              Purchase                                                                                                           $217,315,593
3       9/29/2010                                                                                                         Financial Instrument for HHF Program                         —            $136,187,333                             N/A
                                                                                                                                                                                        Total Investment Amount         $7,600,000,000
Notes: Numbers may not total due to rounding. Data as of 3/31/2012. Numbered notes are taken directly from Treasury’s 3/27/2012, Transactions Report-Housing Programs.
1
 	 The purchase will be incrementally funded up to the investment amount.
2
 	 On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
 	 On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 3/27/2012.




Table D.14
FHA SHORT REFINANCE PROGRAM, AS OF 3/31/2012
Note        Trade Date            Seller Name                      Transaction Type      Investment Description                                                                                                                     Investment Amount       Pricing Mechanism
1           9/3/2010              Citigroup, Inc., New York, NY    Purchase              Facility Purchase Agreement, dated as of September 3, 2010, between the U.S. Department of the Treasury and Citibank, N.A                      $8,117,000,000      N/A
                                                                                                                                                                                              Total Investment Amount                 $8,117,000,000
Notes: Numbers may be affected by rounding. Data as of 3/31/2012. Numbered notes are taken verbatim from Treasury’s 3/27/2012, Transactions Report-Housing Programs.
1
 	On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year letter of credit (the
   “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance program from time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the
   then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.

Source: Treasury, Transactions Report-Housing Programs, 3/27/2012.
                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I April 25, 2012
                                                                                                                                                                                                                                                                                     313
